<html>
<title> - S. 65, THE HAWAIIAN HOMEOWNERSHIP ACT OF 2011</title>
<body><pre>[Senate Hearing 112-649]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-649

             S. 65, THE HAWAIIAN HOMEOWNERSHIP ACT OF 2011

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2012

                               __________

         Printed for the use of the Committee on Indian Affairs










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-305 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 2012...................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Inouye......................................     2

                               Witnesses

Boyd, Rodger J., Deputy Assistant Secretary, Native American 
  Programs, U.S. Department of Housing and Urban Development.....     7
    Prepared statement...........................................     8
Danner, Robin Puanani, President/CEO, Council for Native Hawaiian 
  Advancement....................................................    53
    Prepared statement...........................................    55
Filimoeatu, Kehaulani, Board President/Co-Founder, 
  HawaiianCommunity Assets, Inc..................................    60
    Prepared statement...........................................    63
Galuteria, Hon. Brickwood, Majority Leader, Hawaii State Senate..    38
    Prepared statement...........................................    41
Hanabusa, Hon. Colleen, U.S. Representative from Hawaii..........    19
    Prepared statement...........................................    21
Hirono, Hon. Mazie K., U.S. Representative From Hawaii...........     4
    Prepared statement...........................................     6
Kauhane, Michelle, Deputy Director, Department of Hawaiian Home 
  Lands, State of Hawaii.........................................    11
    Prepared statement...........................................    13
Mackenzie, Melody, Associate Professor of Law, Melody Kapilialoha 
  Mackenzie; Director, Ka Huli Ao Center for Excellence in Native 
  Hawaiian Law, William S. Richardson School of Law..............    22
    Prepared statement...........................................    24
Watson, Kali, Chairman, Housing & Economic Development Committee, 
  Sovereign Councils of the Hawaiian Homelands Assembly..........    50
    Prepared statement...........................................    52
Wurdeman, Richard Naiwieha, President, Native Hawaiian Bar 
  Association....................................................    43
    Prepared statement...........................................    44

                                Appendix

Brown, Samson L., President, Aupuni O Hawai'i, prepared statement    93
Causley, Cheryl A., Chairwoman, National American Indian Housing 
  Council, prepared statement....................................    87
Kahui, Craig ``Bo'', Executive Director, La'i'opua 2020, prepared 
  statement......................................................    89
Office of Hawaiian Affairs (OHA), prepared statement.............    90
Response to written questions submitted by Hon. Daniel K. Akaka 
  to Rodger J. Boyd..............................................    95
Richards, Paul P., Richards, President of the Waimanalo Hawaiian 
  Homes Association (WHHA), prepared statement...................    92
Ruis, Scottina Malia, Resource Management Specialist, Department 
  of Hawaiian Home Lands, prepared statement.....................    94
Young, Hon. Don, U.S. Representative from Alaska, prepared 
  statement......................................................    89

 
             S. 65, THE HAWAIIAN HOMEOWNERSHIP ACT OF 2011

                              ----------                              


                         FRIDAY, APRIL 13, 2012


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                Honolulu, Oahu, HI.
    The Committee met, pursuant to notice, at 10:05 a.m. in the 
Oahu Veterans Center, Hon. Daniel K. Akaka, Chairman of the 
Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I call this hearing of the Committee of 
Indian Affairs to order.
    Aloha mai, aloha mai kakou and mahalo for being here with 
us today.
    Audience. Aloha.
    The Chairman. It is so wonderful to be home and to be 
holding this legislative hearing on the U.S. Senate Bill 65, 
the Hawaiian Homeownership Opportunity Act of 2011. I know this 
measure is so important to advancing Prince Kuhio's vision of 
returning our people to the aina. And we must endeavor to meet 
the standard he set for us.
    As I mentioned earlier, this bill is crafted and sponsored 
by my good friend and partner, our great senior Senator Dan 
Inouye. Senator Inouye and I are pleased that you could join us 
today.
    Its companion bill in the house is sponsored by 
Congresswoman Mazie Hirono and co-sponsored by Congresswoman 
Colleen Hanabusa, and Congressman Don Young of Alaska.
    I'm happy to have invited the congresswomen to join the 
Committee on the dais for this hearing and to participate as 
their schedules permit. I know she's busy and--well, all of our 
members are busy--and I want to say, Congresswoman Hirono, much 
aloha. We are expecting Congresswoman Hanabusa shortly.
    I want to extend a warm aloha to our guests from 
Washington, DC and welcome HUD's Deputy Assistant Secretary for 
Native American programs, remember that name, Rodger Boyd, to 
Hawaii.
    Thank you for taking this time all of you for traveling 
here so far to talk with us and hear from the community about 
the importance of HUD housing programs for Native Hawaiians. I 
hope you were able to see some of the projects of HUD, Mr. 
Boyd, and what you've been supporting here in Hawaii.
    The United States has a trust relationship with Native 
Hawaiians as indigenous people of these islands of the State of 
Hawaii, and what is now the United States. Congress has 
understood this relationship for a long time, and began 
legislating to meet its trust responsibility--can you imagine--
over 90 years ago. With passage of the Hawaiian Homes 
Commission Act of 1920, Congress set aside 203,500 acres of 
land to ensure that the Native Hawaiian people had home lands 
where our ways and our communities could continue to thrive.
    Along the way, and in furtherance of the trust 
responsibility, Congress has enacted over 150 laws to protect 
Native Hawaiian rights, address Native Hawaiian concerns and 
provide resources to meet Hawaiian needs.
    In 1959 the Hawaii Admissions Act, the United States 
required the State of Hawaii to administer certain portions of 
federal trust responsibility, and the state incorporated that 
responsibility into its own constitution and body of law.
    As part of that federal trust responsibility, today's 
hearing considers a bill to reauthorize HUD programs that 
provide housing assistance to Native Hawaiians, ensuring that 
Native Hawaiian people have access to housing programs on our 
trust lands consistent, consistent, with that and what the 
United States provides to other federally recognized Native 
peoples.
    The Hawaiian Homeownership Opportunity Act is an important 
part of meeting the housing needs of no income Native 
Hawaiians, and achieving the original goal of the Hawaiian 
Homes Commission Act of 1920.
    Senator Inouye, now I would like to ask you to make any 
opening statement you may.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you. I thank you very much, Mr. 
Chairman, for holding this hearing on Senate Bill 65.
    Over the past four years American families have struggled 
through what some have called the great recession, and for the 
first time in a long while, American's middle class is 
experiencing housing problems. They have fallen behind in their 
loan payments. The value of their homes have dropped, and they 
can't sell it to recoup their investment. And some are losing 
their homes on foreclosures.
    The impact on Native communities have been many, many times 
worse. There were serious housing challenges experienced when 
the economy was good. According to the 2003 report published by 
the United States Commission on Civil Rights, approximately 
98,000 Native families are homeless or under-housed. And I'm 
certain that this number has only increased in the last decade.
    Poverty has run rampant in Native communities. Affordable 
and safe housing is difficult to obtain. As a result, Native 
families regularly face overcrowded and substandard living 
conditions.
    And here in Hawaii, studies have documented the acute 
housing needs of Native Hawaiians, which include the highest 
rates of overcrowding and homelessness in the State of Hawaii.
    Those same studies indicate that Native Hawaiians have the 
highest inadequate housing rates in the nation. And this should 
not be surprising because when you consider the cost of housing 
and the lack of affordable housing in this state, well, 
Hawaii's housing market has not yet fully recovered. The median 
sales price for single-family home on Oahu this past January--
listen to this--was $618,000. And how many young families can 
afford this, or for that matter, old families?
    And so I introduce S. 65, the Hawaiian Homeownership Act, 
because I believe this program is essential to provide 
affordable housing for the beneficiaries of the Hawaiian Home 
Lands trust. This bill amends the Native American Housing 
Assistance and Self-Determination Act and the Housing Committee 
Development Act of 1992 to extend housing assistance and loan 
guarantees for Native Hawaiian housing through fiscal year 
2015.
    This bill also makes the Department of Hawaiian Home Lands 
eligible for loan guarantees. These changes will provide Native 
Hawaiians with program benefits similar to those available to 
American Indians and Alaska Natives.
    United States has consistently demonstrated, as the 
Chairman has indicated, that clear trust relationship and 
responsibility of Native Hawaiians through scores and scores of 
studies and statutes over these decades. It is through that 
trust relationship that our nation has provided housing 
services to Native Hawaiians.
    Despite the Congress' clear historical recognition of this 
trust relationship, I must sadly tell you that there are some 
members who oppose Native Hawaiian programs and funding. It is 
my hope that through the testimony today, the hearing record 
will reinforce the historical and legal justification for 
Native Hawaiian programs, like housing, to benefit our state's 
condition.
    And so I thank you, Mr. Chairman, for your leadership in 
holding these hearings today. Unfortunately, I have a flight to 
catch, Mr. Chairman, so I'll be here to listen to the first 
panel, and if I may, sir, I would like to submit questions that 
can be submitted to the witnesses. Thank you very much, sir.
    The Chairman. Thank you very much, Senator Inouye. Your 
full statement will be placed in the record, and we are 
delighted to have had you here for the time you can spend with 
us.
    And, again, I just repeat, this is his bill, co-sponsored 
by our delegation, and we'll continue to work on it. Thank you, 
again, Senator, for your opening statement.
    Congresswoman Hirono, we'll hear you during the first 
panel, and from Congresswoman Hanabusa in the second panel. We 
will also hear from HUD and DHHL as the principal agencies 
tasked with carrying out this part of the trust responsibility 
to the Native Hawaiian people, from legal and state law experts 
who can help us review how the federal trust responsibility has 
been advanced by Congress, and the State of Hawaii, and from 
the community and the organizations partnering with them to 
deliver needed services and opportunities.
    As Chairman, it is my goal to ensure that we hear from all 
who want to contribute to the discussion. The hearing record 
will be open for two weeks from today, and I encourage everyone 
to submit your comments through written testimony. I know we 
are on Hawaiian time, but I encourage the witnesses to limit 
your oral testimony to five minutes, if you can, and so we can 
engage in a discussion afterwards as well.
    Serving on our first panel is Honorable Mazie Hirono, 
Congresswoman from Hawaii's Second District. And I would like 
to ask Mr. Rodger Boyd to please step forward also, Deputy 
Assistant Secretary for Native American programs at U.S. 
Department of Housing and Urban Development in Washington, DC.
    Michelle Kauhane, Deputy Director, State of Hawaii, 
Hawaiian Home Lands in Kapolei, Hawaii. Welcome to our panel.
    Congresswoman Hirono, will you please begin.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                U.S. REPRESENTATIVE FROM HAWAII

    Ms. Hirono. Thank you very much, Mr. Chairman. Good morning 
everyone.
    Senator Akaka, thank you so much for calling today's 
hearing, and, of course, Senator Inouye. Both of you have been 
leaders and champions in advancing the interests of Native 
Hawaiians, and it's certainly an honor to testify this morning.
    I am a strong supporter of S. 65, the Hawaiian 
Homeownership Act of 2011, which was introduced by our Senator 
Inouye, and I have introduced similar legislation in the House 
of Representatives, H.R. 2648, the Hawaiian Homeownership 
Opportunity Act, along with Congresswoman Hanabusa and Alaska 
Representative Don Young.
    My friend from Alaska, Don Young and I have partnered a 
number of times in the House to save and support Native 
Hawaiian and Alaska Native programs.
    Passage of S. 65 and H.R. 2648 would build up Congress' 
long and bipartisan history of supporting Native Hawaiian 
housing issues.
    Both of you have eloquently explained how important this is 
and how great the need is. This history of support spans nearly 
a century, and began with the passage of the Hawaiian Homes 
Commission Act which was passed in 1921 at the urging of 
Hawaii's Delegate to Congress, Prince Jonah Kuhio 
Kalanaiana'ole. That legislation set aside some 204,000 acres 
of land to provide homesteads for Native Hawaiians.
    With the enactment of the Statehood Act of 1959, the 
control and administration of the Hawaiian Homes Commission Act 
was transferred from the Federal Government to the late new 
State of Hawaii. And later in 1960 the Department of Hawaiian 
Home Lands, DHHL, was created to administer the Hawaiian Homes 
Commission Act.
    Then in 2000 Congress passed the American Homeownership and 
Economic Opportunity Act. This legislature established two 
programs to help provide housing to Native Hawaiians. The 
Native Hawaiian Housing Block Grant Program and the Section 
184A Loan Guarantee Program.
    To date, DHHL and community groups around the state have 
helped provide housing, counseling and financial literacy 
training to thousands of Native Hawaiians.
    Both of these programs have a real impact on the Native 
Hawaiian community. The Hawaiian Homes Commission and the 
dedicated staff at DHHL have both worked hard to make sure that 
the resources provided have been well used. And it is our solid 
charge as Hawaiian representatives to make sure that the U.S. 
Congress understands and fulfills its obligations to Native 
Hawaiians. And we always work together to fulfill this 
important responsibility and duty.
    As Senator Inouye mentioned, unfortunately there are those 
in Washington who view these programs as set-asides based on 
race or arbitrary expenditures to the federal budget. They 
reject the notion that we have a special responsibility to the 
indigenous people of our nation. And in recent years I have 
fought on the floor of the House of Representatives against 
these notions. Fortunately we have been successful.
    These programs aren't handouts. And there's certainly more 
than simply numbers in the federal budget. These programs are 
about giving families--families that have some of the greatest 
needs of all in Hawaii's population--the opportunity for 
homeownership. Owning a home has long been a pillar of the 
American dream, and it is a dream that people do not forget and 
do not give up on, and that is why passage of S. 65 is so 
important.
    This bill would reauthorize the Native Hawaiians Housing 
Block Grant program, as well as the Section 184A program 
through fiscal year 2015. It would also set in statute the 
ability for DHHL to refinance mortgages under the 184A program, 
and this authority currently exists only as provided for in the 
annual appropriations law.
    So it's very important that we put this authority in 
statute to ensure the necessary flexibility for the program as 
well as certainty for those considering refinancing as an 
option.
    Finally S. 65 would make DHHL eligible for Title VI loan 
guarantee program under the Native American Housing Assisting 
and Self-Determination Act. This program currently allows 
Indian Housing Block Grant recipients to pledge future grant 
funds as security in order to receive a private loan guaranteed 
by HUD to finance affordable housing projects. This could prove 
to be a useful tool for financing affordable housing projects 
in the future.
    And I do commend the DHHL for being very resourceful and 
just gathering the tools that we need to enable more Native 
Hawaiian families in pursuing and obtaining the American dream 
of homeownership.
    So I strongly support the passage of S. 65 and will 
continue working with the members of our delegation to see this 
measure advanced. At the same time we need to make sure that 
the programs currently authorized under these programs, under 
the existing laws, continue in the meantime.
    So, again, I appreciate this opportunity to put my strong 
support for S. 65 on the record, and I do apologize, senators 
and to the panel members, for my inability to stay for the 
remainder of the panels. But please know everyone that I 
completely am on the same page with all of you in supporting 
this bill. Mahalo nui loa.
    [The prepared statement Ms. Hirono follows:]

 Prepared Statement of Hon. Mazie K. Hirono, U.S. Representative from 
                                 Hawaii
    Aloha kakahiaka kakou (Good morning everyone). Thank you, Chairman 
Akaka, for calling today's hearing. You have been such a leader and 
champion in advancing the interests of the Native Hawaiian community. 
It is an honor to testify this morning.
    I am a strong supporter of S. 65, the Hawaiian Homeownership Act of 
2011, which was introduced by Senator Inouye. I have introduced similar 
legislation in the House of Representatives--H.R. 2648 the Hawaiian 
Homeownership Opportunity Act--along with Congresswoman Hanabusa and 
Alaska Representative Don Young.
    Passage of S. 65 and H.R. 2648 would build on Congress's long and 
bipartisan history of supporting Native Hawaiian housing issues. This 
history spans nearly a century and began with the passage of the 
Hawaiian Homes Commission Act. Congress passed this Act in 1921 at the 
urging of Hawaii's Delegate to Congress, Prince Jonah Kuhio 
Kalaniana`ole. That legislation set aside some 204,000 acres of land to 
provide homesteads for Native Hawaiians.
    With the enactment of the Statehood Act of 1959, the control and 
administration of the Hawaiian Homes Commission Act was transferred 
from the federal government to the new State of Hawaii. A year later in 
1960, the Department of Hawaiian Home Lands (DHHL) was created to 
administer the Hawaiian Homes Commission Act.
    Then in 2000, Congress passed the American Homeownership and 
Economic Opportunity Act. This legislation established two programs to 
help provide housing to Native Hawaiians: The Native Hawaiian Housing 
Block Grant Program and the Section 184A loan guarantee program. To 
date, DHHL and community groups around the state have helped provide 
housing, counseling, and financial literacy training to thousands of 
Native Hawaiians.
    Both of these programs have a real impact on the Native Hawaiian 
community. The Hawaiian Homes Commission and dedicated staff at DHHL 
have both worked hard to make sure that the resources provided have 
been well used. It is our solemn charge as Hawaii's representatives to 
make sure that the U.S. Congress understands and fulfills its 
obligations to Native Hawaiians, and we work together to see to this 
important duty.
    Unfortunately there are those in Washington who view these programs 
as set asides based on race, or arbitrary expenditures on the federal 
budget. They reject the notion that we have a special responsibility to 
the indigenous people of our nation. In recent years I've fought on the 
floor of the House of Representatives against these notions--and 
fortunately we've been successful. These programs aren't handouts and 
they are certainly more than simply numbers in the federal budget. 
These programs are about giving families--families that have some of 
the greatest needs in all of Hawaii's population-the opportunity for 
homeownership.
    Owning a home has long been a pillar of the American dream. This is 
a dream that people do not forget, and do not give up on. There many 
stories of Native Hawaiians who have been on waiting lists for decades. 
Some have died waiting to see this dream fulfilled. So it is clear that 
we have much more work to do. And that is why passage of S. 65 is so 
important.
    S. 65 would reauthorize the Native Hawaiian Housing Block Grant 
program as well as the Section 184A program through Fiscal Year 2015. 
It would also set in statute the ability for DHHL to refinance 
mortgages under the 184A program. This authority currently exists under 
authority provided in annual appropriations law. However, setting this 
ability in statute would ensure necessary flexibility for the program 
as well as certainty for those considering refinancing as an option.
    Finally, S. 65 would make DHHL eligible for Title VI loan guarantee 
program under the Native American Housing Assistance and Self-
Determination Act. This program currently allows Indian Housing Block 
Grant recipients to pledge future grant funds as security in order to 
receive a private loan guaranteed by HUD to finance affordable housing 
projects. This could prove to be a useful tool for financing affordable 
housing projects in the future.
    I strongly support the passage of S. 65 and will continue working 
with the members of the delegation to see this measure advanced. We 
will also continue to work together to see that the important programs 
that S. 65 would reauthorize receive the federal support they need in 
the meantime.
    Again, I appreciate the opportunity to testify in support of this 
important legislation. Mahalo nui loa (Thank you very much).

    The Chairman. Mahalo and thank you, Congresswoman Hirono, 
for your testimony.
    And now we will receive the testimony from Mr. Boyd. Would 
you please proceed.

         STATEMENT OF RODGER J. BOYD, DEPUTY ASSISTANT 
           SECRETARY, NATIVE AMERICAN PROGRAMS, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Boyd. Thank you, Mr. Chairman, and good morning.
    Mr. Chairman and Members of the Committee, it is a pleasure 
to appear before you this morning and of course to be back in 
Hawaii. My name is Rodger Boyd, and I am the Deputy Assistant 
Secretary for Office of Native American programs at HUD.
    On behalf of Secretary Shaun Donovan and Assistant 
Secretary Sandra Henriquez, I would like to express my deep 
appreciation for your ongoing commitment to improving housing 
conditions for Native Americans and Native Hawaiians.
    On a personal side, being a member of the Navajo Tribe, 
it's a great pleasure to have received your assistance over the 
very many, many years since I've been working on behalf of my 
Tribe and for Native Americans throughout the country.
    I'd also like to thank you for allowing HUD to provide 
comments on this S. 65 Hawaiian Homeownership Act of 2011. We 
have submitted written testimony to the Committee that does 
have greater details to my comments this morning.
    Chairman Akaka and Senator Inouye, as you know, HUD's 
Office of Native American programs is responsible for the 
management, operation and oversight of HUD's Native American 
and Native housing programs. The Native Hawaiian Housing 
Program my office administers is through the Native Hawaiian 
Housing Block Grant and the Native Hawaiian Section 12 184A 
Loan Guarantee Program.
    These programs contribute significantly to the development 
of housing and homeownership on Hawaiian home lands.
    I'm here today to testify that the Office of Native 
American Programs, and HUD, fully support the Hawaiian 
Homeownership Act of 2011, S. 65, and its expansion and 
reauthorization of both these programs through fiscal year 
2015.
    HUD has seen that the Department of Hawaiian Home Lands, 
which is the sole grantee of the Native Hawaiian Housing Block 
Grant, works effectively with its community partners to not 
only increase housing opportunities throughout the state, but 
to build stronger, more economically vibrant and self-
sufficient communities. DHHL's leaders understand the value of 
thoughtful planning that is evidenced in their annual strategic 
housing plans, which include elements of regional planning, 
energy efficiency and resource leveraging. DHHL has indicated 
that a reliable, steady stream of federal grant funding is 
essential to project and plan for long-term growth and 
development.
    To address critical housing issues such as affordability, 
overcrowding, structural quality, and availability, DHHL has 
targeted a significant amount of block grant funds to support 
site improvements and infrastructure development; financial 
assistance for home buyers; rehabilitation of existing units; 
homeownership counseling; and technical assistance to prepare 
families for home purchase and ownership.
    The first Block Grant was awarded first in Hawaii 2002 for 
$9.6 million. Over the last ten years the Block Grant 
investments has totaled $108 million, including Recovery Act 
funding.
    A key provision of S. 65 would create a Title VI program 
using Block Grant funds, which would greatly expand DHHL's 
ability to leverage federal and private funds. Title VI could 
be a powerful addition to the development tool for DHHL.
    On the mainland, Title VI has financed dozens of successful 
projects in Indian Country, and has provided an incentive for 
lenders, which I think is extremely important to get involved 
in the development of Tribal housing.
    The Section 184A Loan Guarantee Program provides access to 
private-market mortgage financing for Native Hawaiian families 
who might not otherwise be able to get a mortgage loan because 
of the trust status on Hawaiian home lands.
    S. 65 would expand the 184A program to allow families for 
the first time to refinance their home mortgages at the current 
low market rates. This would help Native Hawaiian families save 
more money, giving greater stability to communities where 
housing costs are among the highest in the nation, which was 
well pointed out.
    Under the fiscal year 2012 the Appropriations Act 
authorized Section 184A refinancing, but only for fiscal year 
2012. HUD strongly supports making refinancing provision 
permanent, as this bill will so allow.
    With the recent authority to refinance in fiscal year 2012, 
DHHL's success in constructing new homes, we expect loan 
activity to significantly increase, and certainly a permanent 
provision would be value added.
    In conclusion, Mr. Chairman, HUD supports S. 65 and the 
reauthorization of both the Native Hawaiian Housing Block Grant 
and the Section 184A Loan Guarantee Program. Through these 
programs, HUD can continue to partner with DHHL in providing 
Native Hawaiian families with fair and affordable housing 
opportunities.
    Thank you again for the opportunity to appear before you 
today. And I will be happy to answer any questions you may 
have, thank you.
    [The prepared statement of Mr. Boyd follows:]

   Prepared Statement of Rodger J. Boyd, Deputy Assistant Secretary, 
    Native American Programs, U.S. Department of Housing and Urban 
                              Development
    Mr. Chairman and Members of the Committee, it is a pleasure to 
appear before you this morning. My name is Rodger Boyd, and I am the 
Deputy Assistant Secretary for the Office of Native American Programs 
(ONAP) at the Department of Housing and Urban Development.
    On behalf of Secretary Donovan and Assistant Secretary Henriquez, I 
would like to express my deep appreciation for your ongoing commitment 
to improving housing conditions for Native Hawaiian peoples. I also 
want to thank you for allowing HUD to provide comments on Senate Bill 
65, the Hawaiian Homeownership Act of 2011.
    Chairman Akaka, as you know, HUD's Office of Native American 
Programs is responsible for the management, operation and oversight of 
HUD's Native American and Native Hawaiian programs. These programs are 
available to 566 federally-recognized Indian tribes, 5 state-recognized 
Indian tribes formerly eligible under the United States Housing Act of 
1937, and the State of Hawaii's Department of Hawaiian Home Lands. We 
serve these entities directly, or through their tribally designated 
housing entities, by providing grants and loan guarantees designed to 
support affordable housing and community development activities.
Native Hawaiian Housing Block Grant Program
    Title VIII of the Native American Housing Assistance and Self-
Determination Act of 1996, as amended, or NAHASDA, establishes a block 
grant program, the Native Hawaiian Housing Block Grant (NHHBG),to carry 
out affordable housing activities for Native Hawaiian families eligible 
to reside on Hawaiian home lands. The Department of Hawaiian Home Lands 
(DHHL) is the sole recipient of this grant and administers the NHHBG 
program. DHHL is the department of government for the State of Hawaii 
responsible for the administration of the Hawaiian Homes Commission 
Act.
    To address critical housing issues such as affordability, 
overcrowding, structural quality, and availability, DHHL has targeted a 
significant amount of NHHBG funds to support:

  <bullet> Site improvements and infrastructure for new construction of 
        affordable housing;

  <bullet> Financial assistance for homebuyers;

  <bullet> Rehabilitation of existing affordable housing units;

  <bullet> Homeownership counseling; and

  <bullet> Technical assistance to prepare families for home purchase 
        and ownership.

NHHBG Program Funding and Accomplishments
    The first NHHBG grant was awarded in FY 2002 for $9.6 million. Over 
the last ten years, NHHBG grants have ranged from $8.3 million in FYs 
2006 and 2007 to a high of $12.7 million in FYs 2010 and 2012.
    In the last seven years, 461 affordable homes have been built, 
acquired, or rehabbed with NHHBG funds, and the program has provided 
the basic, critical infrastructure to support new construction 
throughout the Hawaiian home lands. In addition, the program has 
provided training and technical assistance to community housing 
providers, lenders, and low-income residents, including 233 Native 
Hawaiian families trained just last year in self-help home repair, 
financial literacy, and home buying. Over 840 families have 
participated in training over the life of the program.
    DHHL works with Native Hawaiian organizations, civic groups, and 
service agencies in the public, private, and government sectors. DHHL's 
housing and community development partners include: Habitat for 
Humanity, the Council for Native Hawaiian Advancement, USDA Rural 
Development and the County of Hawaii.
    Most of DHHL's affordable housing projects are developed over 
several years. Currently, there are six NHHBG-funded housing projects 
in progress, all of which are at various stages of development, from 
design, to infrastructure installation, to home construction.
    Here are a few examples:
Kumuhau and Kakaina Subdivisions
    One hundred single-family homes are planned for construction on a 
16-acre parcel in Waimanalo on the island of Oahu, of which, 28 lots 
are reserved for NHHBG-eligible families.

  <bullet> $1.4 million in FY 2006 and $50,000 in FY 2007 NHHBG funds 
        was used for on- and off-site infrastructure construction for 
        the Kumuhau subdivision. Approximately 18 of the 52 lots (45 
        turnkey and 7 self-help lots) are reserved for NHHBG-eligible 
        families.

  <bullet> As of September 30, 2011, site work for Kumuhau was 
        complete. The construction of 45 turnkey homes was underway, 22 
        of which were complete. Of the 22 completed homes, 3 were for 
        NHHBG-eligible families.

  <bullet> The Kakaina subdivision consists of 44 lots. This project is 
        in the infrastructure phase. Approximately 10 of the 44 lots 
        will be for NHHBG-eligible families.

East Kapolei I (Kanehili)
    This project consists of the development of 400 single-family homes 
on a 92-acre parcel in Kapolei on the island of Oahu; approximately 72 
of the homes will be for NHHBG-eligible families.

  <bullet> $447,300 in FY 2002 NHHBG funds was applied toward the total 
        cost of $2.5 million for project engineering and design, which 
        was completed in March 2007.

  <bullet> $1.7 million in FY 2006 NHHBG funds was used, in combination 
        with DHHL trust funds, to pay for approximately 18 percent of 
        the cost for mass grading and on- and off-site infrastructure 
        construction in increment I of the subdivision.

  <bullet> As of September 30, 2011, site work was complete for 
        increment I phases 1 through 4, which includes 286 lots. House 
        construction in increment I was ongoing, with 250 homes 
        completed and occupied and another 30 homes under construction.

Laiopua Villages 4 and 5
    Approximately 360 single-family homes are planned for construction 
on 2 parcels totaling 86 acres at Kealakehe in North Kona on the island 
of Hawaii. The homes are allocated between Village 4 (243) and Village 
5 (117) of Laiopua. Seventy-two lots are reserved for NHHBG-eligible 
families.

  <bullet> $3.8 million in FY 2003, 2004, 2005, and 2006 NHHBG funds 
        was used for mass grading. Additional NHHBG funding will be 
        used for infrastructure construction, house construction loans, 
        or down payment assistance grants, and self-help technical 
        assistance.

  <bullet> $1.2 million in FY 2006 and 2007 and 2008 NHHBG funds is 
        being used to install streets, sewer and utilities for Village 
        5.

  <bullet> As of September 30, 2011, mass grading work was complete for 
        Village 5 and Village 4. Installation of streets, sewer and 
        utilities was 95 percent complete for Village 5. House 
        construction for 45 homes in Village 5 was underway. Village 4 
        was in the design phase.

East Kapolei II
    A total of 1,000 single-family residential lots are planned for 
construction on a 374-acre parcel in Kapolei on the island of Oahu, of 
which, approximately 200 lots will be reserved for NHHBG-eligible 
families.

  <bullet> $53.9 million in FY 2007 and other NHHBG funds are planned 
        to be used in combination with DHHL trust funds for on- and 
        off-site infrastructure construction, consultant services, 
        including engineers and architects, house construction loans or 
        down payment assistance grants, self-help technical assistance, 
        and utility fees.

  <bullet> $3 million was used in FY 2010 to complete off-site sewer 
        and drainage work.

  <bullet> $4 million in Recovery Act funds is being used to do mass 
        grading for East Kapolei II, increments B and C. As of 
        September 30, 2011, this mass grading work was 90 percent 
        complete.

    Partnerships with Habitat for Humanity and other service 
organizations are making it possible for low-income Native Hawaiian 
families to achieve homeownership through the self-help method of 
construction in various projects on the islands of Kauai, Oahu, Maui, 
Molokai, and Hawaii. Partnerships have also been secured to implement a 
home rehabilitation grant program, a self-help home repair training 
program, and to provide homeownership counseling and training.
Native Hawaiian Housing Loan Guarantee (Section 184A)
    The Section 184A Loan Guarantee for Native Hawaiian Housing 
program, known as Section 184A, was established by Section 514 of the 
American Homeownership and Economic Opportunity Act of 2000 (P.L. 106-
569, approved December 27, 2000), which amended the Housing and 
Community Development Act of 1992 (12 U.S.C. 1715z-13b). The purpose of 
Section 184A is to provide access to sources of private mortgage 
financing to Native Hawaiian families who could not otherwise acquire 
housing financing because of the unique legal status of the Hawaiian 
home lands.
    Eligible borrowers include Native Hawaiian families who are 
eligible to reside on Hawaiian home lands, the DHHL, the Office of 
Hawaiian Affairs, or private nonprofit organizations experienced in the 
planning and development of affordable housing for on Hawaiian home 
lands. Loans are used to construct, acquire, or rehabilitate eligible 
housing located on the Hawaiian home lands. The FY 2012 Appropriations 
Act authorized funding to be used for Section 184A refinancing.
Section 184A Program Funding and Accomplishments
    In August 2005, DHHL closed on the first loan guaranteed under the 
Section 184A Loan Guarantee program. In May 2006, HUD executed a 
memorandum of agreement with DHHL that served as the foundation for 
subsequent loan activity. Prior to this agreement, DHHL was the only 
eligible participant in the program. Since 184A program activity began 
in FY 2005, 269 loans have been guaranteed. Given the recent authority 
to use the program for refinancing, and DHHL success in constructing 
new homes on Hawaiian home lands, HUD expects loan activity to 
significantly increase within the next year.
The Hawaiian Homeownership Act of 2011, Senate Bill 65
    HUD supports The Hawaiian Homeownership Act of 2011 (Senate Bill 
65) and its reauthorization and expansion of both NHHBG and Section 
184A through 2015. DHHL is working effectively with community partners 
to not only increase housing opportunity on the Islands, but to build 
stronger, more economically vibrant and self-sufficient communities. 
DHHL understands the value of thoughtful planning as evidenced in its 
strategic plan, which includes elements of regional planning, energy 
efficiency and leveraging resources.
    Expanding the 184A program to allow families to refinance will 
provide a perfect complement to the limited amount of financing options 
available for properties on Hawaiian home lands. The Section 184A 
program makes it possible for eligible Native Hawaiian families to 
refinance their homes at the current market rate of interest. The money 
saved on a monthly basis through refinancing is critical to families 
living in high-cost areas, and provides greater stability of Native 
Hawaiian communities.
    And giving DHHL the ability to participate in the Title VI program 
will expand the leveraging capacity of federal funds, and at the same 
time, will decrease dependency on government dollars. Currently, only 
tribes or their tribally designated housing entities can participate in 
the Title VI program. This program is a powerful leveraging and 
development tool that encourages long-term projects and the leveraging 
of a variety of funding sources. Under Title VI, HUD can guarantee 95 
percent of a loan for affordable housing activities covered under 
NAHASDA. Borrowers pledge a portion of their current and future housing 
block grant funds as security. This program has provided an incentive 
for lenders to get involved in the development of tribal housing.
Conclusion
    In conclusion Chairman, through the reauthorization of both the 
Native Hawaiian Housing Block Grant and the Section 184A program we can 
work towards giving every Native Hawaiian family a fair shot at having 
a home.
    Thank you again for this opportunity to appear before you today. I 
would be happy to answer any questions you may have.

    The Chairman. Thank you, very much, Mr. Boyd. Your full 
statement will be included in the record. I want to thank very 
much for your positive testimony.
    Ms. Kauhane, please proceed.

 STATEMENT OF MICHELLE KAUHANE, DEPUTY DIRECTOR, DEPARTMENT OF 
              HAWAIIAN HOME LANDS, STATE OF HAWAII

    Ms. Kauhane. Thank you, Senator.
    Aloha Chairman and Senator Inouye, and Distinguished 
Members of the Senate Committee on Indian Affairs.
    My name is Michelle Kauhane, and I thank you for the 
invitation and opportunity to provide testimony on behalf of 
the State of Hawaii, Department of Hawaiian Home Lands. Our 
state agency is responsible for the administration of the 
federal land trust established by Congress through the Hawaiian 
Homes Commission Act of 1920.
    DHHL strongly supports Senate Bill 65, the Hawaiian 
Homeownership Opportunity Act of 2011, which reauthorizes 
federal housing assistance and loan guarantees for Native 
Hawaiians.
    Today I will provide highlights of my written testimony 
that give a short overview of DHHL's role in administering the 
Hawaiian Homes Commission Act, describe the Native Hawaiian 
housing need that make NAHASADA vitally important to our 
progress, and share some of the ways NAHASDA has assisted in 
supporting Native Hawaiian homestead communities.
    DHHL has a unique role as a state agency to manage the 
federally created land trust to reconnect Native Hawaiians to 
their ancestral lands in Hawaii. For the beneficiaries of the 
HHCA, self-determination and self-governance is expressed 
through the existence of organizations governed by 
beneficiaries or homesteaders themselves.
    These homestead associations have existed for decades, and 
have representative leadership through democratically elected 
processes for each homestead land area on different islands 
within the state.
    Just as Tribes are powerful partners with the Federal 
Government, homestead associations are vital to our state's 
success in implementing the tenets of the Hawaiian Homes 
Commission Act as Congress intended.
    After 92 years since the enactment of Hawaiian Homes 
Commission Act, just over 10,000 land leases have been issued 
to beneficiaries for homesteading purposes. An estimated 35,000 
lessees and family members reside on our homestead lands 
throughout Hawaii. Approximately 48 percent located on Oahu, 23 
percent on Hawaii island, 22 percent in Maui County and seven 
percent on Kauai.
    In addition to the beneficiaries residing on Hawaiian Home 
Lands, the waitlist of individual applicants to receive a land 
award under the Hawaiian Homes Commission Act exceeds 26,000 
individuals, with waiting times ranging from five years to 50 
years.
    According to an SMS 2008 survey, about 46 percent of the 
applicants on the DHHL waitlist have incomes below 80 percent 
of the HUD median. More than half of those low income 
applicants fall into the category between 30 and 50 percent of 
that same area median income.
    DHHL must provide housing solutions to meet the needs of 
the low and very low income on the waitlist. These families 
continue to get passed over as they have the most difficulty in 
qualifying for mortgage financing based on the current sales 
prices that are simply out of reach for these income 
categories.
    Since 2002, DHHL has received and utilized the NAHASDA 
funds primarily to support subdivision development. 
Approximately 75 percent of the open lands of our trust remain 
undeveloped. One of the largest barriers to issuing lands to 
individuals on the waitlist is the investment required in 
infrastructure for roads, utilities, water, wastewater 
facilities, broadband and renewable energy sources.
    In addition to subdivision development, we have issued low 
cost loans, down payment assistance and subsidies, individual 
development accounts, and home repair/rehabilitation programs. 
Likewise, the funds have supported financial literacy and 
homebuyer education and counseling, as well as foreclosure 
prevention and lease cancellation services.
    DHHL also awards grant funds to qualified entities with a 
wide array of programs servicing our homestead association and 
beneficiaries.
    In addition to direct financial resources, Senate Bill 65 
would also authorize credit subsidies that make mortgage 
capital available to Native Hawaiian beneficiaries under the 
HUD 184A loan program to purchase, construct and refinancing of 
homes.
    The HUD 184A program is one of the most successful trust 
land focused home loan products to be sponsored by the Federal 
Government. The program is one of only a very few sources of 
home loan capital available for financing homestead properties.
    In addition, the 184A program is a remarkably affordable 
mortgage product with no mortgage insurance requirement.
    The federal loan guarantee provided by the 184A program is 
powerfully important to bringing private capital to new home 
development in every county of the State of Hawaii where 
Hawaiian Home Lands are located. Since 2007 when the first loan 
closed, the 184A portfolio has grown to over $50 million in 
just over four years.
    Finally, Senate Bill 65 authorized, or would authorize DHHL 
for loan guarantees under Title VI of NAHASDA. This eligibility 
would allow the Department to borrow against its annual awards 
to do larger scale housing development and long-term planning.
    Mr. Chairman, on behalf of DHHL and Department of Hawaiian 
Home Lands, we thank you for your unwavering support for our 
homestead beneficiaries. You have always been a champion for 
Hawaii's people throughout your longstanding career in the 
United States Congress. We have been honored to share you with 
the rest of our nation and we welcome you back home with open 
arms at the end of 2012.
    Senate Bill 65, the Hawaiian Homeownership Opportunity Act 
of 2011 is vitally important to fulfilling the mission of the 
Hawaiian Homes Commission Act in reconnecting Native Hawaiians 
with their lands.
    Thank you for this opportunity to share our mana'o with you 
and the Committee.
    [The prepared statement of Ms. Kauhane follows:]

Prepared Statement of Michelle Kauhane, Deputy Director, Department of 
                  Hawaiian Home Lands, State of Hawaii
    Aloha Chairman Akaka, Vice-Chairman Barasso and Members of the 
Senate Committee on Indian Affairs.
    My name is Michelle Kauhane, and I thank you for the invitation and 
opportunity to provide testimony on behalf of the State of Hawaii, 
Department of Hawaiian Home Lands (DHHL). Our state agency is 
responsible for the administration of the federal land trust 
established by Congress through the Hawaiian Homes Commission Act of 
1920 \1\ (HHCA).
---------------------------------------------------------------------------
    \1\ Ch. 42, 42 Stat. 108 (1921)
---------------------------------------------------------------------------
    The Department of Hawaiian Home Lands strongly supports S. 65, the 
Hawaiian Homeownership Opportunity Act of 2011, which reauthorizes 
housing assistance and loan guarantees for Native Hawaiians.
    I will provide additional information about why this program is so 
important to HHCA beneficiaries, but before doing so, I want to provide 
some context regarding the Department's unique role as the 
administrator of the Hawaiian Home Lands trust.
Hawaiian Trust Lands Under the Hawaiian Homes Commission Act
    Since Hawaii's overthrow as an independent nation and the 
subsequent annexation to the United States, one of the most significant 
federal policy achievements for native Hawaiians was the enactment by 
the U.S Congress of the HHCA. The HHCA began as a resolution in the 
territorial government in Hawaii, and was championed by the territory's 
congressional representative, Prince Jonah Kuhio Kalanianaole. Similar 
to other land allotment acts of that era for Alaska Natives and 
American Indians, the HHCA established a land trust of approximately 
200,000 acres of land located in every county in the state, to provide 
for the rehabilitation of native Hawaiians through the provision of 
land for residential, agricultural and pastoral homesteading. The Act 
is the clearest example of the United States' recognition of Native 
Hawaiians as an indigenous people with whom the United States has a 
trust relationship.
    Hawaii entered the Union in 1959, during a period when federal 
responsibilities towards indigenous peoples were often delegated to the 
States. Consistent with that policy, the HHCA was incorporated into 
Public Law 86-3, the Hawaii State Admissions Act in 1959, ``[a]s a 
compact with the United States relating to the management and 
disposition of the Hawaiian home lands . . .'' \2\ DHHL was established 
by the State of Hawaii in 1961 to manage the federal responsibilities 
delegated to the State of Hawaii associated with administering the 
HHCA.
---------------------------------------------------------------------------
    \2\ Section 4, P.L. 86-3, 73 Stat. 4 (1959)
---------------------------------------------------------------------------
    While the State of Hawaii has the authority to amend the HHCA, 
Section 4 of the Admissions Act requires the consent of the United 
States to amendments which reduce or impair certain funds, increase 
encumbrances on the Hawaiian Homes land trust, or change the 
qualification of lessees. By ensuring that actions that negatively 
impact the implementation of the HHCA require federal consent, the 
United States acknowledged its trust responsibility as it relates to 
the Hawaiian Homes Commission Act.
    In 1995, Congress enacted the Hawaiian Home Lands Recovery Act, \3\ 
to recover lands that had been withdrawn from the Hawaiian Homes land 
trust. In recognition of the United States' political and legal 
relationship with Native Hawaiians, the Act also required the Secretary 
of the Interior to designate an individual to administer the 
responsibilities of the United States under the Hawaiian Homes 
Commission Act. The Assistant Secretary of Policy, Budget, and 
Administration of the Department of the Interior, therefore, is charged 
with exercising the responsibilities of the Interior Department as it 
pertains to advancing the interests of the HHCA beneficiaries and 
assisting beneficiaries with obtaining federal services related to the 
promotion of homesteading opportunities, economic self-sufficiency and 
social well-being. \4\
---------------------------------------------------------------------------
    \3\ P. L. 104-42, 109 Stat.357 (1995)
    \4\  Id. Section 206.
---------------------------------------------------------------------------
    DHHL is governed by a 9-member Hawaiian Homes Commission appointed 
by Hawaii's Governor. Its Director, a member of the Governor's cabinet, 
also serves as the Chairman of the Commission. DHHL, therefore, has a 
unique role as a state agency managing a federally created land trust 
to reconnect native Hawaiians to their ancestral lands in Hawaii. We 
embrace this unique relationship and work in partnership with the 
federal agencies to fulfill the federal trust responsibility as it 
pertains to the Hawaiian Homes land trust.
    Like our American Indian and Alaska Native brethren with trust 
lands, we work with federal agencies to ensure that our native 
communities on trust lands are eligible to utilize federal programs 
like NAHASDA which provide much needed housing, access to capital, and 
opportunities for economic self-determination. We firmly believe that 
federal trust lands status should serve as a criterion for federal 
programming as a way for the United States to fulfill its federal trust 
responsibility to its native peoples.
Self-Determination of Native Hawaiians
    In Hawaii, we do not refer to our Native peoples as tribal members 
or Indians, although it is clear that Congress intended the inclusion 
of Native Hawaiians in the federal policies of self-determination. The 
most common terminology most understood in the islands to represent 
native Hawaiians eligible for the HHCA land trust, are ``beneficiary'' 
or ``homesteader''. Moreover, the lands in the Hawaiian Home Land trust 
are referred to as ``homesteads'' rather than reservations. For the 
purposes of our testimony, these terms will be used to describe native 
Hawaiians and land areas under the HHCA, which was enacted by Congress 
during a policy period of the federal government wherein land trusts 
and Native allotment programs were commonly established for Native 
peoples in Indian Country and Alaska. The HHCA was an extension of 
those policies, as well as the federal policies of self-determination 
that have been well documents over the last century.
    For the beneficiaries of the HHCA, self-determination and self-
governance is expressed through the existence of beneficiary 
organizations governed by beneficiaries or homesteaders themselves. 
These organizations, called homestead associations, have existed for 
decades, and have representative leadership through democratically 
elected processes for each homestead land area on differing islands 
within the state. Just as tribes are powerful partners with the Federal 
Government, homestead associations are vital to our state's success in 
implementing the tenets of the HHCA as Congress intended.
Homesteading Progress
    After 92 years since the enactment of the HHCA, just over 10,000 
land leases have been issued to beneficiaries for homesteading 
purposes. In the past 10 years, approximately 2,500 leases were issued. 
An estimated 35,000 lessees and family members reside on homestead 
lands throughout Hawaii. Approximately 48 percent are located on Oahu, 
23 percent on the island of Hawaii, 22 percent in Maui County, and 7 
percent on Kauai. Among the lessees, the majority of leases are 
residential (89 percent), followed by 8 percent agricultural, and the 
remaining 3 percent in pastoral.
    According to a 2008 lessee survey conducted by SMS Research, DHHL 
lessee households consist of 3 to 7 people with a mean of 4.2 household 
members. The median household income among lessees was $48,731 in 2008, 
lower than the median household income for the State at $63,746. In 
addition, the survey estimated 51 percent of DHHL lessee households had 
incomes below 80 percent of the HUD median.
    In addition to the beneficiaries on the land, the wait list of 
beneficiaries to receive a land award under the HHCA exceeds 26,000, 
with waiting times ranging from 5 years to 50 years. According to the 
SMS 2008 survey, 46 percent of the applicants on the DHHL waitlist had 
incomes below 80 percent of the HUD median. At least half (50.8 
percent) of all applicants that are at or below 80 percent AMI on the 
waitlist, fall into the 51%-80 percent range, just under 30 percent 
fall in the 30-50 percent AMI range, and approximately 22 percent fall 
in the less than 30 percent AMI range.
Low Income Native Hawaiian Housing Need
    For low income native Hawaiian households (those making less than 
80 percent of the area media income), housing needs are severe with 68 
percent of these households experiencing some kind of housing problem 
such as affordability, overcrowding, structural quality, availability 
or some combination of these problems. For very low income households 
(those making less than 50 percent of the area median income) the needs 
are even more severe with nearly 75 percent of the households in this 
category facing some kind of housing problem. While housing needs are 
serious for the native Hawaiian population as a whole, the situation is 
more critical for the low and very low-income households. The 
percentage of low-income native Hawaiian households that experience 
housing problems is more than double the percentage of native Hawaiian 
households as a whole with housing problems--68 percent versus 27 
percent. For very low-income native Hawaiian households, this 
percentage is almost triple 75 percent versus 27 percent.
Addressing the Needs
    Given the housing needs, DHHL has focused the use of the NHHBG 
funds on increasing the supply of affordable housing units or to 
rehabilitate existing units to relieve some of the overcrowding 
pressures and substandard living conditions experienced in many low-
income native Hawaiian households. In addition, DHHL has supported 
healthy and safe communities. We have empowered resident organizations 
and continue to promote self-sufficiency for native Hawaiian families.
    It is well understood, that the progress made to implement the 
primary purpose of returning native Hawaiians to their lands under the 
HHCA, is and has been inadequate. These numbers clearly show that in 
2012, almost 100 years after the enactment of HHCA, there is still a 
strong desire by native Hawaiians to live and work on the Hawaiian Home 
Lands. There is no question that DHHL and the HHC have been underfunded 
and under-resourced for many years. Federal programs such as NAHASDA 
and the HUD 184A Loan Guarantee program help to fulfill the mission of 
the HHCA by reconnecting native Hawaiians to their ancestral lands.
S. 65, Hawaiian Homeownership Opportunity Act of 2011
    DHHL strongly supports S. 65, the Hawaiian Homeownership Act of 
2011, a vital tool for native Hawaiian beneficiaries of the HHCA. S. 65 
reauthorizes NAHASDA Title VIII funding, provides necessary credit 
subsidies to allow HHCA beneficiaries to utilize the HUD 184A loan 
guarantee program for purchasing and refinancing home loans like their 
Indian and Alaska Native counterparts, and makes DHHL an eligible 
entity for NAHASDA Title VI loan guarantees.
NAHASDA
    In 2000, the congress enacted Title VIII of NAHASDA, creating for 
the fist time, a modest allocation of federal funding to support the 
development of affordable housing for low- and moderate-income 
beneficiaries.
    Since 2002, DHHL has received and utilized NAHASDA funding to 
support subdivision development. Approximately seventy-five percent of 
the open lands of the Hawaiian Home Lands trust remain undeveloped. One 
of the largest barriers to issuing land to the 26,000+ individuals on 
the waitlist is investment in infrastructure for roads, utilities, 
water/waste water facilities, broadband and renewable energy sources. 
NHHBG funds have been a vital source of infrastructure funding for DHHL 
since 2002. These fund have brought vital leverage to our trust funds 
and have allowed us to continue housing development.
    In addition to subdivision development, NHHBG funds have provided 
grants to qualified entities with programs servicing homestead 
beneficiaries, loans, down payment assistance and individual 
development account programs, and home repair/rehabilitation programs. 
Likewise, the funds have supported financial literacy and homebuyer 
education and counseling, as well as foreclosure prevention/lease 
cancellation services.
HUD 184A Program
    The HUD 184A program is one of a very few sources of home loan 
capital available to native Hawaiians residing on Hawaiian Home Lands. 
The HUD 184A federal loan guarantee is powerfully important in bringing 
private capital to new home development in every county of the State of 
Hawaii where Hawaiian Homes trust lands are located. This program is 
one of the most successful trust land focused home loan products to be 
sponsored by the federal government. S. 65 would provide credit 
subsidies that make mortgage capital available to native Hawaiian 
beneficiaries of the HHCA to purchase, construct, or refinance their 
homes.
Title VI Loan Guarantees
    S. 65 authorizes DHHL for loan guarantees under Title VI of 
NAHASDA. This eligibility would allow us to borrow or issue debt for 
affording housing activities which helps us to leverage additional 
resources to increase opportunities of homeownership for homestead 
families.
Conclusion
    Mr. Chairman, on behalf of the Hawaiian Homes Commission and the 
Department of Hawaiian Home Lands, thank you for your unwavering 
support of homestead beneficiaries. You have always been a champion for 
Hawaii's people. Your efforts over your longstanding career in the 
United States Congress have truly helped our people to reconnect with 
the `aina. You championed legislation that allowed homesteads to be 
inherited by family members meeting the 25 percent blood quantum. You 
created the Native American Veteran Direct Loan Program to address the 
unique situation faced by Native American veterans seeking to utilize 
the VA Home Loan Program on trust lands. Through the Hawaiian Home 
Lands Recovery Act you ensured not only that the Hawaiian homes trust 
was replenished after lands were wrongly withdrawn, but you also 
ensured that the United States designated a federal official to assist 
homestead beneficiaries at the federal level. And, most importantly, 
you created a pathway for the United States and Native Hawaiians to 
engage in a process of reconciliation to address the many longstanding 
issues resulting from the illegal overthrow of the Kingdom of Hawaii 
through the enactment of P.L. 104-150, the Apology Resolution.
    As the Chairman of the Senate Committee on Indian Affairs, you have 
worked to ensure continued economic self-determination in native 
communities through increased access to capital and federal programs 
and services. You have championed the federal trust responsibility and 
worked to ensure that the United States fulfill its responsibilities to 
promote the welfare of its indigenous peoples. Mr. Chairman, we have 
been honored to share you with the rest of our nation and we welcome 
you back home with open arms at the end of 2012.
    S. 65, the Hawaiian Homeownership Opportunity Act of 2011, is 
vitally important to fulfilling the mission of the Hawaiian Homes 
Commission Act to reconnect native Hawaiians with their lands. Thank 
you for the opportunity to share our mana`o with you and your 
Committee.

    The Chairman. Thank you very much, Ms. Kauhane, for your 
testimony.
    I know our Senator Inouye has to leave, so I'm going to ask 
Senator for any questions he may have.
    Senator Inouye. Thank you very much, Mr. Chairman. I've 
submitted the questions, but I would like to thank Mr. Boyd for 
making the special effort to be with us for this important 
hearing. I know that you had to go out of your way to do this. 
We appreciate it.
    Ms. Kauhane, we appreciate your leadership. Thank you very 
much. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Inouye. Thank 
you for your leadership in Hawaii and wish you well and have a 
safe trip.
    Senator Inouye. Thank you.
    The Chairman. My first question is to Mr. Boyd. Thank you 
so much for being here, Mr. Boyd, I appreciate it, your 
presence.
    There has been some discussion regarding the spend-down 
rates of some Tribes under the NAHASDA program. My 
understanding is that the NAHASDA allows Tribes some 
flexibility in how and when to spend their annual allocations.
    Can you provide examples, examples of why NAHASDA allows 
grantees to carry funds forward? And explain why this is an 
important ability for grantees to have it.
    Mr. Boyd. Thank you, Mr. Chairman.
    Since the inception of NAHASDA, and everything within the 
development of operating the Block Grant Program is done by 
negotiated rulemaking. So many things that we set into place, 
in addition to what was originated in the statutes and 
regulations, we have always added over the years. And as a 
matter of fact NAHASDA will be up for reauthorization in 2014.
    But at any rate, I wanted to make that statement because 
it's not only HUD's involvement in the process of developing 
the operations of NAHASDA, but it also includes a lot of 
participation from Tribes throughout the country.
    One of the things that Tribes noticed, and we noticed early 
on, was some of the smaller Tribes--and, again, we operate 
under a Grant Block formula and based on need.
    But at any rate, over the years, we've found out that some 
of the smaller Tribes may only receive like about $50,000 a 
year. And so for those smaller Tribes, and some of the medium 
size Tribes, it's difficult to have enough money to some 
construct a home in one year given that amount.
    So through appropriations and no-year funding, Tribes are 
allowed to build on appropriations over several years so that 
they will obtain enough money to build a unit. In some cases, 
it's pretty dramatic in some situations.
    Another example probably would be a good case like in 
Alaska where you have regional housing preparations that have 
many villages under their jurisdiction, and so I think the no-
year funding helps them also to roll those funds over for a 
couple of years so that they can adequately serve everybody 
within their communities.
    The Chairman. Thank you very much for that response.
    Michelle, the waitlist for Hawaiian Home Lands include 
persons who have been waiting for award, sometimes in excess of 
20 years. Can you describe some of the barriers to getting 
these people off the waitlist and onto the land?
    And describe what role NAHASDA funding and the Section 184A 
Loan Program played in helping the Department meet its mandate 
under the Hawaiian Homes Commission Act.
    Ms. Kauhane. Thank you, Senator.
    Yes, many of those folks, particularly low and very low 
income families who have been on the waitlist do get passed 
when they are required to qualify for the mortgage prior to 
being awarded their lot.
    And so NAHASDA has helped the Department in many ways with 
dollars in the ground for infrastructure, which then represents 
subsidies to purchase down the sales price of the homes so that 
families in low income categories can actually qualify for the 
mortgages at hand.
    The HUD 184A Loan Program in particular has been partly 
important to add a new source of mortgage capital to homestead 
communities. Prior to that we had VA, USDA and FHA 247. FHA 
247, which was the more highly used of the loan products, 
requires beneficiaries to add into its purchase price almost 
four percent on top of the sales price for mortgage insurance, 
whereas the 184A program is very affordable in that they can 
finance just one percent as a guaranteed fee. So the guarantee 
that comes from the Federal Government under the 184A Loan 
Program is vitally important to new access to capital for our 
homestead communities.
    The Chairman. Thank you, very much.
    I want to commend your Department for the work you've been 
doing in helping the homesteaders out, and look forward to 
continuing to do that.
    To the both of you, does the census data related to the 
Hawaiian Home Lands tracts accurately reflect the financial 
condition of Native Hawaiians remaining on the waitlist? And is 
there a continuing need for NAHASDA funding to the Native 
Hawaiian people? Michelle.
    Ms. Kauhane. Absolutely, Senator.
    I think that the U.S. Census data that is upholding 
households, existing families who may be currently living on 
the land, does not accurately reflect necessarily those folks 
who are on the waitlist.
    The folks who are on the land and those income statistics 
show those who are actually eligible to qualify for the 
mortgage financing, and therefore, are on the land and in those 
households today. Whereas, many of the folks on the waitlist 
who are in the lower income categories were unable to qualify 
for mortgage financing and, thus, remain on the list.
    The Chairman. Thank you, Mr. Boyd.
    Mr. Boyd. Senator, thanks for the question.
    We really see our partnership and our relationship with 
Native Hawaiians as being in the long term. We don't think that 
it's going to end at any time, to be honest. So we build our 
program, and certainly we do look at census data. I haven't 
really had a chance to analyze the current census data. But 
just looking at the need, and the good work that the Department 
of Hawaiian Home Lands is doing, we think that the additions 
that I testified on this morning will be very, very helpful.
    I think the whole idea with regard to our present economy 
and every additional tool that we can lend to the Native 
Hawaiian community in fostering homeownership and housing 
within your state will be very beneficial, and help to create 
greater sustainability.
    The Chairman. I want to thank our federal and state 
government officials for their responses. We look forward to 
passing this bill in the U.S. Senate and, of course, in the 
House with the help of Congresswomen Hirono and Hanabusa, and 
look forward to further assistance to our people.
    So I want to thank you very much. If we have any further 
questions, we'll get it to you. As Senator Inouye mentioned, he 
has questions that he has submitted for your answers.
    So, again, mahalo nui loa. Thank you very much.
    I would like to invite the second panel to the witness 
table. Serving our second panel is Honorable Colleen Hanabusa, 
Congresswoman for Hawaii's First District; Professor Melody 
Mackenzie, Associate Professor of Law and Director of Ka Huli 
Ao Center for Excellence in Native Hawaiian law at University 
of Hawaii, Richardson School of Law in Honolulu, Hawaii; the 
Honorable Brickwood Galuteria, Majority Leader of the Hawaii 
State Senate in Honolulu, Hawaii; and Mr. Richard Naiwieha 
Wurdeman, President of the Native Hawaiian Bar Association in 
Honolulu, Hawaii.
    Welcome and aloha to you, and look forward to your 
testimonies. Now, I would like to call on Congresswoman 
Hanabusa for your testimony. Please proceed.

              STATEMENT OF HON. COLLEEN HANABUSA, 
                U.S. REPRESENTATIVE FROM HAWAII

    Ms. Hanabusa. Thank you, Senator Akaka.
    Good morning, Mr. Chairman. First of all I want to thank 
you for this opportunity to speak on Senate Bill 65, and I 
would like to ask that my written testimony become part of the 
record.
    The Chairman. All of your full statements will be part of 
the record.
    Ms. Hanabusa. Thank you. And the reason I ask that is 
because I would like to deviate a little from the statement to 
share with the members of our community as to how important 
Senate Bill 65 is, and the personal experience that I had in 
dealing with it.
    When I first got elected to Congress, we were on a 
continuing resolution, as Senator, you're very well aware of. 
And one of the issues in H.R. 1, which was the continuing 
resolution that the House was offering as the appropriation 
measure to fund the 2011 fiscal year, excluded the funding for 
the Native Hawaiians under the NAHASDA funding.
    And the reason why they could do that, is because under our 
rule, which is 21, and I believe the Senate has as comparable 
rule, that if it is not authorized in statute, then we are not 
able to actually amend an appropriation measure to have it 
included.
    I sat on the floor of the House until 3 o'clock in the 
morning as continuing resolution, the House Resolution 1, the 
continuing resolution for 2011 was making its way through. And 
I was told then that I would be ruled out of order, because as 
we all know, Title VIII technically expired in the year 2004 
when it was first instituted in 2000.
    So the lack of the authorization in the NAHASDA statute 
made it almost impossible for anyone, if the appropriators did 
not put it in, that they would be able to add it in for 
funding. To me the consequence of that would have been 
absolutely devastating for the Department of Hawaiian Home 
Lands. We all know that the trust obligation exists. However, 
notwithstanding that, we also know that as of next year the 
settlement of what we used to call the waitlist claims, would 
also expire.
    And having said that, the funding now becomes a critical 
matter. NAHASDA has fulfilled that gap for us. And I know that 
from my role in the State Legislature and chairing Hawaiian 
Affairs along with many of my other committees along the way.
    So this Senate bill, the Section 1 is extremely critical 
for, I believe, the obligation of the United States to continue 
to fulfill the promises made of the provision of housing for 
the Native Hawaiians. Not only that, but it is also critical 
for really the preservation of the culture, as well as the 
people, which was how the Hawaiian Homes Commission Act of 1920 
was initially initiated.
    In addition to that, Senate Bill 65 addresses what I 
consider to be very important provisions as well. One of the 
parts that was lacking, which is now set forth in Section 2 of 
the bill, is the reference to Section 184. And I'm not sure if 
everyone recognizes, but the word ``refinance'' is dominant in 
there. That was one of the provisions that was lacking in the 
original version. And that also, I believe, hampered the 
Department of Hawaiian Home Lands' ability to assist in people 
receiving their housing and being able to move ahead, and that 
is the term ``refinance''.
    We also know that it also eliminates a lot of the other 
language, and makes it clear that the criteria standard housing 
and location on the Hawaiian Home Lands.
    In addition to that, Section 4 of the bill--that was 
Section 3--amends Title VI of the NAHASDA. And Title VI is 
really the loan aspects of it. And it makes it also very clear 
that where the language was: Where Tribally designated housing 
identities with Tribal approval. And those language still 
remain and we insert: Also or by the Department of Hawaiian 
Home Lands. That is found throughout the title, and whatever 
title is referenced, whether it's Title I of the NAHASDA, we 
have also added in Title VIII, which would now, by Section 1 of 
this bill--Section 2 would authorize its continuation until the 
fiscal year 2015.
    Senator, I cannot impress upon everyone how critical this 
bill is, because it will be the funding mechanism for the 
Department of Hawaiian Home Lands. It will be as the Department 
of Hawaiian Home Lands struggles for funding from the state 
when its trust monies run out, as to how we're going to be able 
to fulfill this obligation to place Native Hawaiians on the 
land.
    So I cannot thank you enough for Senate Bill 65, and for 
the ability to have co-sponsored it in the House. And to ask, 
again, that you inform your colleagues, which I know you will, 
and that for the community to recognize how significant a piece 
of legislation this is. And though it may only be four pages, 
it really does hold within it the future of the Department of 
Hawaiian Home Lands.
    Thank you very much, Senator, for the opportunity to be 
here with you, and to testify on this very important measure.
    [The prepared statement of Ms. Hanabusa follows:]

 Prepared Statement of Hon. Colleen Hanabusa, U.S. Representative from 
                                 Hawaii
    Good morning Mr. Chairman and members of the Committee:
    I appreciate the opportunity to submit my comments on S. 65, the 
Hawaiian Homeownership Opportunity Act of 2011 which would reauthorize 
Title VIII of the Native American Housing Assistance and Self-
Determination Act (NAHASDA), benefitting native Hawaiians. I am a 
cosponsor of the House companion bill, H.R. 2648 and feel strongly that 
passage of this legislation is of critical importance for this 
Congress.
    Title VIII of NAHASDA is more than an affordable housing 
initiative--it is a critical piece of legislation for the people of 
Hawai`i because it fulfills a trust obligation that Congress created in 
1920 with the passage of the Hawaiian Homes Commission Act. The Act 
recognized that it was necessary to return native Hawaiians to their 
land to ``fully support self-sufficiency.and the preservation of the 
values, traditions, and culture of native Hawaiians.'' This trust 
responsibility to the native Hawaiian people has since been reaffirmed 
by federal legislation aimed at protecting native Hawaiians on their 
land, such as the Hawaiian Homelands Recovery Act (P.L. 104-42), the 
Native Hawaiian Education Act (20 USC  4901-1909), and inclusion of 
Native Hawaiians in the Native American Programs Act of 1974 (42 U.S.C. 
2991 et seq.), the National Historic Preservation Act (16 U.S.C. 470 et 
seq.), the Workforce Investment Act of 1998 (29 U.S.C. 2801 et seq.) 
and many other statutes.
    This bill would extend the authorization to cover the costs of 
federal guarantees for financing for tribal housing under 25 U.S.C. 
4195(b) from 2011 to 2015. The importance of this reauthorization 
became very evident when the House Appropriations Committee cut the 
NAHASDA funding for native Hawaiians in HR1, the Continuing Resolution 
(CR) for 2011. Rule XXI of the Rules of the House of Representatives 
for the One Hundred Twelfth Congress prohibits any amendment, not 
previously authorized by law, which would appropriate money to said 
program. In essence funding for native Hawaiians under NAHASDA will 
always be at the mercy of the appropriators, irrespective of the merits 
of the program and/or the trust obligations of the Congress.
    Funding of the program would allow for continued facilitation of 
affordable housing opportunities for eligible native Hawaiians on their 
trust lands, a program administered by the State of Hawai`i with 
significant oversight by the Federal Government as a condition of 
statehood. This program has a history of being very successful, 
effective, and non-partisan--one that Hawai`i's former Republican 
Governor considers to be her legacy. The Department of Hawaiian 
Homelands has been able to extend support to native Hawaiians not only 
through placement of families on homesteads, but also through their 
down payment assistance program and home loan mortgage assistance 
program, and the development of renewable energy projects and the 
construction of energy efficient homes for beneficiaries.
    In short, this program does just what it was intended to do, which 
is support the self-sufficiency for native Hawaiians on their home 
lands, and it is the responsibility of Congress to continue to uphold 
this trust obligation. As a matter of policy, Congress must strive to 
ensure that Native Hawaiians have parity with other federally 
recognized Native peoples in the administration of the trust 
responsibility and the protection of their rights.
    Again, thank you very much for the opportunity to testify before 
the committee. I look forward to engaging in dialogue regarding the 
reauthorization of NAHASDA Title VIII and continuing the important work 
of the Committee to uphold these Native rights.

    The Chairman. That you, very much, Congresswoman Hanabusa. 
Thank you for your stalwart service in the U.S. House of 
Representatives. You've served Hawaii real well. Thank you for 
your explanation of the bill further, and also to stress the 
importance of that bill for Hawaii, and people of Hawaii, for 
all the people of Hawaii. And so thank you much for your 
leadership in this.
    And now I would like to call on Ms. Melody for your 
testimony. Please proceed.

  STATEMENT OF MELODY MACKENZIE, ASSOCIATE PROFESSOR OF LAW, 
 MELODY KAPILIALOHA MACKENZIE; DIRECTOR, KA HULI AO CENTER FOR 
EXCELLENCE IN NATIVE HAWAIIAN LAW, WILLIAM S. RICHARDSON SCHOOL 
                             OF LAW

    Ms. Mackenzie. Thank you so much, Mr. Chair. Mahalo for the 
opportunity to testify on S. 65.
    My testimony is going to be a little different from what 
you've heard so far. I'm going to specifically focus on the 
special political and legal relationship between United States 
and Native Hawaiian people, sometimes called the trust 
relationship. This relationship has been acknowledged and 
reflected in federal actions and legislation for almost a 
century.
    I also want to note that Native Hawaiians are really the 
only Native people in the United States who are in essence 
federally recognized, but do not have a specific government-to-
government relationship clearly delineated and spelled out with 
the Federal Government.
    The relationship between Native Hawaiians and the Federal 
Government arises from many sources, but I wish to identify and 
talk about four specific sources.
    The first, of course, is federal and congressional 
authority in relation to Native peoples and the status of 
Native Hawaiians as indigenous, aboriginal, Native people of 
Hawaii.
    As you know, the Indian Commerce Clause of the U.S. 
Constitution gives Congress the authority to ``regulate 
commerce with the Indian Tribes''.
    This power is broad and has often been described as plenary 
authority. The Clause's reference to ``Indian Tribes'' I 
believe does not limit congressional authority to take action 
only on behalf of Native groups organized as Tribes or 
indigenous to the continental United States. Instead, to the 
framers of the U.S. Constitution, an Indian Tribe was simply a 
distinct group of indigenous people set apart by their common 
circumstances, a definition that obviously applies to Native 
Hawaiians.
    Native Hawaiians are undoubtedly the indigenous, native, 
aboriginal people of Hawaii. And modern day Native Hawaiians 
are linked not only by ancestry, but also by culture, language, 
history and land to the original inhabitants of Hawaii.
    Indeed, in 2011, the State of Hawaii took extraordinary 
action of officially recognizing the ``indigenous, aboriginal, 
maoli'' status of Native Hawaiian peoples.
    I'm sure that Senator Galuteria will be speaking on that 
more.
    Secondly, I would like to point to the role of the U.S. in 
the 1893 overthrow of the Hawaiian Kingdom and deprivation of 
the lands and sovereignty of Native Hawaiian people as also a 
basis for that needed relationship between the United States 
and Native Hawaiian people.
    The facts of that incident are very well known: The landing 
of U.S. troops at the behest of Minister John L. Stevens in 
support of a small group of non-Hawaiian businessmen, including 
citizens of the United States, to overthrow the indigenous and 
lawful government of Hawaii; and the eventual annexation of 
Hawaii in 1898, through a joint resolution which made no 
provision for vote by Native Hawaiians or other citizens of the 
Hawaiian Kingdom. Under that joint resolution, the United 
States receives approximately 1.8 million acres of the ceded 
public crown and government lands of the Kingdom.
    As a result of these actions by the United States--its 
participation in the overthrow and its ultimate annexation of 
Hawaii--the United States was instrumental in depriving Native 
Hawaiians of their sovereignty and their national lands.
    Third, I point to the entire course of dealings, of federal 
dealings over an extended period of time, that demonstrated 
that the United States has interacted with Native Hawaiians 
based on the specific political and legal relationship and the 
responsibility that it holds towards its Native peoples 
generally.
    You discussed very eloquently this morning the 1921 passage 
of the Hawaiian Homes Commission Act and its enactment. I just 
want to note that in the congressional record, it's clear that 
Congress found constitutional precedence for the act in 
previous enactments granting Indians and others special 
privileges in using public lands.
    Another action during the territory period, in 1938 
Congress again exercised its authority by granting Native 
Hawaiians exclusive fishing rights to portions of the Hawaii 
National Park.
    In 1959 the Hawaii Admission Act has been discussed by 
several testifiers this morning as well as yourself. I also 
want to point out that Section 5 of the Admission Act commands 
the state to hold the ceded lands in trust for five trust 
purposes, one of which is the betterment of the conditions of 
Native Hawaiians, as defined in the Hawaiian Homes Commission 
Act.
    Section 4 of the Act has also been discussed, requires the 
State of Hawaii, as a compact with the United States, to 
incorporate the Hawaiian Homes Commission Act in the state 
constitution. And moreover, under the Hawaiian Homes Commission 
Act itself, Congress has retained the ultimate authority to 
alter, amend or repeal the Hawaiian Homes Commission Act.
    So while, indeed, the state gained principal responsibility 
for administration of the Hawaiian Homes Commission Act in 
1959, the Federal Government retains significant authority over 
that act.
    Significantly, of course, in 1993 the U.S. passed--the 
Congress passed the Apology Resolution and apologized to the 
Native Hawaiian people for the U.S. participation in the 
overthrow of the Hawaiian Kingdom.
    I would also point to other federal actions, such as the 
Mauka to Makai Report issued by the U.S. Department of Interior 
and U.S. Department of Justice and the establishment of Office 
of Native Hawaiian Relations within the Department of the 
Interior.
    As you obviously know, Congress has included Native 
Hawaiians in laws enacted to benefit other native peoples in 
the United States. And more specifically Congress has enacted 
specific laws relating solely to the Native Hawaiian people 
pursuant to its authority under the Indian Commerce Clause. 
These include the Native Hawaiian Education Act and the Native 
Hawaiian Health Care Improvement Act. And the findings in both 
of these acts specifically refer to the ``trust relationship'' 
between Native Hawaiian people and the United States.
    And, finally, I would point to the U.N. Declaration on the 
Rights of Indigenous People, which is now endorsed by the 
United States, that it supports the continued recognition and 
development of that special political and legal relationship 
between the United States and the Native Hawaiian community.
    Thank you again, mahalo nui for the opportunity to testify 
this morning.
    [The prepared statement of Ms. Mackenzie follows:]

  Prepared Statement of Melody Mackenzie, Associate Professor of Law, 
     Melody Kapilialoha Mackenzie; Director, Ka Huli Ao Center for 
 Excellence in Native Hawaiian Law, William S. Richardson School of Law


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. Thank you very much, Melody Mackenzie, for 
your testimony. Thank you for highlighting all the points you 
did about Hawaii's history, and the relationship we have had 
thus far with the United States and how important it is that we 
achieve that government relationship, and not only politically 
but legally as well. So mahalo nui loa.
    Now I would like to call on Brickwood Galuteria, Senator 
for the State of Hawaii. Please proceed with your testimony.

STATEMENT OF HON. BRICKWOOD GALUTERIA, MAJORITY LEADER, HAWAII 
                          STATE SENATE

    Mr. Galuteria. Aloha, Mr. Chairman, welcome home.
    The Chairman. Good to be home.
    Mr. Galuteria. We love that you come home. And thank you 
for providing me with the opportunity to testify before you 
today in full support of S. 65 Hawaiian Homeownership 
Opportunity Act of 2011. I currently serve as the Majority 
Leader for the Hawaii State Senate. I Chair the Hawaii State 
Senate Committee on Hawaiian Affairs, and as a member of the 
Hawaii State Legislature's Native Hawaiian Caucus.
    So I bring you news from the state legislature. I'd also 
like to acknowledge our former Senate President, who now serves 
in Washington with you, Congresswoman Hanabusa, and greetings 
from your former colleagues as well.
    Ms. Hanabusa. Thank you.
    The Chairman. Please pass my aloha to the group as well.
    Mr. Galuteria. I certainly will today when I head back. In 
fact, we head into session, so I apologize, but I'll probably 
have to leave after this testimony, Mr. Chair. The Hawaii State 
Senate Committee on Hawaiian Affairs has oversight over the 
Department of Hawaiian Home Lands and its administration of the 
federal land trust created by the Hawaiian Homes Commission Act 
of 1920. Congress, through its enactment of over 150 statutes 
that protect the rights of and address the conditions of Native 
Hawaiians, has long recognized Native Hawaiian people as an 
indigenous people with whom it has a federal trust 
relationship, as Melody indicated.
    The Hawaiian Homes Commission Act is a clear example of 
federal policies towards Native peoples that have consistently 
been applied to Native Hawaiians, not always at exactly the 
same time, but often closely afterwards.
    The prevailing federal policies at the turn of the century 
focused on the assimilation and allotment. The Dawes Act and 
Burke Act focused on providing eligible Indians with allotments 
of lands for residential, ranching and agricultural purposes.
    The general concept behind this policy was to return Native 
people to the land. The Hawaiian Homes Commission Act was 
modeled after these Indian General Allotment Acts as it sought 
to ``rehabilitate'' the Native Hawaiian people by placing them 
back on their ancestral lands.
    Learning from tragic circumstances that resulted in 
American Indians losing some of their lands, the Hawaiian Homes 
Commission Act created a federal land trust that provided for 
99-year leases to qualified Native Hawaiians, thereby ensuring 
longevity of the trust lands to benefit the Native Hawaiian 
people.
    In 1959 when the State of Hawaii entered into Statehood, 
prevailing federal policies towards Natives were to delegate 
authorities over to state governments. As a condition of 
Statehood, therefore, the State of Hawaii agreed to administer 
the Hawaiian Home Lands trust. It provides especially that: 
``As a compact with the United States relating to the 
management and disposition of the Hawaiian home lands, the 
Hawaiian Homes Commission Act, as amended, shall be adopted as 
a provision of the Constitution of said State,'' and that's 
what we enjoy today.
    While the State of Hawaii has administrative and rulemaking 
authority, the Federal Government retains oversight to ensure 
that the original intent of the Act is maintained.
    Now, Mr. Chairman, the Native Hawaiian people, despite the 
loss of their government, our government, and following the 
overthrow of the Kingdom of Hawaii and subsequent annexation to 
the United States, we continue as a distinct Native community.
    While the Native Hawaiian people lack a formal government-
to-government relationship with the United States, we are 
repeatedly recognized by the United States as an indigenous 
people with whom the United States has a trust relationship.
    The State of Hawaii established the Department of Hawaiian 
Home Lands in 1961 to fulfill the State's responsibilities in 
administering the federal land trust. As indicated, the 
Hawaiian Home Lands is governed by a nine-member Commission 
appointed by Hawaii's Governor. And the Commission Chairman 
also serves as the Director of the state agency and is a member 
of the Governor's cabinet.
    Now, in addition to this, Mr. Chairman, the Hawaiian Homes 
Commission Act beneficiaries also govern themselves through the 
existence of beneficiary organizations called homestead 
associations. These organizations, which have existed as long 
as homestead communities, have representative leadership 
through democratically elected processes for each homestead 
area.
    And they're important partners. They're important partners 
with the State of Hawaii and important partners with the 
Federal Government. They know their communities, they know 
their lands, and are best able to engage and communicate with 
state and federal policymakers to address priorities.
    S. 65, the Hawaiian Homeownership Opportunity Act 
reauthorizes financial tools that provide much needed access to 
capital for Hawaiian Homes Commission Act and beneficiaries. 
Whether already residing on home lands, or still on the waiting 
list, access to capital remains a barrier for many, many 
beneficiaries. We, the state, fully support any and all tools 
that help us to meet the mandate of the Hawaiian Homes 
Commission Act with the knowledge that the State's commitment 
and obligation ends in 2014.
    And measures like S. 65 is critical to the DHHL funding 
mechanism. Mr. Chairman, the State of Hawaii has embraced its 
role in managing the Hawaiian Home Lands trust, and continues 
to support efforts to enhance self-determination and self-
governance.
    As an example, as Melody indicated, in 2011 I joined my 
colleagues in introducing and enacting legislation, commonly 
referred to as Act 195 to establish Native Hawaiian Roll 
Commission that recognizes the Native Hawaiian people as the 
only indigenous, aboriginal, maoli people of Hawaii--excuse me, 
Mr. Chairman--that expresses the State's support for the 
continuing development of the reorganization of the Native 
Hawaiian governing entity, in part, for the establishment of a 
federally recognized government-to-government relationship with 
the United States.
    The enactment of Act 195 was yet another example of 
Hawaii's ongoing desire to recognize the unique contributions 
and traditions of the Native Hawaiian people. We, as a state 
legislature, find every opportunity, where appropriate, to 
bring Native Hawaii practices into public policy.
    We also designed Act 195, Mr. Chairman, to complement your 
efforts in Congress and to present the Federal Government clear 
evidence of the State of Hawaii's recognition of and continued 
support for self-governance and self-determination of the 
Native Hawaiian people.
    Furthermore, to bring us to a clear call for action towards 
creating a governing entity, former Governor John Waihee, 
Hawaii's first Native Hawaiian Governor, has been appointed to 
lead a five-member commission charged with preparing and 
maintaining a roll of qualified Hawaiians that would work 
toward the reorganization of a Native government.
    The commission is to prepare and maintain a roll of 
qualified Hawaiians who meet specific criteria. Once the roll 
is finished, the commission would be required to publish the 
registry to start the process of holding a convention to 
organize Native Hawaiian governing entity. At this point it 
would be incredibly premature, Mr. Chairman, to say what that 
model would be, what that model would look like, but now that 
the dye has been cast, I will see that we will arrive there 
sooner than later.
    Mahalo, Mr. Chairman, for your unfailing leadership and 
representation of our Native Hawaiian people at the highest 
echelons of government. You've served as the role model for so 
many of us who have followed in your noble footsteps in elected 
service. Your unwavering ability to demonstrate the Spirit of 
Aloha and to represent Hawaii's values in your actions and 
words even in the most trying of circumstances, has shown us 
how to successfully ``walk in both world's'', both native and 
western.
    Your accomplishments in representing all people of Hawaii 
are staggering, but we particularly appreciate your success in 
ensuring the Federal Government's fulfillment of its trust 
responsibilities to the Native Hawaiian.
    The Apology Resolution, as an example, will forever stand 
as one of the most poignant Acts by the United States in 
apologizing for its role in the overthrow, and begins the 
process of reconciliation. And we thank you for your role in 
that.
    And, finally, as I mentioned earlier in this testimony, I 
maintain full support of S. 65, the Hawaiian Homeownership 
Opportunity Act of 2011, along with any and all initiatives to 
meet the mandate of the Hawaiian Homes Commission Act.
    So with that, I say mahalo to the Committee of one today, 
and mahalo to you, Mr. Chairman, for this opportunity to 
testify. Aloha.
    [The prepared statement of Mr. Galuteria follows:]

Prepared Statement of Hon. Brickwood Galuteria, Majority Leader, Hawaii 
                              State Senate
    Aloha Mr. Chairman, Senator Inouye, and Distinguished Members of 
the Senate Committee on Indian Affairs. Thank you for the providing me 
with the opportunity to testify before you today on S. 65, the Hawaiian 
Homeownership Opportunity Act of 2011.
    I currently serve as the Majority Leader for the Hawaii State 
Senate and as the Chair of the Hawaii State Senate Committee on 
Hawaiian Affairs. I represent the districts of Iwilei, Chinatown 
Downtown, Kaka`ako, Ala Moana and Waikiki and am a member of the Hawaii 
State Legislature's Hawaiian Caucus. I have spent my life actively 
involved in efforts to honor our kupuna, by preserving and perpetuating 
the language, culture, and traditions of the Native Hawaiian people.
    The Hawaii State Senate Committee on Hawaiian Affairs has oversight 
over the Department of Hawaiian Home Lands (DHHL) and its 
administration of the federal land trust created by the Hawaiian Homes 
Commission Act of 1920 (HHCA). Congress, through its enactment of over 
150 statutes that protect the rights of and address the conditions of 
Native Hawaiians, has long recognized the Native Hawaiian people as an 
indigenous people with whom it has a federal trust relationship. 
Federal policies towards native peoples have consistently been applied 
to Native Hawaiians--not always at the exact same time, but often 
closely afterwards.
    The Hawaiian Homes Commission Act is a clear example. The 
prevailing federal policies at the turn of the century focused on 
assimilation and allotment. The Dawes Act and Burke Act focused on 
providing eligible Indians with allotments of lands for residential, 
ranching, and agricultural purposes. The general concept behind this 
policy was to return native people to the land. The Hawaiian Homes 
Commission Act was modeled after these Indian General Allotment Acts as 
it sought to ``rehabilitate'' the Native Hawaiian people by placing 
them back on their ancestral lands. Learning from tragic circumstances 
that resulted in American Indians losing some of their lands, the HHCA 
created a federal land trust that provided for 99-year leases to 
qualified Native Hawaiians, thereby ensuring the longevity of the trust 
lands to benefit the Native Hawaiian people.
    In 1959, when Hawaii entered into statehood, prevailing federal 
policies towards natives were to delegate authorities over natives to 
state governments. As a condition of Statehood, therefore, the State of 
Hawaii agreed to administer the Hawaiian Home Lands trust. Section 4 of 
the Admissions Act (P.L. 86-3, 73 Stat 4) specifically provides that 
``As a compact with the United States relating to the management and 
disposition of the Hawaiian home lands, the Hawaiian Homes Commission 
Act, 1920, as amended, shall be adopted as a provision of the 
Constitution of said State . . . subject to amendment or repeal only 
with the consent of the United States . . .''. While the State of 
Hawaii has administrative and rulemaking authority, the federal 
government retains oversight to ensure that the original intent of the 
HHCA is maintained.
    The Native Hawaiian people, despite the loss of their government 
following the overthrow of the Kingdom of Hawaii and subsequent 
annexation to the United States, have continued to exist as a distinct 
native community. While the Native Hawaiian people lack a formalized 
government-to-government relationship with the United States, they have 
been repeatedly recognized by the United States as an indigenous people 
with whom the United States has a trust relationship. The State of 
Hawaii has embraced its role in managing the Hawaiian Home Lands trust, 
and continues to support efforts to enhance the self-determination and 
self-governance of the Native Hawaiian people.
    In 2011, for example, I joined my colleagues in introducing and 
enacting legislation, commonly referred to as Act 195, to establish a 
Native Hawaiian Roll Commission. Act 195 recognizes the Native Hawaiian 
people as the only indigenous, aboriginal, maoli population of Hawaii 
and expresses the State's support for the continuing development of the 
reorganization of the Native Hawaiian governing entity for a federally 
recognized government to government relationship with the United 
States. The legislation was unanimously passed by the State's House of 
Representatives and was approved by 23 of 25 votes in the Hawaii State 
Senate. Act 195 serves as clear evidence of the State of Hawaii's 
recognition of and continued support for self-governance and self-
determination of the Native Hawaiian people.
    The State of Hawaii established the Department of Hawaiian Home 
Lands in 1961 to fulfill the State's responsibilities in administering 
the federal land trust. DHHL is governed by a nine-member Commission 
appointed by Hawaii's Governor. The Commission Chairman also serves as 
the Director of the state agency and is a member of the Governor's 
cabinet. Beneficiaries of the HHCA govern themselves through the 
existence of beneficiary organizations called homestead associations. 
These organizations, which have existed as long as homestead 
communities, have representative leadership through democratically 
elected processes for each homestead area. Homestead associations are 
important partners that help the State of Hawaii to fulfill its 
responsibilities under the HHCA because they know their communities and 
lands, and are best able to engage their communities and to communicate 
with state and federal policymakers to address issues of priority.
    S. 65, the Hawaiian Homeownership Opportunity Act of 2011, 
reauthorizes financial tools that provide much-needed access to capital 
for HHCA beneficiaries. Whether already residing on the Hawaiian Homes 
Land Trust or still on the waiting list, access to capital remains a 
barrier for many HHCA beneficiaries. We fully support any and all tools 
that help us to meet the mandate of the Hawaiian Homes Commission Act.
    Thank you, Mr. Chairman, for your unfailing leadership and 
representation of our Native Hawaiian people at the highest echelons of 
government. You have served as the role model for so many of us who 
follow your noble footsteps in elected office. Your unwavering ability 
to demonstrate the Spirit of Aloha and to represent Hawaii's values in 
your actions and words even in the most trying of circumstances has 
shown us how to successfully ``walk in both worlds''--both native and 
western. Your accomplishments in representing all people of Hawaii are 
staggering, but we particularly appreciate your success in ensuring the 
Federal Government's fulfillment of its trust responsibilities to the 
Native Hawaiian people. The Apology Resolution, P.L. 103-150, will 
forever stand as one of the most poignant Acts by the United States in 
apologizing for its role in the overthrow of the Kingdom of Hawaii and 
committing to a process of reconciliation with the Native Hawaiian 
people--a process that is ongoing and provides the path forward for 
self-governance and self-determination by the Native Hawaiian people.

    The Chairman. Aloha, thank you for your mana'o, and that of 
your colleagues in the U.S. Senate as well as the Legislature. 
So mahalo nui for that.
    Now, I would like to call on Mr. Wurdeman. Please proceed 
with your testimony.

   STATEMENT OF RICHARD NAIWIEHA WURDEMAN, PRESIDENT, NATIVE 
                    HAWAIIAN BAR ASSOCIATION

    Mr. Wurdeman. Aloha, and thank you so much for this 
opportunity to allow me and the Native Hawaiian Bar Association 
to testify on such an important piece of legislature.
    I would like to start by concurring with Senator 
Galuteria's comments about you and your service in Congress and 
the United States Senate.
    Senator Akaka, you truly have been a role model for the 
Native Hawaiian people. It is such an honor just to be here 
today, to be sharing what little insight I have to add. In all 
your years of service, it is just so greatly and deeply 
appreciated what you have done for the Native Hawaiian people 
and for the community as a whole. And I just wanted to thank 
you for all those years of service and commitment. And your 
example of showing what real aloha is and always being yourself 
in all the challenges that you faced up in the Senate and the 
U.S. House before that. And you never steered away from being 
and showing people what the Hawaiian people are about. And I 
just wanted to again thank you for all of your services and 
your role, Senator.
    The Chairman. Mahalo nui loa.
    Mr. Wurdeman. Senator, you started off this morning with a 
very good overview of the history of the trust obligations that 
the United States does have. And the Hawaiian Homes Commission 
Act of 1920, of course, was the first congressional act that 
clearly defined that trust obligation. There was absolutely no 
if, ands, or buts about it. That trust obligation was 
established. It was acknowledged, subsequently acknowledged, 
and recognized by our federal courts over the years.
    And you also touched, and Professor Mackenzie also talked 
about the Admission Act later, and the compact that the United 
States entered into with the Admission Act with the State of 
Hawaii, really a condition of Statehood that this Hawaiian 
Homes program continue and be administered properly and 
adequately.
    And so with these legal responsibilities, it's really sad, 
but also a great testament to you, Mr. Chairman, that you're 
addressing these issues through this legislation, that after 
over 90 years of this program, we still have many of our Native 
Hawaiian people, especially those who are in the lower income 
brackets, unable to receive awards because they're not able to 
qualify.
    And this current legislation is really, as Congresswoman 
Hanabusa stated earlier, so very important to close that gap 
and to address those problems. And we thank you for calling 
this bill for hearing, for pushing it through the Senate, and 
it is long overdue, and something that certainly will continue 
the process of closing these gaps and giving the beneficiaries 
of the Hawaiian homestead Commission Act, especially those of 
the lower income brackets, an opportunity to have a home; to 
have their keiki be in a safe environment; to be able to live 
as a regular functioning family; and to go to school and not 
have to worry about all the other challenges that come without 
having a stable home life.
    There's one other point that I would like to make, and it 
was touched briefly upon by Senator Galuteria as well, the 
Apology Resolution of 1993, that I know you were very 
significant in pushing through the U.S. Congress. And this is 
another very necessary step in that whole reconciliation 
process. I think the legal obligations are very clear. It's the 
need now to continue the reconciliation process, and this bill 
certainly is another important step in doing that.
    And so the Native Hawaiian Bar Association and myself, we 
strongly support this measure, and I thank you again for this 
opportunity to present testimony, Senator.
    [The prepared statement of Mr. Wurdeman follows:]

  Prepared Statement of Richard Naiwieha Wurdeman, President, Native 
                        Hawaiian Bar Association
    Chairman Akaka, Vice Chairman Barrasso, and distinguished members 
of the U.S. Senate Committee on Indian Affairs:
    On behalf of the Native Hawaiian Bar Association, I would like to 
thank this Committee for the invitation to present testimony on S. 65, 
The Hawaiian Homeownership Opportunity Act of 2011.
    The Native Hawaiian Bar Association is an association of lawyers, 
judges and other legal professionals of Native Hawaiian ancestry which 
seeks to promote unity, cooperation and the exchange of ideas among its 
members. Formed in 1992, NHBA strives for justice and effective legal 
representation for all people of Native Hawaiian ancestry. NHBA 
represents attorneys whose practice range from solo practice to large 
firms, corporations, legal services organizations, nonprofit 
organizations and governmental agencies. NHBA has trained over 30 
practitioners of traditional Hawaiian peacemaking through its 
Ho`oponopono Project. These haku are active today in our community. 
NHBA has also convened symposia and meetings on the issues affecting 
our Hawaiian community today: sovereignty, access and gathering 
protection, water usages guaranteed under State law, Hawaiian Home 
Lands and ceded lands breach of trust claims.
    As this Committee is aware, the Native American Housing and 
Assistance and Self Determination Act of 1996 (NAHASDA) reorganized the 
system of housing assistance provided to Native Americans through the 
Department of Housing and Urban Development by eliminating several 
separate programs of assistance and replacing them with a block grant 
program. The legislation authorized for Indian tribes two programs--the 
Indian Housing Block Grant program and Title VI Loan Guarantees which 
provided financing guarantees to Indian tribes for private market loans 
to develop affordable housing. Similar opportunities were extended to 
Native Hawaiians when NAHASDA was amended in 2000. Loan guarantees for 
Native Hawaiian Housing was added to provide access to sources of 
private financing on Hawaiian Home Lands. The Native Hawaiian Housing 
Block Grant Program has allowed for numerous families to receive home 
buyer education and has allowed for the development of affordable homes 
for low-income native Hawaiian families who are beneficiaries of the 
Hawaiian Homes Commission Act of 1920. A number of success stories can 
be told by the Department of Hawaiian Homelands and various other 
organizations which are currently serving qualifying native Hawaiian 
families through the programs that were extended to Native Hawaiians 
with the amendments to NAHASDA in 2000. However, far too many Native 
Hawaiian families still remain on the Hawaiian Homes waitlist and still 
far too many need to be reached. The reauthorization of NAHASDA funding 
to Native Hawaiians and the extension of programs that will occur with 
passage of this Act are very important and the trust obligation of the 
United States Government to the Native Hawaiian people, including the 
trust obligation to those direct recipients or those intended direct 
recipients under this Act, is well established.
    Under the treaty making power of the United States, Congress had 
exercised its constitutional authority to confirm treaties between the 
United States and the Kingdom of Hawaii, and from 1826 until 1893, the 
United States had entered into treaties and conventions with the 
Kingdom of Hawaii to govern commerce and navigation in 1826, 1842, 
1849, 1875, and 1887; and the United States had recognized the 
sovereignty of the Kingdom of Hawaii and had accorded full diplomatic 
recognition to the Kingdom of Hawaii.
    In 1993, the United States Congress ``on the occasion of the 100th 
anniversary of the illegal overthrow of the Kingdom of Hawaii on 
January 17, 1893,'' extended an apology on behalf of the United States 
to the Native Hawaiian people for the United States' role in the 
overthrow of the Kingdom of Hawaii. See Public Law 103-150 (107 Stat. 
1510). The Apology Resolution acknowledged that the overthrow of the 
Kingdom occurred with the active participation of agents and citizens 
of the United States and, further, Congress ``expresse[d] its 
commitment to acknowledge the ramifications of the overthrow of the 
Kingdom of Hawaii, in order to provide a proper foundation for 
reconciliation between the United States and the Native Hawaiian people 
. . .'' Id. Congress also acknowledged in the Apology Resolution that 
``the indigenous Hawaiian people never directly relinquished their 
claims to their inherent sovereignty as a people or over their national 
lands to the United States, either through their monarchy or through a 
plebiscite or referendum.'' Id.
    Following the Newlands Resolution in 1898 (which was passed after 
the failure of the Treaty of Annexation in 1897 and the protest of 
Queen Lili'uokalani) and the Organic Act of 1900 and, by 1919, the 
Native Hawaiian population had declined tremendously (from an estimated 
1,000,000 in 1778), and in recognition of this severe decline in the 
population, Congress enacted the Hawaiian Homes Commission Act of 1920 
(42 Stat. 108), which designated approximately 203,500 acres of public 
lands for the welfare and rehabilitation of native Hawaiians. See 
Native Hawaiian Education Act; Keaukaha-Panaewa Community Association 
v. Hawaiian Homes Commission, 588 F.2d 1216 (1978). Congress enacted 
the Hawaiian Homes Commission Act which mandated that certain lands, 
designated the Hawaiian home lands, be held in trust for the benefit of 
native Hawaiians. Keaukaha-Panaewa Community Association v. Hawaiian 
Homes Commission, 739 F.2d 1467 (1984). Under the Admission Act in 
1959, Section 4 of that Act required that the provisions of the 
Commission Act be incorporated into the Constitution of the State of 
Hawaii. Id. at 1469. This incorporation was described ``as a compact 
with the United States.'' Id. While the responsibility for the 
administration of the Hawaiian Home Lands was transferred to the State 
of Hawaii, the United States retained the exclusive right to consent to 
any actions affecting the lands included in the trust and any 
amendments to the Hawaiian Homes Commission Act of 1920 enacted by the 
legislature of the State of Hawaii affecting the beneficiaries under 
the Act.
    Also, under the Admission Act in 1959, public lands that were 
transferred from the United States to the State of Hawaii were to be 
held as a public trust for five purposes, one of which was ``for the 
betterment of the conditions of native Hawaiians, as defined in the 
Hawaiian Homes Commission Act, 1920, as amended.''
    In addition to the special trust relationship between the United 
States and the Native Hawaiian people being recognized and reaffirmed 
through the Hawaiian Homes Commission Act of 1920 and then the 
Admission Act, other Acts of Congress have also recognized and 
reaffirmed this special relationship through the passage of the Native 
Hawaiian Education Act, and with the inclusion of Native Hawaiians in 
such legislation as the American Indian Religious Freedom Act, the 
National Museum of the American Indian Act, the Native American Graves 
Protection and Repatriation Act, and other legislation.
    The Native Hawaiian people continue to maintain their separate 
identity as a distinct native community through cultural, social, and 
political institutions, and to express their rights as native people to 
self-determination, self-governance, and economic self-sufficiency. The 
Native Hawaiian people also, once again, never relinquished their 
claims to their inherent sovereignty as a people or over their national 
lands and to their claims of their national lands. Although the passage 
of this Act is certainly just one step in the reconciliation process 
and is far from adequately addressing what the United States did to and 
what it legally and politically owes to the Native Hawaiian people, the 
loan guarantees and the Native Hawaiian Housing Block Grant Program 
does, as our esteemed Congresswoman from Hawaii, Representative Colleen 
Hanabusa, stated last year during the introduction of H.R. 2648, ``help 
[to] fulfill a trust obligation this Congress created in 1920 that 
recognized it was necessary to return Native Hawaiians to the land in 
order to preserve their culture, their tradition and values.''
    Chairman Akaka and Honorable Members of this Committee, I 
respectfully urge your passage of the Hawaiian Homeownership 
Opportunity Act of 2011. Thank you very much for this opportunity to 
testify on this important matter before this Committee.
    Mahalo nui loa.

    The Chairman. Mahalo nui loa for your testimony, and all of 
your support. Please pass the aloha to the lawyers.
    I would like to, before I ask my questions, ask 
Congresswoman Hanabusa, will you please join me on the dais, 
and ask you for your comments here, and also you may ask any 
questions you have of this panel.
    Melody, mahalo nui loa for all you've been for Hawaii, and 
what you've contributed already, and in helping to shape the 
future of Hawaii.
    Your testimony provides a comprehensive review of the 
federal trust responsibility, and relationship with the Native 
Hawaiian people of the United States.
    Generally, has the United States' treatment of the Native 
Hawaiian people been consistent with prevailing federal Indian 
policy in your view? Is there more the United States must do in 
order to ensure parity, parity in adaptation of federal policy 
to its Native people?
    Ms. Mackenzie. Thank you, Senator, for that question.
    I alluded to that in my comments, but Native Hawaiians, 
indeed are, I think, the only native group in the United States 
that has a long history of basically federal recognition, but 
does not have a clearly acknowledged government-to-government 
relationship with the U.S. government. And I think that is the 
crucial factor that's missing in our relationship with the 
United States, and certainly one that you yourself have sought 
to remedy in the past.
    To me that is a crucial point, something that we, as indeed 
Senator Galuteria indicated, that we are working towards.
    And, you know, it's been argued very often that Native 
Hawaiians are federally recognized. The only part that is 
missing is that government-to-government relationship 
specifically acknowledged by the Federal Government.
    The Chairman. Mahalo for your mana'o on that.
    Naiwieha, in your testimony, you talk about S. 65 and one 
part of fulfilling the federal trust obligation to the Native 
Hawaiian people.
    Can you describe what other concrete things the United 
States can do to better fulfill its trust obligation to the 
Native Hawaiian people?
    Mr. Wurdeman. Well, that's a very open-ended question, 
Senator, and the easy answer to that is to have the United 
States return all the lands back to the Hawaiian people.
    But Congress has, in many different acts, included Native 
Hawaiians, whether it's through the Graves Repatriation Act, 
through the Native Hawaiian Education Council, all of these 
different measures over the years to address its obligations 
and its legal responsibilities to the Native Hawaiian people.
    Certainly allowing funding for the Hawaiian Homes program 
is, as I stated earlier, a very significant step, and it is 
very encouraging to know that our Hawaiian Homes Department has 
very capable leadership and will take to heart and will work 
endless hours. I know, I'm very confident, in making these 
goals happen on Hawaiian home lands and making these 
opportunities available for the beneficiaries that this 
legislation intends to address.
    The Chairman. Thank you very much. We'll keep in contact. I 
know you will you have perceptions and ideas and mana'o in the 
future, what we're trying to do in Congress of the United 
States.
    To both of you, do you have any additional comments, 
additional comments or information you believe is important for 
the Committee to know in contemplating this bill or the federal 
relationship with the Native Hawaiian people?
    Ms. Mackenzie. Senator, I included in my written testimony, 
but I think it might be appropriate to talk a little bit about 
the Apology Resolution. And as you know, there was a recent 
U.S. Supreme Court case that interpreted and looked at the 
Apology Resolution. That was in relationship to the ceded 
lands.
    I wanted to point out that, although in that particular 
case the U.S. Supreme Court did not think it was appropriate to 
rely upon the Apology Resolution in order to uphold the 
moratorium on the sale of the ceded lands, that the court in no 
way dismissed the findings or overturned the findings in the 
Apology Resolution.
    So from a legal perspective, those very strong findings 
about the role of the United States about the relationship 
between the Native Hawaiian people and United States, about the 
loss of sovereignty and control over national lands, and the 
claims of Native Hawaiians, those findings are still very, very 
valid, and I just wanted to just make that clear in the record.
    The Chairman. Thank you.
    Mr. Wurdeman. I concur with Professor Mackenzie's comments 
about the Supreme Court case. The issue really that had gone up 
to the Supreme Court was whether, as far as the Apology 
Resolution was concerned, was whether the 1993 legislation 
created a cloud on title. And, you know, from the Native 
Hawaiian's perspective, that cloud to title always existed. It 
wasn't this act of legislation that did so. But that is really, 
with respect to the Apology Resolution, the court said that 
that's not what the Apology Resolution did. And as Professor 
Mackenzie adequately and accurately stated that the findings 
were accurate and still exist.
    The Chairman. Mahalo. Thank you very much.
    I would like to ask Congresswoman Hanabusa for any comments 
she may have or questions she would like to ask.
    Ms. Hanabusa. I think what's missing in this record is this 
is an opportunity that we all have to educate members of 
Congress in particular situations, the members. This is a 
unique opportunity where we can educate or help better 
understand the situation that we're in. The NAHASDA, which is 
the underlying legislation and the changes that are being made 
in terms of HUD, is really an opportunity to look at housing as 
well.
    So if you can shift your gears a little bit, and if you can 
put into the record, either one or both of you, the 
significance of homeownership to the Native Hawaiian people, 
and why, in the creation of the Hawaiian Homes Commission Act 
of 1920, it was deemed to be so important a part for the 
preservation of the people and the culture?
    And I think that if we can put that forth from that 
perspective, we will have a record that Senator can take back, 
and we can take back to the Congress to show how NAHASDA is 
significant. As you know, NAHASDA really began as a Native 
American housing issue and also covers Native Alaskans as well.
    But if you can help us by telling the members of Congress 
how critical this one piece is.
    Ms. Mackenzie. I think I can help in the sense of looking a 
little bit at the history of Hawaiian Homes Commission Act, and 
noting that the representatives from Hawaii who sought session 
act 10 had basically been concerned because Hawaiians had been 
frozen out of their lands and driven into the cities, and that 
they were dying.
    And the idea was that returning to the land would help to 
reestablish a traditional Hawaiian way of life. And you can see 
the reestablishment of that if you go into the homestead 
communities today. And what this bill would do by allowing more 
Native Hawaiians to participate and indeed to get homesteads, 
would be then to encourage and reenforce the idea of Native 
Hawaiians returning to their lands and being able to be 
themselves in their own territory.
    Mr. Wurdeman. Thank you for the question, Representative 
Hanabusa. As I alluded to briefly earlier, I think 
homeownership provides stability in a people, in a community, 
and the social statistics of Native Hawaiians, welfare rolls, 
incarceration rates, health issues are very, very significant 
in Hawaiians rank on the top of all of those social ills at 
this point, and have been for many, many years.
    And the legislation and NAHASDA and homeownership I think 
is an important step in providing stability.
    I have ohana, and we all have ohana who don't have those 
opportunities, that have been homeless. That, you know, and I 
see a lot of that. Those are issues in my own family, and 
amongst some of my own friends. And I have a cousin who 
recently received an award on Hawaiian Home Lands and was a 
recipient of these programs who raised a family of seven 
children and moved from house to house, apartment to apartment 
throughout the raising of his kids, and never had a stable home 
life.
    He is just one example of success and how happy they were 
to finally own a home after all these years, after being on 
these waitlists. And I really believe that similarly allowing 
others and creating these opportunities for others that don't 
have these opportunities will go a long way in helping address 
some of these social ills that I talked about in providing our 
Native Hawaiian families with the stability of a normal home 
life.
    Ms. Mackenzie. I would just like to add, in looking at 
this, I thought, you know, in many ways we're back in the same 
situation we were in 1920 with people coming to Congress 
basically saying our people are dispossessed from their lands. 
They're dying. They don't have a place to live. And we're in 
that same situation.
    So I see this S. 65 as an opportunity to really fulfill the 
promise of the Hawaiian Homes Commission Act. Thank you.
    Ms. Hanabusa. One of the issues that has always bothered me 
from the time that I served in the State Legislature, and I was 
in a very ironic situation, because it was over the Felix--what 
I term the Felix investigative committee, and that was to learn 
that there was a period of time in our history where the State 
of Hawaii wasn't a state then, I guess it was the Territory of 
Hawaii--I'm not quite sure what point it carried over--
prohibited the speaking of the Hawaiian language in our 
schools, for example.
    It seems to me that what the great travesty that government 
has done is to have really taken away a lot of that cultural 
identity. This S. 65, to be the most critical component of it 
is the fact that it reauthorizes Title VIII of the NAHASDA, 
which then gives to 2015 the authorization for really the 
Hawaiian Homes Commission to then receive those funding.
    So can you elaborate on the significance of the development 
of the community itself, and how it does right a major wrong 
that even those in state government today I don't think 
recognizes what was done to our Native people.
    Mr. Wurdeman. I'll start with the comment about the state 
government and how it has failed over the years. And it was 
encouraging, just the other day they finally addressed the past 
ceded land revenue issues that have persisted since 1978 that 
there was a clear legal obligation for the state government to 
fulfill, but the Native Hawaiian people, and despite the legal 
obligations and responsibilities, have always taken the back of 
the room, always been in the lessor priority when there have 
been other needs for the community.
    So the Native Hawaiian people have persevered through all 
of this. Despite all of the legal mandates, they have continued 
to try to revitalize their culture through the language, as 
Congresswoman Hanabusa has stated, and that has been a lot of 
self-initiative, the formation of charter schools, and a pride 
within a people of regaining what was stripped from them or 
from their grandparents and their parents in generations before 
them to revitalize this culture.
    And part of this growth and development, again, is to allow 
these kind of opportunities that Congress set forth way back in 
1920, as far as its rehabilitation process. And this is just 
another component to that rehabilitation process and the growth 
and development, or redevelopment of the culture in the Native 
Hawaiian community.
    Ms. Mackenzie. I don't know that I can add much more to 
that. But I would like to stress something, that the Native 
people have persevered in spite of oftentimes government 
opposition in things like Hawaiian language or Hawaiian 
culture.
    So imagine what we could do if we had support? And what I 
see this bill doing is offering the opportunity to the Federal 
Government and the Department of Hawaiian Home Lands to really 
support the Native Hawaiian people in this kind of second or 
third Renaissance of our culture, our language and our ways.
    Ms. Hanabusa. Thank you. Thank you, Senator.
    The Chairman. Thank you, very much, Congresswoman Hanabusa, 
for your questions and your comments.
    I want to add that since the overthrow of the Hawaiian 
Kingdom, the people, Native Hawaiians have really, in a sense, 
suffered and were scattered to the point where Prince Kuhio 
Kalanaiana'ole was concerned about this, and wanted to find a 
way of bringing the people back. And, of course, the homestead 
concept came to being.
    He was able, in his years in Congress, to bring that about. 
And so in 1920, the Hawaiian Home Lands bill was passed. And 
remember this was by the consent of the Congress of the United 
States.
    So it really sent, in a sense, the future of a government-
to-government relationship that we're facing today, and want to 
complete that government-to-government relationship.
    So parity is so important. When I say ``parity'', I mean 
our country had laws to deal with our indigenous people, 
American Indians and Alaska Natives. And since we became a 
territory and now a state we have not dealt with indigenous 
Hawaiians. And so the time is appropriate for us to do that. 
It's necessary, really, at this point in time.
    I want to thank you for your mana'o on this, and look 
forward for further discussions on this, and for the support.
    I want to tell you that support from Hawaii is very, very 
important to us in Congress, because opponents always want to 
say Hawaii doesn't support it. And now it's there legally, too. 
And so I'm really thankful and grateful that we have come to 
this point, and look forward to pursuing this even further. So 
I want to thank.
    Do you have any further questions or comments?
    Ms. Hanabusa. No, thank you.
    The Chairman. I want to thank the second panel for your 
mana'o. It has been very, very helpful to us. Thank you.
    Now, I would like to call on a third panel, and invite you 
to the witness table. Serving on the third panel is Mr. Kali 
Watson, Chair of the Housing & Economic Development Committee 
for the Sovereign Councils of the Hawaiian Homelands Assembly; 
Robin Danner, President/CEO of the Council for Native Hawaiian 
Advancement in Honolulu Hawaii; and Ms. Kehau Filimoeatu, Chair 
of the Hawaiian Community Assets in Honolulu, Hawaii.
    I want to welcome you with much aloha, and good to see all 
of you here this hearing. Kali, will you please proceed with 
your testimony?

         STATEMENT OF KALI WATSON, CHAIRMAN, HOUSING & 
           ECONOMIC DEVELOPMENT COMMITTEE, SOVEREIGN 
          COUNCILS OF THE HAWAIIAN HOMELANDS ASSEMBLY

    Mr. Watson. Thank you, Chairman, Senator Akaka, as well as 
Congresswoman Hanabusa.
    We appreciate the opportunity to be here today to present 
testimony on Senate Bill 65. My name is Kali Watson. I'm the 
Chairman of the Housing & Economic Development Committee for 
the Sovereign Councils of Hawaiian Home Lands Assembly, which 
represents approximately 30 different homestead associations 
throughout the state spanning from Anahola to Nanakuli on Oahu, 
all the way to Panaewa on the Big Island. I also represent the 
Association of Hawaiians for Homestead Lands. We support Senate 
Bill 65.
    Let me first start off. We all recognize that this is about 
money, about funding for housing. But I think it's more than 
that. It's more about people. I know when I first left the 
Department, we started up a non-profit and started working in 
the community. And one of the families, or one of the projects 
we started was the Replacement Home Project.
    I remember sitting in the basement of this home in Kewalo 
on this island. And as I was sitting there, I was looking 
around, and I saw this family that basically was living in a 
dilapidated house where the top floor was so unsafe that they 
couldn't live there. The kids slept in a tent in the yard. And 
for their front door, they had this wooden plank that they 
would literally push it on the side and use it as a front door. 
It wasn't even attached. When it rained, there would be a 
stream of water passing through the house.
    And so one of the things that really struck me is how can 
we help this family? And so we put together a loan package. And 
what was key to making that loan work was NAHASDA. It provided 
us $6,000 that was used to actually build this house.
    I worked with other associations and communities groups in 
order to help this family, Alger, they provided stipends so the 
husband could go to a nursing school. The other thing is I was 
kind of wondering, the wife and the daughter were present. They 
never said anything. They never smiled or anything. And some 
guys might think it's funny, but they had no teeth. So the 
Alger Foundation stepped up and provided the dental work. And 
today, I got to say that it's a good situation. They have a new 
house and they have a place they can call home. That was 
because of NAHASDA, in a major part. While I was working at the 
Department, and over the years working at my non-profit, we've 
been able to see the impact of NAHASDA in homesteading 
communities, and it's been tremendous. We look at the newer 
subdivision and these large, beautiful homes in Kaneheli, in 
Kapolei. You look on Maui at Waiehu Kou, beautiful homes. As 
well as Laiopua on the Big Island. So this funding source has 
had a tremendous impact in helping our people obtain affordable 
housing.
    The Department has also undertaken innovative approaches 
which have made a difference. For example, the Hoolima project 
in Kapolei, which is rent to own. It's enabled to access low 
income housing, tax rates, and put together different types of 
funding including NAHASDA, putting in infrastructure for 
subdivision to make it work.
    In Waimanalo, Kupuna housing, is also using various 
sources. I think with the Department in the process of, I 
guess, doing their housing plan, NAHASDA could be looked at in 
providing funding for rental projects.
    Some of the new products besides rentals that have come to 
fruition is in Nanakuli, for example. We're doing a 48-unit low 
income rental housing project called Hale Makane. That 
particular project targets families in the 30 to 40 percent 
area median income. And has basically strung together a bunch 
of eight different funding sources in order to make it happen.
    The thing about the housing, we're trying to address a 
waiting list of over 21,000 people that spans throughout the 
islands. And without this particular funding source, the 
NAHASDA, it would be very, very difficult to address that need. 
And I think that, you know, when you look at what's happening 
around Hawaiian communities, the timing is critical right now 
for the continuation of this funding source.
    We had the $600 million settlement that was passed in 1994 
coming to an end. That's $30 million a year that is going away.
    In the past couple years, the state has not provided 
general funds to our program. Contrary to the 1978 
constitutional amendment that mandated not only administrative, 
but development funds shall be made available to this program. 
The legislature has not done that.
    There's a lawsuit going on right now trying to address 
that. Hopefully we will be successful and we will be able to 
access those funds. I guess the point I make is that NAHASDA is 
very, very important to our Hawaiian community. This S. 65 bill 
is something that I think will be critical in us moving 
forward.
    The Department is at present time conducting their housing 
plan under this act. The community and the beneficiaries, I 
anticipate, will step forward and become an active participant 
in developing a plan that addresses this waiting list.
    What is also exciting is that we see in the Hawaiian 
communities a collaboration, not only by the homestead 
associations and the waitlists, the advocacy groups, but now 
OHA has started to step forward. They funded major 
infrastructure costs. They recently, I guess we were all at the 
signing ceremony where the $200 million in lands in Kakaako is 
being transferred to the Office of Hawaiian Affairs, and 
they've signed a resolution in agreeing to work with the 
Department of Hawaiians to make that, not only a productive 
relationship, but more importantly, an opportunity to provide 
housing, economic development, and other things that will have 
a very positive impact on our people.
    I've had the opportunity to talk with the Kamehameha 
Schools trustees, and they too are looking to start to 
collaborate and work with the Hawaiian organizations, the trust 
organizations. And I think collectively we have an opportunity 
at this time in history to really, really make a difference, 
but whether it be the Federal Government in the continuation of 
our funding, whether it be the Ali'i Trust working together to 
address the needs of our people, whether it's the SCHHA, the 
Hawaiian Community Assets, all of these organizations work 
together as collective groups. That's going to be key for our 
future and our people. Thank you.
    The Chairman. Thank you, very much, Kali, for your 
testimony and your support of the bill.
    [The prepared statement of Mr. Watson follows:]

    Prepared Statement of Kali Watson, Chairman, Housing & Economic 
  Development Committee, Sovereign Councils of the Hawaiian Homelands 
                                Assembly
    Dear Senator Akaka, Senator Inouye and Members:
    Thank you for the opportunity to provide testimony in support to 
S.65 relating to the Hawaiian Homeownership Opportunity Act of 2011--
which amends the Native American Housing Assistance and Self-
Determination Act of 1996 (NAHASDA) and the Housing and Community 
Development Act of 1992. This bill extends through FY2015 the 
authorization of appropriations for housing assistance for Native 
Americans and loan guarantees for Native Hawaiian housing.
    This Bill also amends the NAHASDA to: (1) make the Department of 
Hawaiian Home Lands of the state of Hawaii eligible for loan 
guarantees; and (2) extend through FY2015 the authorization of 
appropriations for the credit subsidy to cover the costs of federal 
guarantees for financing for tribal housing activities.
    Federal Block Grants from NAHASDA have provided significant 
infrastructure development and facilitated the construction of much 
needed affordable housing in many homesteading communities throughout 
State of Hawaii. At a time when DHHL's residential waiting list has 
grown to 21,216 as of June 30, 2011, the need for the reauthorization 
and increase of NAHASDA funding is even more critical, especially with 
the anticipated end to State funding under the $600 million settlement. 
Without said continued funding, the affordable housing activities will 
take a major hit.
    DHHL is presently in the process of updating its Five Year Housing 
Plan as required under NAHASDA and significant input by its 
beneficiaries is anticipated. Besides the standard single-family 
residential housing, DHHL and its beneficiaries are embarking on more 
condense and far expansive development of rental housing and 
condominium developments. This will not only provide new types for DHHL 
housing products, and in larger numbers, but will also allow the 
leveraging of its funds with other funds. In the 48-unit low income 
rental Hale Makana O Nanakuli Project, the Nanakuli Hawaiian Homestead 
Community Association, with the assistance of the nonprofit Hawaiian 
Community Development Board was able to access federal CDBG and HOME 
funds from HUD, Rural Development 515 and 521 funds of close to $14 
million. With continued NAHASDA funding, more projects like this are 
possible.
    The Sovereign Councils of the Hawaiian Homelands Assembly, formerly 
the State Council of Hawaiian Homestead Associations was founded more 
than 20 years ago to unite homestead communities and to advocate for 
the beneficiaries of the Hawaiian Homes Commission Act of 1921. The 
SCHHA is the oldest statewide advocacy organization representing the 
interests of more than 30,000 beneficiaries and families residing in 
the communities of the Hawaiian Home Land Trust. Its mission is to 
promote the self determination of native Hawaiians and the well being 
of homestead communities.
    I urge you to please pass this measure, S. 65.

    Robin, will you, please proceed with your testimony.

 STATEMENT OF ROBIN PUANANI DANNER, PRESIDENT/CEO, COUNCIL FOR 
                  NATIVE HAWAIIAN ADVANCEMENT

    Ms. Danner. Welcome home, and welcome to the Committee 
staff for making the trip to our home lands. For the record my 
name is Robin Danner. I am the President of the Council for 
Native Hawaiian Advancement, which is most comparable to 
organizations like UNSET, or NCAI or AFN.
    CNHA is governed by a 21 member board of directors, 
consisting of all Native Hawaiian leaders from across the 
nation representing diverse areas of service including 
education, culture, affordable housing, civic affairs and 
relevant to today's topic, homestead leaders on our board 
working directly on trust land solutions. Many of our CNHA 
board members are here today, Mr. Chairman, because of your 
leadership in bringing a field hearing here to Hawaii. They can 
physically see that when I tell them that I'm going to 
Washington, DC, I'm actually doing something, and today they 
can actually participate in that. Our vice chairman is here, 
Billy Ornellas, and about a dozen of our members.
    As a 14-year homesteader, I have raised four of my children 
in my homestead, and over the last 11 years, have lead CNHA to 
become one of the most active policy advocates, along with the 
SCHHA, on the unique issues of the Hawaiian Home Land trust. 
While these trust lands may be limited by blood quantum under 
the homesteading program, we know that these lands are 
nourishing all of our children, regardless of blood quantum, by 
providing lands for charter schools, the language programs, 
lifting up our communities by creating centers of commerce on 
these trust lands, providing places to heal and to reconnect 
through the placement of relevant health and other services on 
these trust lands.
    Definitely, as Kali said, providing shelter to thousands of 
family members through the development of housing on these 
lands. Every home certainly that CNHA has assisted a family 
with over the last decade, in partnership with Hawaiian Home 
Lands, has included families that are small in Hawaiian, big in 
Hawaiian, even in some cases no end residence. These are 
powerful lands, not just for beneficiaries, but for everyone.
    CNHA's full testimony submitted to the record approaches 
the hearing topic of the Senate Bill 65 under three main areas. 
First, NAHASDA funding and impact, which I think Congresswoman 
Hanabusa alluded to over the last decade. Second, access to 
capital strategies under the reauthorization; and third, the 
priority of self-determination in the implementation of 
NAHASDA.
    The modest levels of NAHASDA funding dedicated to Hawaiian 
Home Lands is really the first and only consistent federal 
funding to flow to Hawaiians since passage of the Hawaiian 
Homes Commission Act 90 years ago. And this first time 
consistent funding source has only been flowing for the last 
ten years. Baby steps in comparison to our counterparts in 
Indian Country, prior to NAHASDA flowing to their trust land 
areas which began for them in 1996, federal housing dollars 
flowed under the 1937 Housing Act, providing a miniscule one 
percent of the national public housing allocation to trust land 
areas on the continent and Alaska. Indian Country, and most 
certainly Hawaiian Home Lands have much to catch up on.
    With only ten years under our belt, the impact of NAHASDA 
funds has been a fantastic beginning, and it must be said, 
NAHASDA is the lifeline of hope to the low and moderate income 
families on the waitlist that year after year are passed over 
due to the inability to qualify for high end housing costs. 
NAHASDA is vital to ensuring that the promise of Prince Kuhio 
in enacting the HHCA is accessible to every beneficiary 
regardless of income.
    While DHHL has utilized the vast majority of its NAHASDA 
allocation each year to much needed infrastructure and 
subdivision development, the annual portion dedicated to 
community based service providers such as CNHA, and many of our 
member organizations, have been dedicated to financial 
education, credit history repair, and down payment assistance 
that is helping low and moderate income families achieve 
homeownership.
    We have leveraged NAHASDA seed funding to attract other 
capital sources, and today, have more than 350 Native Hawaiian 
families in our Financial Education & Counseling pipeline.
    I would like to mahalo Aunty Keahu, who is here today from 
our Board of Directors, for creating an environment for CNHA to 
partner with her organizations, such as Hawaiian Community 
Assets to deliver these powerful services.
    NAHASDA funds have also been used by CNHA and its member 
organizations to develop and deliver solar water heating 
systems, and photo voltaic renewable energy systems. Senator, I 
cannot express enough how important this area is and will 
continue to be in making sure that our communities are not left 
behind and last on the grid. NAHASDA is essential to ensuring 
that low income families are first to benefit from the 
technologies of renewable energy and reduced energy costs in 
their homes.
    Under the Access to Capital element of NAHASDA, we applaud 
the community for including language to upgrade the HUD 184A 
home loan product, to allow for refinances. Thank you.
    This ability to refinance to historic low levels of 
interest rates is worth tens of thousands of dollars over the 
life of a mortgage loan. Families need this exactly right now.
    We also strongly support the Committee's work to include in 
Senate Bill 65, the extension of Title VI from the Indian 
NAHASDA program to Hawaiians.
    As you know, Senator, Title VI allows DHHL to leverage its 
annual NAHASDA allocation up to five times the amount to access 
capital for very large developments.
    Our final area in our testimony addresses the ``self-
determination'' that are very much part of the NAHASDA Title, 
the Native American Housing Assistance and Self-determination 
Act. We would ask that the Committee include more specific 
language and encouragement to clarify the self-determination 
goals of the legislation are for the collective people, the 
collective beneficiaries in the homesteads, and not State 
Government. Consultation by HUD, by DHHL, with beneficiaries 
and their homestead association leaders should be emphasized.
    In closing, as the Committee moves Senate Bill 65, I 
appreciate the educational aspect of the Chairman's work in 
educating fellow Committee members, the Congress and other 
Native peoples, that as Hawaiians, we are a federally 
recognized Native peoples, yet we are the only group of the 
three that has yet to engage in a government-to-government 
relationship like American Indians and Alaskan Natives.
    Chairman Akaka, in just one year as Chairman under your 
leadership and the work of your staff, and Director Loretta 
Tuell, you have done more to remind and to educate others that 
our people and the federal programs dedicated to addressing our 
condition are not race-based, but rather are within the power 
of the Congress to address the issues of unique category of 
Natives under the U.S. Constitution.
    So I thank you, Chairman. I have worked in the federal 
arena on Native issues for just under 24 years now, and the 
last 12 months have shown an incredible sensitivity and 
accuracy as to our status among the family of Native nations. 
Mahalo.
    [The prepared statement Ms. Danner follows:]

Prepared Statement of Robin Puanani Danner, President/CEO, Council for 
                      Native Hawaiian Advancement
    Aloha Chairman Akaka and Members of the Senate Committee on Indian 
Affairs,
    My name is Robin Puanani Danner. I am the President and Chief 
Executive Officer of the Council for Native Hawaiian Advancement 
(CNHA), founded in 2001 to enhance the cultural, economic and community 
development of Native Hawaiians. CNHA, with a membership of over 150 
Native Hawaiian Organizations, 28 percent of which are Hawaiian home 
land organizations, is dedicated to addressing the challenges in our 
communities from education to business, affordable housing to cultural 
preservation, and is a statewide advocate most comparable to the 
National Congress of American Indians (NCAI), and the Alaska Federation 
of Natives (AFN).
    I am native Hawaiian, born on the island of Kauai, raised in the 
fishing village of Niumalu, the Indian reservations of the Apache, 
Navajo and Hopi, and spent many years among the Alaska Native peoples. 
For the last 14 years, I have lived on my Native homestead issued under 
the Hawaiian Homes Commission Act, with my children and husband.
    My background includes former positions in finance as a bank 
executive, a Tribal Housing Authority executive director, and county 
housing director serving Native populations. Currently, I am the chair 
of the board of the Homestead Community Development Corporation that in 
addition to my position with CNHA, is highly relevant to the field 
hearing topic of S. 65--Hawaiian Homeownership Act of 2011.
Native Hawaiians and the Federal Trust Relationship
    As the Committee knows, Native Hawaiians are among the families of 
Native peoples of the United States, and although not as well known, 
are included in the federal Indian policy and trust relationship. In 
1920, the U.S. Congress enacted the Hawaiian Homes Commission Act 
(HHCA), establishing a federal land trust that nearly mirrors the 
content of the 1906 Indian Allotment Act. In 1959, the U.S. Congress 
enacted the Hawaii Admissions Act, which includes language to further 
recognize the trust relationship with Native Hawaiians. Over the last 
90 years, the U.S. Congress has enacted over 150 statutes recognizing 
my people as Native, like American Indians and Alaska Natives, using 
the plenary power authorized under the U.S. Constitution to address a 
myriad of issues.
    Similar to the Office of Insular Affairs for the territorial 
peoples of the U.S. and the Bureau of Indian Affairs for American 
Indians and Alaska Natives in the Department of the Interior, Congress 
created the Office of Native Hawaiian Relations to continue the process 
of reconciliation in accordance with P.L. 103-150, the Apology 
Resolution, and to oversee the trust responsibilities of the United 
States to Native Hawaiians, with a particular emphasis on the HHCA and 
the 1995 Hawaiian Home Land Recovery Act.
Native Hawaiians and the State Trust Relationship
    One of the conditions of statehood enacted by the United States was 
a compact between the federal and state governments, to administer the 
HHCA referenced above through the establishment in 1961 of the state of 
Hawaii Department of Hawaiian Home Lands (DHHL). The Hawaii state 
constitution incorporates and embraces the United States' trust 
relationship to Native Hawaiians, which was further strengthened by the 
1978 Constitutional Convention establshing a second state agency, the 
Office of Hawaiian Affairs (OHA). Each of these state agencies are 
public trusts of the people of Hawaii, not representing Native 
Hawaiians, but rather representing all of the people of our state to 
deliver on the trust mandates established under federal law and state 
law. There are similar ``Offices of Indian Affairs'' in other state 
governments, including Utah and Arizona.
    In 2011, the state of Hawaii enacted Act 195, to assist the Native 
Hawaiian people in the development of a roll that can be used for 
government reorganization efforts, and to urge the federal government 
to recognize a Native Hawaiian government. In 2011, this honorable 
committee, the Senate Committee on Indian Affairs, voted to approve the 
Native Hawaiian Government Reorganization Act, to similarly recognize 
the self-governance of Native Hawaiians, creating parity with the more 
than 560 Native governments in approximately 35 states of the country.
    In summary, the relationship of Native Hawaiians to state and 
federal governments, is very similar and mirrors the policies and 
agencies of our counterpart Native peoples in the other 49 states. The 
Department of Hawaiian Home Lands (DHHL) and the Office of Hawaiian 
Affairs (OHA), are Hawaii state agencies with trust responsibilities to 
Native Hawaiians. Similarly, the United States government has 
acknowledged its federal trust responsibility to Native Hawaiians and 
administers it through agencies such as the Departments of the 
Interior, Health and Human Services, and Housing and Urban Development.
Native Hawaiians and Their Trust Land Representative Organizations
    Similar to Indian Country and the organization of Native 
governments around trust land areas, eligible Native Hawaiians have 
long held and established governing organizations organized around the 
trust lands established under the HHCA. These organizations are 
commonly referred to as homestead associations, or homestead 
beneficiary organizations. Over 30 such homestead associations exist 
across the state, tied directly to homestead trust lands of the HHCA. 
Each has enrolled homestead members and residents, and each 
democratically elects its leadership.
    In many ways, these homestead associations mirror the mission and 
representation that pueblos, tribes, or villages do in other areas 
where federally created trust land areas exist. Participation is 
voluntary in nature by eligible members, and the actions of these 
homestead associations are governed by the participating eligible 
members.
    Many other significant types of Hawaiian organizations exist, 
including social justice private nonprofits, member nonprofits like 
CNHA or the civic clubs and Royal Hawaiian Societies. These 
organizations are similar to the service focused, cultural and advocacy 
organizations of many Native organizations around the country. The 
homestead associations are significant in the context of the hearing 
topic of S. 65--Hawaiian Homeownership Act of 2011, because it calls 
for the reauthorization of Title VIII of the Native American Housing 
Assistance and Self-Determination Act (NAHASDA). Self-determination in 
the title of this powerful housing law is indicative of the connection 
between housing solutions, and the self-determination of the people 
themselves, through their respective homestead associations.
S. 65--Hawaiian Homeownership Act of 2011
    Our testimony is organized into three distinct areas of discussion 
and recommendations--NAHASDA, Access to Capital and Self-Determination.
NAHASDA
    This discussion content focuses on the amendment that added Title 
VIII to NAHASDA, through enactment of the Hawaiian Homeownership Act of 
2000.
A. Trust Relationship & First Federal Funding to the HHCA
    Although the promise of the Hawaiian Home Land Trust has existed 
for over 90 years when the HHCA was enacted in 1920, the only federal 
funding of any significance to be dedicated toward its success 
consistently each year, has been NAHASDA funds which began flowing only 
a short 10 years ago.
    Eighty years of little to zero federal resources makes for a 
situation of extreme catch up, but the last 10 years of modest but 
stable NAHASDA funding has been the beginning of incredible 
opportunity. It must be acknowledged that one decade of consistent 
funding is a very short period of time, yet the impact during that time 
is not only visible, it has created a new energy and enthusiasm for the 
possibilities in fulfilling the original promise of residential 
homesteading under the HHCA. NAHASDA is one of the only tools and 
resources available to the Hawaiian Home Land trust to bring the HHCA 
within reach of the hardworking low and moderate income families that 
remain on the waitlist.
    We offer our full support for S. 65--the Hawaiian Homeownership Act 
of 2011 for the following basic reasons:

        1) Trust Responsibility--It embodies an important and long 
        awaited component of the trust responsibility to native 
        Hawaiians by providing stable and consistent funding;

        2) Affordable Housing Planning--It continues the benefits to 
        the management of the Hawaiian Home Land Trust by requiring 
        DHHL to organize a strategic plan and to deliver to HUD at 
        regular intervals, an updated Native Hawaiian Housing Plan;

        3) Self-Determination--It lays a strong foundation for the 
        Hawaiian Home Land Trust to transition from a 90-year paternal 
        approach to land development and land management to the 
        incredible power of including homestead beneficiaries in the 
        administration of their land trust through the time tested 
        success of federal self-determination policies.

B. NAHASDA Funding Impact
    While DHHL is the direct grant recipient from HUD of NAHASDA funds, 
the agency has over the years, set aside roughly 10 percent of its 
annual funding award, to provide sub-grants to community based 
organizations. CNHA and many of our member organizations have competed 
for and received sub-recipient NAHASDA grants. Following are a handful 
of examples of the impact of these funding awards:

        1) Solar Water Heating Systems--NAHASDA funds have been vital 
        seed funding to create an environment for the transformation of 
        household energy costs by low to moderate income households on 
        Hawaiian home lands. This is perhaps one of the areas where we 
        must lead the charge to ensure that regular every day families 
        have full and unfettered access to the incredible renewable 
        energy technologies.

        There are approximately 7,000 existing residential homes 
        located in our trust land areas. Only 15 percent have one form 
        or another of solar power to either generate electricity or 
        heat water. The projected capital need to achieve a 100 percent 
        transformation of homestead neighborhoods is just under $40 
        million. With a small grant from NAHASDA, the journey has 
        begun, but more importantly, the residential solar projects 
        funded by NAHASDA have attracted private capital and is 
        leveraging dollars and attention to homestead areas. In 
        addition to reducing utility costs for struggling families, 
        these investments are creating jobs and an entire cottage 
        industry for small businesses in Hawaii.

        2) Down Payment Assistance--NAHASDA funds have been utilized to 
        develop meaningful and culturally designed Individual 
        Development Accounts (IDA) to support down payment assistance 
        on home purchases, as well as youth financial education 
        curriculum that reminds us of the ingenuity of our ancestors in 
        resource management, something that financial education is all 
        about.

        3) Homeownership Centers--NAHASDA funds are responsible for the 
        development of a Homeownership Resource Center that delivers 
        affordable housing services from inside a neighbor island 
        homestead area. The homestead association embraced its 
        responsibility to bring valuable services to the people, and 
        with the support of NAHASDA, operates a full service 
        foreclosure prevention, financial education counseling and 
        preparation for mortgage loan qualifications.

    We would recommend that NAHASDA funds expended by DHHL begin to 
take an investment direction of vertical housing units over subdivision 
infrastructure, including homeownership, farming/ranching housing, and 
multi-family rental development.
    Perhaps most important beyond the funding level and direct 
investment of NAHASDA funds in the projects described above, is the 
power of validation and empowerment that legislation like the Hawaiian 
Homeownership Act of 2011 creates on the ground in community. It cannot 
be underestimated, the impact on community leaders when Congress acts 
upon the issues that are most pressing and most relevant to the day-to-
day challenges of families. Passage creates momentum of projects yes, 
but it also creates a momentum of community spirit to tackle tough 
issues together and in a systematic way.
II. Access to Capital
    This discussion content focuses on information and recommendations 
relevant to the availability of capital for home development, qualify 
of life home improvements and leveraging of federal funding in the 
capital markets.
A. HUD 184a
    The HUD 184a component of the legislation authorizes a home loan 
guarantee product to attract capital to the construction and purchase 
of homes located on trust lands. This product cannot be overstated as 
to its important. Capital is the lifeblood of any healthy community, 
and as is well known on Indian reservations and Hawaiian Home Lands, 
there are only a handful of home loan products available.
    The significance of the HUD 184a program can only be truly 
appreciated when one considers what would happen in their own 
neighborhoods if access to capital was shut down, and empty homes were 
not able to be purchased for lack of mortgage capital and overcrowding 
of families beyond the safe capacity of a residential structure. The 
Reauthorization of HUD 184a is paramount, as is the upgrade to the 
program to allow for refinancing, and equity extraction for education, 
home improvement and small business investment.
B. Extending Title VI to Hawaiian Home Lands
    The trust land nature of Hawaiian Home Lands is both a blessing and 
a curse for affordable housing and economic development. It is a 
blessing for many of the same reasons it is for Indian Country, which 
is a preserved land base held in trust that cannot be alienated, for 
our people to nurture Native Hawaiian language and culture, and 
continue our life ways as the original peoples of the Hawaiian Islands, 
regardless of homesteading eligibility by any individual Native 
Hawaiian. However, access to capital is made more difficult due to the 
trust nature of our lands.
    It need not be a curse, with strategic approaches that ensure 
capital can flow to trust land developments and projects. Title VI is a 
section of NAHASDA that is currently only available to Tribal NAHASDA 
grantees. It authorizes the grantee to leverage up to five times the 
annual NAHASDA allocation to plan and implement developments that would 
be made more expensive if piecemeal funding were the only option. Title 
VI is an excellent, no-cost amendment that would provide flexibility to 
leverage the modest annual NAHASDA allocations. We support inclusion of 
native Hawaiians to Title VI of NAHASDA.
C. Needs Assessment Study
    It has been a full decade since the initial passage and inclusion 
of Native Hawaiians in NAHASDA. Funding levels have been at the 
discretion of Congress and the Administration over that period of time. 
We recommend that a needs assessment be conducted, with full engagement 
of homestead beneficiary leaders to inventory the need based on 
consultation, the realities of development challenges due to the 
location of lands in the trust, and the recent results of the 2010 
Census.
III. Self-Determination
    This section discusses the significance of the self-determination 
intent of NAHASDA and recommendations to maximize the opportunities to 
create relevant and long term solutions in trust land areas. It should 
be noted that some at the state agency of DHHL have wrongly assumed 
that the self-determination intent of NAHASDA, and even the HHCA, is 
for DHHL, when in fact, federal self-determination policies are for 
Native peoples and their representative organizations, not state 
governments. Although state government is improving its education of 
its employees in this regard, the confusion by even a small minority of 
state employees can create barriers to the implementation of the goals 
of self-determination to the people.
A. Homestead Beneficiary Consultation
    Consultation with beneficiaries by DHHL has greatly improved over 
recent years, and has relied upon the precedence and the best practices 
of tribal consultation when state government is contemplating 
significant changes in policy or program direction. One of the 
continual misnomers in the administration of NAHASDA as it relates to 
Hawaiians is the confusion by DHHL and sometimes HUD, who these 
agencies should be consulting with.
    In Indian Country, HUD consults with tribes, the technical 
recipient and authority for their allocation of NAHASDA funds, unless 
it is tribally designated to another entity like a tribal housing 
authority. For Hawaiians, the recipient and authority for our NAHASDA 
allocation is a state agency intermediary. The homestead associations 
that are representative of the beneficiaries collectively, are the 
comparable to Indian Country's tribes, therefore, consultation by HUD 
and DHHL should be conducted with beneficiaries and their geographic 
representative associations. We would recommend that the Committee 
encourage DHHL and HUD to maximize the benefits of consultation by 
bringing clarity to the issue of Homestead Beneficiary Consultation.
B. Empowerment & Capacity Building Programming
    Not more than 5 percent of the annual NAHASDA allocation can be 
used for administration by state government (DHHL). Over the last 
decade, DHHL has utilized administrative resources on its state 
government employees to engage and be trained at national convenings, 
and to strategize with HUD and Native leaders. The complete absence of 
empowering homestead associations and beneficiary community leaders 
themselves is detrimental to the short term and long term capacity 
building of the people and associations that remain in our communities 
when state government employees retire or leave employment.
    Indeed, opportunities for beneficiary leaders to network and become 
educated on national affordable housing solutions, and especially with 
other Native counterparts is an incredible missed opportunity. For 
example, the cross pollination of ideas, of strategies such as the 
coordination of Native CDFIs, of leveraged funding strategies that are 
taking place in other areas of Indian Country, can only be implemented 
by homestead associations, and not state government.
    We strongly recommend that HUD's oversight ensure that the self-
determination tenets embodied in NAHASDA include review of how state 
government is building the capacity, empowerment and self-determination 
of the people it was intended to serve. We applaud DHHL in its recent 
efforts to improve in this area, and would recommend that the self-
determination and capacity building of homestead leaders be a standing 
component of its Native Hawaiian Housing Plan.
    Self-determination is a corner stone of success in federal policy. 
It has resulted in more progress made in bringing solutions to the 
challenges of Native communities than any other policy. NAHASDA is a 
powerful tool to embrace the power of self-determination when our 
people are engaged, consulted with and challenged to implement 
solutions. We emphasize the continual recognition and encouragement of 
federal and state agencies to administer its programs with this over-
arching goal of NAHASDA.
Summary & General Recommendations
    In conclusion, we thank the Committee for its championship of good 
public policy that enables Native communities to achieve our full 
potential. Congress has the plenary power under the constitution to 
address the issues of Native peoples, and we mahalo Chairman Akaka for 
his lifelong work and service to all Native peoples of the country.
    We support the reauthorization of the Hawaiian Homeownership Act, 
and appreciate the committee's work to improve on the tools available 
to address the affordable housing needs of our people.
    Mahalo for the opportunity to submit comments to the Committee.

    The Chairman. Thank you very much, Robin, for your mana'o 
and your testimony, and, of course, your support of the bill. 
And thank you for what you and your group is doing to help the 
Hawaiians.
    Now I would to call on Kehau. Please proceed.

STATEMENT OF KEHAU FILIMOEATU, CHAIR, HAWAIIAN COMMUNITY ASSETS

    Ms. Filimoeatu. Aloha, Honorable Senator Akaka, 
Representative Hanabusa and staff. Aloha.
    My name is Kehaulani Filimoeatu. And I have been privileged 
to serve as the Board President of Hawaiian Community Assets, a 
nonprofit HUD approved housing counseling agency and emerging 
Native CDFI that assists low and moderate income communities 
secure and sustain permanent housing with a particular focus on 
Native Hawaiians.
    I speak with you today to share my mana'o about the need to 
reauthorize NAHASDA through S. 65, which will ensure equal 
access by all indigenous peoples of the United States to 
funding for the purposes of financing affordable housing 
activities and housing-related community development activity 
as consistent with the purposes of the Act. NAHASDA funding has 
played a key role in our organization's history, but more 
importantly it has enriched the lives of thousands of Native 
Hawaiian families who have received our services, achieved the 
dream of homeownership, and continue to work toward self-
determination.
    Hawaiian Community Assets was founded in 2000 on the Island 
of Maui, with the charge to create a community development 
financial institution that would address the housing needs of 
Native Hawaiian individuals and families. Our mission was, or 
is to increase the capacity of low and moderate income 
communities to achieve and sustain economic self-sufficiency, 
with a particular focus on Native Hawaiians.
    HCA supports permanent housing, culturally-relevant 
financial education, and asset building programs to achieve its 
mission.
    Our particular focus on home ownership stems from 
philosophy that roots itself within the organization and every 
aspect of our work. This philosophy, known as Kahua Waiwai, 
espouses the basic philosophy of ``A Sense of Place''. The home 
is viewed as a foundation or Kahua. Upon this foundation is 
built the family's spiritual values, teachings and cultural 
traditions for Waiwai. It is that spiritual value of the home 
and its surroundings that provides stability and the 
opportunity for families to build a secure future. 
Opportunities that help stabilize family life help to create a 
more stable community. Thus, it be can be said that home 
ownership encompasses more than just purchase of a house, it is 
an investment in the future. A strong foundation, if built 
properly, will serve generations to come.
    HCA has two long-standing program areas: Financial 
education services and community lending. Both drive the 
organization's comprehensive approach to achieving its mission.
    Our financial education services program include homebuyer 
and financial education workshops, individualized housing 
counseling, including foreclosure prevention services, and 
training and technical assistance to help community-based 
organizations develop and implement culturally-appropriate 
financial education using our Kahua Waiwai: Building a 
Foundation of Wealth curricula.
    Our community lending program, known as Hawaii Community 
Lending, has experience originating mortgages on and off 
Hawaiian Home Lands, and currently provides loan packaging 
services, micro-loan products, and matched savings accounts to 
assist Native families secure and sustain permanent housing.
    We have submitted a Homebuyer and Financial Education 
Program Report with our testimony that highlights our fiscal 
years of 2007 through 2011. It's made possible in part by 
NAHASDA funding.
    I would like to take this opportunity to just highlight 
some key pieces of this report. With NAHASDA funding, HCA has 
provided services as a HUD approved housing counseling agency 
and Native CDFI for more than six years under grants and 
contracts with the state Department of Hawaiian Homelands and 
as sub-recipient, under DHHL, of HUD Native Hawaiian Block 
Grant funds made possible through the Native American Housing 
Assistance and Self-Determination Act of 1996.
    NAHASDA funding has assisted HCA to establish itself as the 
largest provider of homebuyer and financial education services 
and products for Native Hawaiian families statewide. We have 
been able to leverage funding from both local, state, and 
national sources to enhance community development of Hawaiian 
Home Lands, primarily for homeownership. We have been able to 
secure partnerships to increase the rate of homeownership for 
Hawaiian Home Lands Lessees. And we have been able to enhance 
our capacity to create a continuum of service in the realm of 
housing counseling with the goal of providing Native Hawaiian 
families with the necessary education and tools to move from 
the beach to the biggest investment in their lifetime, a home.
    In particular, since 2006, HCA has assisted Native Hawaiian 
family under the Home Ownership Assistance Program with 
becoming financially qualified to purchase homes and access 
mortgage financing in the following Hawaiian Home Lands 
Developments: Lanai, Kekaha, the Villages of Lealii, Kaupea 
Phases I, II and III, Waiehu Kou IV, Hoolehua, Kanehili Phases 
I and II.
    HCA has leveraged funding for its work in providing 
financial education services and for other products from two of 
the largest national rural community development organizations, 
Rural Community Assistance Corporation, and Rural LISC, as well 
as Federal Administration for Native Americans to expand 
mortgage origination services and establish a youth financial 
education program that has served more than 930 Hawaii youth 
residing in low income communities with age and culturally-
appropriate financial training.
    In 2008 HCA formed an exciting new partnership between HCL 
and Bank2 Native American Bank to increase access to mortgage 
capital for beneficiaries of the Hawaiian Homes Commission Act. 
The partnership allowed HCL to utilize NAHASDA funding to 
originate the Section 184A Native Hawaiian Housing Loan 
Guarantee program; a mortgage product specifically designed for 
Native Hawaiians on Hawaiian Home Lands. The partnership and 
implementation of the new 184A loan program resulted in HCL 
seeing a 367 percent increase in mortgage financing available 
to Native Hawaiian homeowners from fiscal year 2009 to 2010. 
This actually has been the highest volume of financing made 
available by HCL in a single year since its inception.
    NAHASDA funding has been a primary source of building the 
capacity of HCA to expand its services to address the diverse 
housing needs of our Native Hawaiian families including 
homeless families living in transitional shelters, low income 
buyers, homeowners at risk of foreclose, and families engaging 
in financial education services.
    The following key outcomes of HCA's continual education 
Homebuyer Financial Program would not have been possible 
without NAHASDA funding. We have now 3,465 individuals that 
graduated homebuyer and financial education workshops; 2,282 
individuals that received credit counseling. These individuals 
who completed at least eight hours of homebuyer education 
training and received counseling of over an 18-24 month period, 
improved their credit scores by 100 points, decreased their 
debt by over $5,000, and increased their savings by over 
$7,000.
    Twenty-eight Native Hawaiian families collectively saved 
$69,000 toward a down payment and closing costs in the 
Homestead Individual Development Account Program; and $123 
million in mortgage loans have been made to serve Native 
Hawaiian families through Hawaii Community Lending.
    NAHASDA funding has been instrumental in helping our Native 
Hawaiian families achieve economic self-sufficiency through 
homeownership. With the ongoing economic and housing crisis 
that we have encountered, we see an extraordinary opportunity 
to dedicate these funds to address the diverse housing needs of 
our families and promote self-determination through the 
establishment of a comprehensive work plan, to not only assist 
first time homebuyers, but also the hard working families 
forced to live on the beach, multi-generational households 
renting together to offset extremely high housing costs, and 
beneficiaries aspiring to building a foundation for wealth 
through aquaculture, agriculture, ranching and business 
development.
    With this goal in mind, we see potential opportunities for 
NAHASDA funding for development of affordable transitional, 
rental, rent-to-own, multi-family, and self-help housing units 
to structure a broad pathway for our families to achieve and 
sustain the dream of homeownership that is in-line with our 
cultural values and traditions.
    Opportunities for NAHASDA funding increases opportunities 
for Native Hawaiian youth, their families and their 
grandparents to achieve and sustain economic self-sufficiency 
through homeownership on aquaculture, agriculture, and pastoral 
lots located on Hawaiian Home Lands.
    Implementation of loan products by CDFIs to further assist 
Native Hawaiian families overcome barriers to accessing credit 
necessary to become financially qualified to secure and sustain 
permanent housing and obtain financing for home purchase. 
Opportunities for NAHASDA funding, as far as leveraging local, 
state and federal resources dedicated to increasing and 
sustaining homeownership while simultaneously promoting self-
determination through implementation of local food and energy 
initiatives.
    As you can see, and we can feel, NAHASDA funding has helped 
change habits, improve lives, and better our people so we can 
build healthy communities for our future generations. With the 
reauthorization of NAHASDA through Senate Bill 65 we will have 
that opportunity to do even more with our people to ensure that 
we fulfill the vision of our Prince Jonah Kuhio as carried 
forth by you, Senator Akaka and Senator Inouye, and to the rest 
of our congressional delegation there.
    Mahalo nui loa for the opportunity to share my mana'o on 
behalf of Hawaii Community Assets, but moreover the thousands 
of Native Hawaiian families we have served over the years.
    On behalf of my own ohana, aloha nui, mahalo piha for being 
in Washington DC for us. Senator Akaka, we rejoice in your 
homecoming and we pine for those left in DC.
    They will miss that senator whose name began with the 
letter A and ends with the letter A, who because he comes from 
Hawaii I've been told, ``ah, you're from Hawaii. Your senator 
is Mr. Aloha.''
    So until we can replace your pono in Congress, the absence 
of your aura of aloha certainly will be missed. Mahalo.
    [The prepared statement of Mr. Filimoeatu follows:]

Prepared Statement of Kehaulani Filimoeatu, Board President/Co-Founder, 
                    Hawaiian Community Assets, Inc.
    Aloha Honorable Senator Akaka, Senator Inouye, and Staff:
    My name is Kehaulani Filimoeatu. I am Board President and co-
founder of Hawaiian Community Assets, Inc. a nonprofit HUD approved 
housing counseling agency and emerging Native CDFI that assists low- 
and moderate-income communities secure and sustain permanent housing 
with a particular focus on Native Hawaiians.
    I speak with you today to share my manao about the need to 
reauthorize NAHASDA through S. 65, which will ensure equal access by 
all indigenous peoples of the United States to funding for the purposes 
of financing affordable housing activities and housing related 
community development activity as consistent with the purposes of the 
Act. NAHASDA funding has played a key role in our organization's 
history, but more importantly it has enriched the lives of thousands of 
Native Hawaiian families who have received our services, achieved the 
dream of homeownership, and continue to work toward self-determination.
Organization History
    Hawaiian Community Assets, Inc was founded in 2000, on the island 
of Maui, with the charge to create a community development financial 
institution that would address the housing needs of Native Hawaiian 
individuals and families. Our mission is to increase the capacity of 
low- and moderate-income communities to achieve and sustain economic 
self-sufficiency, with a particular focus on Native Hawaiians. HCA 
supports permanent housing, culturally-relevant financial education, 
and asset building programs to achieve its mission.
    Our particular focus on home ownership stems from a philosophy 
which roots itself within the organization and every aspect of our 
work. This philosophy, known as, Kahua Waiwai espouses the basic 
philosophy of ``A Sense of Place.'' The home is viewed as a foundation 
(Kahua). Upon this foundation is built the family's spiritual values, 
teachings, and cultural traditions (Waiwai). It is the spiritual value 
of the home and its surroundings that provides stability and the 
opportunity for families to build a secure future. Opportunities that 
help stabilize family life help to create a more stable community. 
Thus, it can be said that home ownership encompasses more than just the 
purchase of a house--it is an investment in the future. A strong 
foundation, if built properly, will serve generations to come.
Program Areas
    HCA has two long-standing program areas--financial education 
services and community lending--that drive the organization's 
comprehensive approach to achieving its mission.
    Our financial education services program include homebuyer and 
financial education workshops, individualized housing counseling, 
including foreclosure prevention services, and training and technical 
assistance to help community-based organizations develop and implement 
culturallyappropriate financial education using our Kahua Waiwai: 
Building a Foundation of Wealth curricula.
    Our community lending program, known as Hawaii Community Lending, 
has experience originating mortgage loans on and off Hawaiian Home 
Lands and currently provides loan packaging services, micro-loan 
products, and matched savings accounts to assist Native Hawaiian 
families secure and sustain permanent housing.
    We have submitted a Homebuyer and Financial Education Program 
Report with our testimony that highlights the impacts of the 
organization's homebuyer and financial education program during the 
Fiscal Years of 2007 through 2011 made possible, in part, by NAHASDA 
funding; however I would like to take the opportunity to highlight key 
pieces of this Report.
NAHASDA Funding
    HCA has provided services as a HUD approved housing counseling 
agency and Native CDFI for more than six years under grants and 
contracts with the State Department of Hawaiian Homelands and as a sub-
recipient (under DHHL) of HUD Native Hawaiian Block Grant (NHBG) funds 
made possible through the Native American Housing Assistance and Self-
Determination Act (NAHASDA) of 1996.
    NAHASDA funding has assisted HCA to:

        (1)  Establish itself as the largest provider of homebuyer and 
        financial education services and products for Native Hawaiian 
        families statewide;

        (2)  Leverage funding from local, state, and national sources 
        to enhance community development of Hawaiian Home Lands, 
        primarily for homeownership;

        (3)  Secure partnerships to increase the rate of homeownership 
        for Hawaiian Home Lands Lessees; and

        (4)  Enhance its capacity to create a continuum of service in 
        the realm of housing counseling with the goal of providing 
        Native Hawaiian families with the necessary education and tools 
        to move from the beach to the biggest investment in their 
        lifetime--a home.

    In particular, since 2006 HCA has assisted Native Hawaiian families 
under the Home Ownership Assistance Program with becoming financially 
qualified to purchase homes and access mortgage financing in the 
following Hawaiian Home Lands Developments:

  <bullet> Lanai
  <bullet> Kekaha
  <bullet> Villages of Lealii
  <bullet> Kaupea Phaes I, II, and III
  <bullet> Waiehu Kou IV
  <bullet> Hoolehua
  <bullet> Kanehili Phases I and II

    HCA has leveraged funding for its work in providing financial 
education services and products from two of the largest national rural 
community development organizations- Rural Community Assistance 
Corporation and Rural LISC as well as the Federal Administration for 
Native Americans to expand its mortgage origination services and 
establish a youth financial education program that has served more than 
930 Hawaii youth residing in low-income communities with age- and 
culturally-appropriate financial training.
    In 2008 HCA formed an exciting new partnership between HCL and 
Bank2 Native American Bank to increase access to mortgage capital for 
beneficiaries of the Hawaiian Homes Commission Act. The partnership 
allowed HCL to utilize NAHASDA funding to originate the section 184A 
Native Hawaiian Housing Loan Guarantee program; a mortgage product 
specifically designed for Native Hawaiians on Hawaiian Home Lands. The 
partnership and implementation of the new 184A loan program resulted in 
HCL seeing a 367 percent increase in mortgage financing available to 
Native Hawaiian homeowners from FY 2009 to FY 2010 and the highest 
volume of financing made available by HCL in a single year since its 
inception.
    NAHASDA funding has allowed HCA the opportunity to work with 
families in a variety of contexts, including through self-help and 
private developers, county housing agencies, DHHL, and special 
populations such as the Kalapana community displaced by Kilauea lava 
flows and Niihau immigrants on Kauai.
    NAHASDA funding has been a primary source of building the capacity 
of HCA to expand its services to address the diverse housing needs of 
our Native Hawaiian families including homeless families living in 
transitional shelters, low-income homebuyers, homeowners at-risk of 
foreclosure, and families engaging in financial education activities 
together.
Program Outcomes
    The following key outcomes of HCA's Homebuyer and Financial 
Education Program would not have been possible without NAHASDA funding 
as a foundational piece of implementing the organization's Homebuyer 
and Financial Education Program:

  <bullet> 3,465 individuals graduated homebuyer and financial 
        education workshops;

  <bullet> 2,282 individuals received credit counseling;

  <bullet> Individuals who completed at least 8 hours of homebuyer 
        education training and received counseling over a 18-24 month 
        period

      --Improved their credit scores by 101 points from 540 to 641;
      --Decreased their debt by $5,012; and
      --Increased their savings by $7,003;

  <bullet> 28 Native Hawaiian families collectively saved $68,677.35 
        toward down payment and closing costs in the Homestead 
        Individual Development Account Program; and

  <bullet> $123 million in mortgage loans have been made to serve 
        Native Hawaiian families through Hawaii Community Lending.

Potential Opportunities
    NAHASDA funding has been instrumental in helping our Native 
Hawaiian families achieve economic self-sufficiency through 
homeownership. With the ongoing economic and housing crises, we have an 
extraordinary opportunity to dedicate these funds to the address the 
diverse housing needs of our families and promote self-determination 
through the establishment of a comprehensive work plan to not only 
assist our first-time homebuyers, but also the hard working families 
forced to live on the beach, multi-generational households renting 
together to offset extremely high housing costs, and Beneficiaries 
aspiring to build a foundation for wealth through aquaculture, 
agriculture, ranching, and business development.
    With this goal in mind, potential opportunities for NAHASDA funding 
may include:

  <bullet> Development of affordable transitional, rental, rent-to-own, 
        multi-family, and self-help housing units to structure a broad 
        pathway for our families to achieve and sustain the dream of 
        homeownership that is in-line with our cultural values and 
        traditions;

  <bullet> Increasing opportunities for Native Hawaiian youth, their 
        families, and their grandparents to achieve and sustain 
        economic self-sufficiency through homeownership on aquaculture, 
        agriculture, and pastoral lots located on Hawaiian Home Lands;

  <bullet> Implementation of loan products by local CDFIs to further 
        assist Native Hawaiian families overcome barriers to accessing 
        credit necessary to become financially qualified to secure and 
        sustain permanent housing and obtain financing for home 
        purchase; and

  <bullet> Leveraging of Local, State, and Federal Resources dedicated 
        to increasing and sustaining homeownership while simultaneously 
        promoting self-determination through implementation of local 
        food and energy initiatives.

    As you can see, NAHASDA funding has helped change habits, improve 
lives, and better our people so we can build healthy communities for 
our future generations. With the reauthorization of NAHASDA through 
S.65 we will have the opportunity to do even more with our people to 
ensure we fulfill the vision of the late Prince Jonah Kuhio carried 
forward by you, Honorable Senators Akaka and Inouye.
    Mahalo nui loa for the opportunity to share my manao on behalf of 
Hawaiian Community Assets and the thousands of Native Hawaiian families 
we have served over the years.
    Malama Pono.
    Attachment


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Mahalo nui, Kehau, for your testimony and for 
your support as well of the bill, S. 65.
    And for all of you, your commendation and the need of 
NAHASDA, and how important NAHASDA is to the Hawaiian Home 
Lands programs. So mahalo nui loa for that.
    First, Kali, I want to ask you. You served as Chairman for 
the state Department of Hawaiian Home Lands, as you mentioned, 
before NAHASDA was enacted.
    In your view, how important is Title VIII of NAHASDA, and 
accessibility of Section 184A loans to the Department's ability 
to meet the federal mandate to return Native Hawaiians back to 
the land?
    Mr. Watson. Senator, thank you for the question.
    I think without a doubt, the ability to obtain financing, 
especially as you relate it to some of the other loan products 
like the HUD 247, some of the others, as well as the cost of 
those, versus the process used under the NAHASDA approach is 
very critical, because just those few dollars that you can save 
by using one loan product versus the other, and then what made 
or broke the ability of that family to get a loan, to get a 
house, to have a place for their family, I think that without a 
doubt all these loan products are important.
    We need to continue the use of this particular loan package 
as provided under NAHASDA. I would say that the refinancing 
portion, which allows the families to get better, I guess, 
monthly payments as a result is also critical, because it frees 
up funds for other things that the families might need to do, 
such as get an education, support the kids, feed the family.
    So without a doubt, Senator, I think that with the 
continuation of this loan product, as well as its 
reauthorization, it will make an impact, a good impact. Thank 
you.
    The Chairman. Thank you very much, Kali.
    Robin, does the council have any additional policy or 
recommendations that would strengthen Native Hawaiian 
communities, or enhance the state Department of Hawaiian Home 
Lands' ability to carry out the purpose of the Hawaiian Home 
Lands Commission Act?
    Ms. Danner. Thank you for the question.
    Absolutely, Senator. You know I'm never at a loss for any 
policy recommendations.
    Two things come to mind when you say how do we advance 
forward. The first decade, Department of Hawaiian Home Lands 
and the beneficiary community has spent our time figuring out 
what is this NAHASDA. First decade in terms of reporting, and 
getting to know HUD. Getting to know a whole new division at 
HUD called ONAP, that most beneficiaries and most officials at 
DDHL didn't know existed.
    So it's been a good decade for learning for the Department, 
and engaging with HUD, and then implementing consultation 
policies.
    So I would hope that the next decade, and with the 
influence of the Committee to encourage that beyond the current 
administration HUD and DHHL, we have an awesome Deputy 
Assistant Rodger Boyd who gets us. He fully embraces the parity 
issues that we face.
    We have an awesome Deputy Director at Hawaiian Home Lands 
that for ten years has worked with us. So we have really 
knowledgeable officials right now have in the Obama 
Administration and the Abercrombie Administration.
    What I would like to see solidified beyond those 
administrations, the focus on empowerment and capacity building 
being squarely invested in the people, that the next ten years 
be spent implementing that self-determination in the homestead 
leaders and the organizations beyond the state government 
officials and employees.
    So that what we have known over the last ten or 15 years, I 
think I'm on my eighth chairman of Hawaiian Homes, Kali, you 
were my first. The administrations will come and go, but it's 
the land and the people that end up remaining.
    And so I think my advice would be for the next decade for 
state government, for Federal Government to join together to 
now implement stronger the self-determination policies of 
NAHASDA, so that the beneficiary leaders can come to the table, 
join and bring their awesome solutions and we can move more 
quickly to catch up on the 80 years that we have not had 
resources.
    And then my second and last policy recommendation, Mr. 
Chairman, I know it has a small budgetary impact, but perhaps 
for the record I would like to say it. I hope that we can work 
together to get parity with HUD 184 in one more step, the final 
parity issue would be to extend the same language that Indian 
Country has for their 184 program, which is the allowance of 
that mortgage product on or near trust lands. That would be an 
extraordinary parity issue that would not only enhance Hawaiian 
Home Lands, but truly enhance the State of Hawaii across the 
state fee simple and non-fee simple land.
    So I put that in answer, Mr. Chairman, for the record, 
perhaps at a future time that we can work on that policy issue.
    The Chairman. Thank you very much, Robin, for your mana'o 
and your response.
    Kehau, first, I want to commend HCA for its commitment to 
financial literacy, as well as credit counseling that you do. 
Financial literacy is key, really key to empowering our 
committees to lifting themselves out of poverty.
    I notice in your testimony that people have completed your 
training and participated in your counseling services on 
average moved their credit scores over 100 points from 540 to 
641. That's tremendous.
    Now, can you give me concrete examples of what moving a 
credit score from 540 to 641 means to the average individual in 
terms of expanded options?
    Ms. Filimoeatu. To many of those people it meant that you 
now could afford to get that home. And for many of our people 
that we have worked with, it was something that they did not 
really quite understand. And we realize for our people to 
understand finances, we had to take it to a different degree.
    We knew that Hawaiians historically knew how to handle and 
take care of everything. You know, we used, one of our topics 
was the baby luau that everybody knew came one year, oh, you 
going have big luau. And that no matter how poor or rich you 
were, you always had the necessary components to get there.
    They thought that having to save money up for that was 
going to be a hard thing to do. And part of what we needed to 
let them know that saving was all about how you spend. And that 
you know how we all get together and everybody go and gather 
little by little. You don't go get all the opihi one time, but 
you go month after month, so that by the time it came one year 
old, you had enough for everyone.
    When our people could address those kinds of issues at a 
more familiar level, that, oh, the light went on, and they knew 
how to follow through. We found that very prevalent as well 
with youth people that we had NAHASDA funding to come up with 
our youth curriculum now. I think that is going to be very 
pivotal for our people in getting their dealings to become more 
self-sufficient and self-determining.
    I think we have been able to use these fundings to teach, 
or to at least make them aware of how very akamai they were in 
the beginning. It's just the context and how we speak and how 
we talk and the terms we use about financing. A lot of 
Hawaiians they kind of go with that, but if you can bring them 
forward and give them the tools, they certainly can make good 
use of that.
    So we mahalo you and we mahalo the Native Americans for 
this act that they started, and we have been now able to take 
advantage of.
    The Chairman. Mahalo, thank you for your mana'o.
    Now I would like to ask Congresswoman Hanabusa for any 
comments or questions she may have.
    Ms. Hanabusa. Thank you, Senator.
    Let's begin with you, Kali. The example you gave was very 
moving and you said that it was using NAHASDA funding.
    Were you Director at that time? Because you predate the 
year 2000 when it was originally Title VIII that was 
authorized.
    Mr. Watson. No, I wasn't the Director at that time. After I 
left, I went over to OHA and worked on the ceded land 
settlement. That was way back.
    Ms. Hanabusa. I remember.
    Mr. Watson. It was very frustrating, but I'm so happy to 
see the thing has finally been settled. After that one-year 
stint there, which was an interesting experience, but in any 
event, we started a non-profit, and we got some money from the 
Federal Home Loan Bank to fund this replacement home project 
involving 25. And it is one of the most challenging projects 
I've ever worked on in my life. It's also one of the most 
rewarding. We've had some really interesting experiences.
    I remember one instance where I was talking on the phone 
with this homesteader from Papakolea who was standing in her 
garage. And she started screaming because her house fell down.
    You know, a lot of the other homesteaders we work with, 
their houses had either collapsed or in terrible disrepair.
    When I was a Director we did a survey and we found over 
four to 500 houses throughout the homestead areas needing that 
kind of replacement, not just repairs but replacements. So 
fortunately the Department was willing to work with our non-
profit, provided us funding through the NAHASDA funding, which 
we used to replace these homes. We partnered up with a lot of 
other organizations, but that was a real good example, I think, 
where like I'm saying, NAHASDA is not just about money, it's 
about people. And I think that has to be kept in mind when you 
think or talk about and try to justify this particular funding 
source.
    Ms. Hanabusa. Thank you. I just want to say, Kali, as 
somebody that was there when you were negotiating the 
settlement, that I thought you had a very good settlement. Too 
bad it didn't go through, but people should know the hard work 
and the work that you put into that.
    Robin, you know, as always, we are looking at very similar 
parts of the bill. And I was also intrigued by the self-
determination aspect of it. But as you know, in that NAHASDA 
statute, the reference in the Congressional finding basically 
talks about self-determination in terms of federal assistance 
to meet these responsibilities be provided in a manner that 
recognizes the right of Indian self-determination and Tribal 
self-governance, by making such assistance available directly 
to the Indian Tribes, the Tribally-designated entity that the 
authority similar to those accorded Indian Tribes.
    In addition to that, as you know, under Section subtitle B 
of the Section 2 of the NAHASDA statute talks about self-
determine housing activities for Tribal communities. And it 
goes on in how it determines that self-determination. Self-
determination is such a term of art for us over all of these 
years, especially with Senator Akaka's bill, that it takes on 
different nuances.
    So when you reference the self-determination portion that 
you would like to see incorporated and applied to Native 
Hawaiians, are you looking at it in terms of being in line with 
like the preamble statement, including Native Hawaiians, and 
subtitle B, which begins in Section 201 of the NAHASDA statute?
    Ms. Danner. Thank you, Congresswoman. I have been 
privileged in 1995, 1994 during those years, I was the 
equivalent of the DHHL chairman for a large multi-Tribal 
housing authority. And so I had the privilege of working with 
Jackie Johnson and other leaders around the country in putting 
together the original 1996 NAHASDA.
    Self-determination was the starting point of our 
conceptualizing that legislation in making sure that it was 
self-governing by the people. So for Hawaiians, my 
interpretation of that is that we have a very unique 
relationship in that we have a double government layer, Federal 
Government and state government that passes through NAHASDA, we 
named DHHL when we did the amendment in 2000 and TDHE, Tribally 
Designated Housing Entity, because it was the most efficient 
and proper thing to do given the historical relationship for 
the state government to have to facilitate and administer.
    Then you can do sub-recipients. So the comparables to the 
1996 NAHASDA for Indian Country and Alaska Natives, is the 
homestead associations. They're long-time organizations that 
are democratically elected. That is what I'm talking about in 
terms of the application of self-determination policy, the 
federal policies, capacity building of empowerment. We need to 
take our next ten years of investing in those homestead 
associations, those homestead leaders so that they become the 
sub-recipient TDHE's and doing the types of housing that Kali 
is talking about, and that Kehau is working on, but more 
importantly so that the homestead leadership does not go away, 
has the opportunity to gain incredible networking and insight 
through their native counterparts on the continent by engaging 
in the Native American Housing Coalition on the continent, and 
working with Indian Country directly.
    My view is that the state government had to spend the first 
decade figuring out compliance and what is this NAHASDA. And 
now, like HUD, the state and the homestead associations to 
spend the next ten years implementing the big SD in NAHASDA, 
and investing in the actual collective people themselves.
    I am absolutely not uncomfortable comparing the homestead 
association to TDHE that is a pueblo that might be in New 
Mexico or one of the colonials in California, because the 
homestead associations, some of them are 30 years old. These 
are not pop-up, start-up, self-governing organizations. They 
have long tradition and protocols. And they are laser-beam 
focused. No matter what's going on around them or in the state, 
they are laser-beamed focused on their homestead areas, just as 
a pueblo or a Tribe is laser-beam focused.
    So, yes, I am suggesting that the next ten years we get our 
arms around, our heads around together state government, 
Federal Government and the community based organizations and 
homesteads start to get our arms around how and what the 
federal policies of self-determination are intended for.
    Ms. Hanabusa. I don't see former Representative Mike 
Kahikina here, but when Mike was in the House, we actually 
passed, it ended up being a Senate bill I introduced, which 
basically afforded the self-determination--well, actually a 
role more for homestead communities. And it went up as an 
amendment to the Hawaiian Homes Commission Act. As you know, it 
fell into a black hole somewhere and never went any further.
    It seems like, that if it's amended into the NAHASDA, it 
would accomplish exactly what, sort of along the same lines 
that we're looking at to try and give the homestead communities 
a more sense of self-determination, and that's one of the 
reasons why I wanted to clarify. But I understand clearly what 
you're saying, and I appreciate it, because I do believe that 
that is exactly where we must go.
    Kehau, you do amazing work, and I don't really have a 
question other than to tell you that I know that the major 
success is in the refocusing, and I love the baby luau analogy, 
because that's exactly what has always tripped up our families. 
And that's another reason why I think the provision of this 
bill, the refinancing aspect of it is also so critical, and a 
major component.
    But I would just like to end by saying that as you are all 
aware, because Senator has been there and Senator Inouye has 
also been able to--they have both been able to massage the 
budget, that though we lost authorization in 2004, that it has 
been able to continue. And in 2011 it was a clear example of 
what can happen without the authorization. And that is that I 
could not amend the appropriation measure to put in, back in 
the funding for Native Hawaiians under NAHASDA, and the reason 
being very simply because the way it works up there, our rules 
prohibit it if we don't have the authorization. So until then, 
you're at the mercy of the appropriators.
    I hope that as part of this record, the real significance 
of the authorization is felt by everyone here and whoever you 
may know or whatever letters you can get out there, it is 
absolutely critical, because they don't have to do it.
    I share your thoughts, Kehau. Senator Akaka has been such 
an amazing advocate, and as he retires and you folks get him 
home, assuming I don't come home with him, because it depends, 
it's really very important. So thank you all, very much.
    I'll turn this back to the Senator.
    The Chairman. Mahalo nui, Colleen.
    My last question to the panel is you discuss at length the 
federal trust responsibility to Native Hawaiians. As community 
advocates and service providers, what more needs to be done to 
better meet the federal trust responsibility and advance the 
federal policy of self-determination and self-governance where 
Native Hawaiian people are concerned, looking at the history 
that we have until now in Congress, self-governance seems to be 
one of the final steps in bringing the Native Hawaiians 
indigenous people together from Prince Kuhio's time of getting 
them homes. Many organizations coming together to try to bring 
them together in spirit. And the last thing that need to be 
done is government-to-government relationships. And that's what 
we're seeking to do.
    My question to the panel is what I just asked. Comments, 
Robin?
    Ms. Danner. Senator and Congresswoman, as a member of the 
Native Hawaiian Roll Commission that was passed by the Hawaii 
Legislature, Act 195, I think what that portion has been done, 
a step forward for the state to embrace and to say to the world 
and especially to Congress to the State of Hawaii it fully 
embraces a government-to-government relationship. I think there 
are three things that are next on the next generation that you 
pass the torch to, and that first and foremost is for this year 
to pass the Native Hawaiian Government Reorganization Act, even 
in a streamlined version, especially due to the collaboration 
with our Hawaii State Legislators.
    So passage of government-to-government recognition, as you 
have taught us, we are federally recognized people, 150 
statutes are based on our Native status. But the unfinished 
business to advance the trust relationship is for the Federal 
Government to once and for all deal with us and address us in a 
government-to-government fashion.
    The second area that I think is not as difficult to do on 
an administrative level would be to have our Hawaii 
Congressional delegation help and encourage the Obama 
Administration and officials to give flexibility to terrific 
officials like Deputy Assistant Secretary Rodger Boyd to have a 
more direct federal relationship with the people versus having 
a federal-to-state relationship. That has been small time, but 
necessary, but now we need to advance the federal relationship 
between HUD, between Department of Energy, Department of 
Interior, Office of Native Hawaiian Relations needs to come 
directly and start to engage so that we can learn about the 
federal trust relationship and that they, in their agencies, 
can learn, so that we don't have this federal-to-state 
relationship get ingrained.
    Third, I think that one of the most powerful ways that our 
Hawaii Congressional delegation in partnership with Alaska and 
New Mexico and the other 35 states that have Native peoples is 
to continue doing, as Director Tuell has encouraged us to do 
over the last year, is to remind those legislators that we are 
the third Native peoples, and when there is an Indian energy 
bill, or when there is an education bill, that means Native 
energy, that means Native education. Just as your staff worked 
on the Native Class Act, and had Native Hawaiians included in 
it. We have got to keep educating and continuing that mantra 
that with trust lands, our Native solutions are very similar, 
if not exactly the same, and so to extend parity I think, 
Senator, you hit it on the head that word parity is a lifelong 
journey that the next generation of Hawaiian advocates, we will 
teach them to come up and to continue that story.
    The Chairman. Kali.
    Mr. Watson. Senator, I think I'm more of a developer 
mentality. There's no doubt about the need for the recognition 
of government-to-government between the groups. But I think 
from a pragmatic standpoint, in developments, I think some of 
the difficulties have been because of the limitation on 
funding, limitation and changes that are coming about, and the 
different federal departments.
    For example, rural development, with the changes in the 
populations, for example, Kapolei, they're going to lose their 
designation as rural area that would qualify for a lot of 
different funding that is available through that agency.
    So I think we need to change the laws at the federal level 
whereby instead of designating a rural area, rather designate 
it as trust lands that are available through these different 
departments.
    Similarly, with respect to the rural utilities under RD, 
it's been very difficult in the existing structure to access 
some of the funding or loan products. For example, the ones 
that Anahola is using in partnership with KIUC to develop a ten 
and 12 megawatts PV farm. To try and access that fund, if you 
are not a rural utility entity versus a homestead association, 
it's almost impossible. So I think there needs to be an 
analysis of the existing legislation or laws to make changes 
that provide that accessibility, so that our people, through 
their homestead associations or other types of entities, can 
access the fundings to do the developments, the economic 
engines that will allow them to not only build and start 
businesses, but more importantly educate our own people. It's 
very, very critical.
    I can go on and on about all the different federal laws 
that can be changed to help our people, but I think NAHASDA is 
a step. So we truly support and appreciate the work that you've 
done in the past and look forward to seeing you at home.
    The Chairman. Aloha.
    Kehau, do you have any comments on this question?
    Ms. Filimoeatu. I would agree with everything they have 
said so far, including na'i, we should take back the land 
maybe.
    [Laughter.]
    Ms. Filimoeatu. I'm not sure how much we can leverage with 
that. But I know you're doing wonderful, and our wahine over 
there, mahalo.
    The Chairman. Mahalo for your mana'o. It has been really 
great to hear from you. What you said for the record will be 
very, very important to what we're doing in Congress. So I want 
to thank you folks, mahalo nui loa for all of this.
    I want to say thank you to the third panel, and extend 
mahalo to everyone for participating in today's hearing. Your 
mana'o helps building the record on the importance of U.S. 
Senate Bill 65, and demonstrates how it is an effective and 
necessary piece of meeting that trust responsibility to Native 
Hawaiian people.
    Finally, I want to say a few words about my top legislative 
priority, U.S. Senate Bill 675, the Native Hawaiian Government 
Reorganization Act. I want to again thank the Hawaii 
delegation, because this bill has been important to all of us, 
and to Hawaii, and we continue to work together to move it 
forward. Native Hawaiians was mentioned the only federally 
recognized Native people without a government-to-government 
relationship with the United States. And we want to bring that 
parity forward. And my bill provides the Native Hawaiian people 
the same mechanisms of self-government, self-determination that 
other Native peoples currently enjoy under existing federal 
law. Its passage is long overdue, governmental parity for 
Native Hawaiians, American Indians and Alaska Natives, all of 
the first nations of the United States is pono, it's the right 
thing, and we'll bring that about with your support.
    I will continue to work to ensure that the Native Hawaiian 
people have their right to self-governance honored.
    So this is what we look forward to. I want to commend 
NAHASDA and HUD for your work in helping the country, and the 
people of our country out, and also the Native Hawaiians as 
well. And as you've heard from all of our witnesses, NAHASDA is 
very, very important to our future here in Hawaii.
    I also want to thank my staff from the American Affairs, 
Indiana Affairs group here, both our Loretta Tuell and also our 
minority side, also mahalo for coming; and for the staff of 
Senator Inouye, Hanabusa, also Hirono for helping out with this 
hearing today from my staff as well.
    I am happy at what has happened, and to tell you that in 
our Committee of Indian Affairs we've had good relationships 
with the minority side, and Rhonda Harjo has been a Deputy 
Staff Director and is here representing that side as well for 
Senator Barrasso from Wyoming who is a Vice Chair of this 
Committee.
    And my staff, I think you should know the names of them, 
Loretta Tuell, Lenna Aoki, Jade Danner and Christine Cardoza. 
And from my staff here in Hawaii Joan Ohashi, and Jesse and 
Keone and Daphne. And so to all of them, mahalo nui loa for 
your work in bringing this about.
    But this has been an important area, and you've really 
helped us with the record, and that's important to us and our 
work in Congress.
    And finally I want to say mahalo nui loa for the support 
you've given me in all of the years, and it has been a real 
privilege and an honor to represent you and the people of 
Hawaii of the United States of America, and really the rest of 
the world. And I thank God and ask for his blessings upon all 
of you, your families, your organizations, our great state and 
the governments here of council as well, and the United States 
of America.
    We are so grateful for the opportunities we have had. So 
mahalo nui loa.
    This hearing is adjourned.
    [Whereupon, at 12:48 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Cheryl A. Causley, Chairwoman, National American 
                         Indian Housing Council
Introduction
    Dear Chairman Akaka, Vice Chairman Barrasso, and distinguished 
members of the Senate Committee on Indian Affairs. I am submitting this 
written statement in support of S. 65, the Hawaiian Homeownership 
Opportunity Act of 2011, on behalf of the National American Indian 
Housing Council (NAIHC). My name is Cheryl A. Causley and I am the 
Chairwoman of NAIHC, the only national, tribally-established non-profit 
organization dedicated to advancing housing, physical infrastructure, 
and economic and community development in Native American communities 
throughout the United States. I am also an enrolled member of the Bay 
Mills Indian Community in Brimley, Michigan, and the Executive Director 
of the Bay Mills Indian Housing Authority. I want to thank the 
Committee for the opportunity to submit written testimony in support of 
Hawaiian Homeownership Opportunity Act of 2011.
Background on the National American Indian Housing Council (NAIHC)
    The NAIHC was founded in 1974 and has, for 38 years, served its 
members by: providing invaluable training and technical assistance (T/
TA) to all Native Americans and their housing entities; providing 
information to Congress regarding the issues and challenges that Native 
American communities face in terms of housing, infrastructure, and 
community and economic development; and through working with key 
Federal agencies to address these important and, at times, vexing 
issues, and to help meet the challenges.
    The membership of NAIHC is expansive, comprised of 271 members 
representing 463 \1\ tribes and tribal housing organizations and, since 
May 2008, the Department of Hawaiian Home Lands. (DHHL), the sole 
recipient of the Native Hawaiian Housing Block Grant (NHHBG) program 
and the entity responsible for carrying out affordable housing 
activities for low-income native Hawaiian families who are eligible to 
reside on the Hawaiian home lands. The primary goal of NAIHC is to 
support Native housing entities in their efforts to provide safe, 
decent, affordable, culturally appropriate housing for Native people, 
including native Hawaiians.
---------------------------------------------------------------------------
    \1\ There are approximately 566 federally-recognized Indian tribes 
and Alaska Native villages in the United States, all of which are 
eligible for membership in NAIHC. Other NAIHC members include state-
recognized tribes eligible for housing assistance under the 1937 
Housing Act and grandfathered in to the Native American Housing 
Assistance and Self-Determination Act of 1996, and the Department of 
Hawaiian Home Lands that administers the Native Hawaiian Housing Block 
grant.
---------------------------------------------------------------------------
Brief Summary of the Problems Regarding Housing in native Hawaiian 
        Communities
    As this Committee knows, and as the Chairman is keenly aware, the 
Hawaiian home lands are located in various geographic areas of the 
islands, usually in rural areas, and a significant portion of the home 
lands contain topography that is problematic and costly for housing 
development. Like the remote locations of many Indian reservations on 
the mainland and in Alaska Native villages, there is a lack of basic 
infrastructure and economic development opportunities are difficult to 
identify and pursue on the native Hawaiian home lands.
    The poverty rate in Indian country is exceedingly high at 25.3 
percent. \2\ These same conditions exist on the native Hawaiian home 
lands. The employment and economic development challenges exacerbate 
the housing situation just as they do in Indian Country. Native 
Hawaiians face some of the worst housing and living conditions in the 
country and the availability of affordable, adequate, safe housing 
falls far below that of the general U.S. population. In Hawaii, 
according the Census, 17.4 percent of native Hawaiians are below the 
poverty rate compared to 9.4 percent of the total population in Hawaii.
---------------------------------------------------------------------------
    \2\  US Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2011. See http://www.census.gov.
---------------------------------------------------------------------------
    To further compound this problem, the cost of housing in Hawaii is 
inordinate. Hawaii ranks first in the United States for median home 
value at $560,200, compared to the national average of $197,600 
according to data from the Census for 2008. In 1996, HUD issued a 
report indicating that native Hawaiians have the highest percentage of 
housing problems (49 percent) of any group in the United States. It is 
not an overstatement that native Hawaiians experience the worst housing 
conditions of any group in the State of Hawaii. They also make up 
approximately 30 percent of Hawaii's homeless population.
    According the Department of Housing and Urban Development, 68 
percent of low-income native Hawaiian households have a housing 
obstacle that includes such things as affordability, overcrowding, 
structural quality, and availability, or any combination of these 
housing issues. For very low-income native Hawaiian households (those 
whose income does not exceed 50 percent of area median income), the 
needs are more severe, with 75 percent of households in this category 
facing at least one of the housing obstacles identified above.
Conclusion and Recommendations
    It is against this backdrop that the passage of S. 65, the Hawaiian 
Home Ownership Opportunity Act becomes so critically important. The 
Native American Housing Assistance and Self-Determination Act of 1996 
(NAHASDA) was amended in 2000 by the Hawaiian Homelands Homeownership 
Act of 2000. A new title was added to NAHASDA, Title VIII, Housing 
Assistance for Native Hawaiians, that authorized the Native Hawaiian 
Housing Block Grant (NHHBG) program to provide affordable housing 
opportunities and activities for low-income native Hawaiians eligible 
to reside on the Hawaiian home lands. S. 65 would amend Section 824 of 
NAHASDA to authorize appropriations for the NHHBG program through 
fiscal year (FY) 2015. NAIHC unequivocally supports this Section of S. 
65.
    NAHASDA was enacted to provide Native American communities with new 
and creative tools necessary to develop culturally appropriate, safe, 
decent, and affordable housing. One such tool is the Section 184A Loan 
Guarantees for Native Hawaiian Housing program, known as Section 184A. 
The Section 184A program was established by Section 514 of the American 
Homeownership and Economic Opportunity Act of 2000 (P.L. 106-569, 
approved December 27, 2000), amended the Housing and Community 
Development Act of 1992 (12 U.S.C. 1715z-13b). This program provides a 
100 percent guarantee to lenders that make housing loans to native 
Hawaiian borrowers eligible to reside on the Hawaiian home lands.
    Native Hawaiians eligible to reside on the Hawaiian home lands have 
historically had limited access to private mortgage capital, due in 
large measure because lenders were understandably reluctant to do 
business on land that cannot be encumbered or alienated, such as the 
home lands. The Hawaiian home lands are held in trust. This program 
offers lenders a 100 percent guarantee in the event of a default. This 
guarantee makes private financing of home mortgages by private 
financial institutions possible, which would otherwise not be feasible 
because of the unique legal status of Hawaiian home lands. Through this 
program, eligible native Hawaiians can obtain a mortgage with a market 
rate of interest to purchase and rehabilitate, or to construct a single 
family home on the Hawaiian home lands.
    Section 3 of S. 65 would authorize this program through FY 2015 and 
make the program more flexible by including refinancing as a permanent 
eligible use of the guaranteed funds.
    The 100 percent guarantee provides the incentive for private 
lenders to market loans to this traditionally underserved population. 
Private financing is used to cover construction or acquisition costs, 
while Federal dollars are used only to guarantee payment in the event 
of a default. Individual native Hawaiian families who are eligible to 
reside on the Hawaiian home lands, the (state) Department of Hawaiian 
Home Lands (DHHL), the Office of Hawaiian Affairs, or private nonprofit 
organizations experienced in the planning and development of affordable 
housing for native Hawaiians are all eligible Section 184A borrowers. 
NAIHC enthusiastically supports this amendment to the Housing and 
Community Development Act of 1992.
    Section 4 of S. 65, would amend Title VI and Title VIII of NAHASDA 
to include the Department of Hawaiian Home Lands as an eligible entity 
to participate in the Federal guarantees for financing housing 
activities programs that tribes and tribal housing entities have 
participated in since NAHASDA was passed in 1996. Historically, as has 
been noted, private lenders and investors have been reluctant to do 
business in Indian Country or on native Hawaiian home lands for a 
variety of reasons, including remote locations, cumbersome procedures 
related to trust lands, and a simple lack of experience lending to this 
population.
    Under the Title VI program, HUD can guarantee 95 percent of 
outstanding principal and interest on a loan made by a private lender 
to an IHBG recipient for affordable housing activities. Borrowers 
pledge a portion of their current and future IHBG funds as security for 
the repayment of the federally guaranteed financial obligation. The 95 
percent guarantee has proven to be an incentive for lenders to get 
involved in the development of tribal housing. Section 4 of S. 65 would 
authorize the DHHL to secure a 95 percent guarantee loan based on a 
portion of the NHHBG to pursue eligible housing activities under the 
NHHBG program. Section 4 would also authorize the Title VI Federal 
Guarantees for Financing Tribal and Native Hawaiian Housing Activities 
programs through FY 2015. Including the NHHBG program activities as 
eligible under the native Hawaiian Housing programs is an important 
amendment to NAHASDA and NAIHC supports this measure without 
hesitation.
    I wish to conclude this written testimony by thanking Chairman 
Akaka, Vice Chairman Barrasso, and all members of the Senate Committee 
on Indian Affairs, for letting us express our views and our 
aspirations. The path to a self-sustaining economy is not achievable 
without a robust housing sector and Native American housing conditions 
will not be improved without the necessary tools. NAIHC and its 
membership believe that S. 65, the Hawaiian Homeownership Opportunity 
Act, is an important tool to provide culturally relevant affordable 
housing for native Hawaiians. Native American housing programs are not 
just about constructing houses, they are about building sustainable 
Native American communities--communities where health and safety are a 
top priority and where education can thrive. Together, we can continue 
the important work of building vibrant Native American communities 
throughout this great country.
                                 ______
                                 
Prepared Statement of Craig ``Bo'' Kahui, Executive Director, La'i'opua 
                                  2020


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
 Prepared Statement of Hon. Don Young, U.S. Representative from Alaska
    Dear Chairman Akaka and Vice Chairman Barrasso,
    Thank you for organizing the Legislative Field Hearing on S. 65/
H.R. 2648, the Hawaiian Homeownership Act. I would like to submit the 
following letter in support of this legislation.
    Homeownership is central to the American dream and one that has not 
been easily realized for many Native Americans. Because Native 
Hawaiians have an even more unique historical relationship with the 
State of Hawaii and Congress. This bill will help Native Hawaiian 
families and future generations become homeowners by reauthorizing 
critical federal programs.
    In 1921 , Congress passed the Hawaiian Homes Commission Act (HHCA), 
which set aside land in trust throughout the state for Hawaiian 
individuals with at least 50 percent Native blood. The HHCA also 
created the Hawaiian Homes Commission, a federal entity to administer 
the trust.
    When Hawaii became a state, it was given title to these lands. The 
Federal Government delegated administration to the state but retained 
the ability to enforce the trust and oversee the administration through 
reporting requirements and enforcement of HHCA. Because of this new 
responsibility the state created the Department of Hawaiian Homelands 
(DHHL) an agency that was created to replace the federal Hawaiian Homes 
Commission.
    To assist with the mandate of HHCA, Title VIII of the Native 
American Housing Assistance and Self-Determination Act (NAHASDA) was 
enacted. Title VIII authorizes a housing program for low-income 
residents of Hawaiian Home Lands. DHHL housing projects are focused on 
homeownership rather than rental properties. Unfortunately, Title VIII 
funds do not provide adequate funding which is why the Hawaiian 
Homeownership Opportunity Act is necessary.
    The Hawaiian Homeownership Opportunity Act would reauthorize 
programs within the Department of Housing and Urban Development that 
would provide loans for Native Hawaiians. Such loans would be used to 
construct, acquire, refinance, or rehabilitate homes located on 
Hawaiian Home lands.
    On July 26, 2011 Representative Hirano, Representative Hanabusa, 
and I introduced H.R. 2648 the companion bill to S. 65 the Hawaiian 
Homeowner Opportunity Act. It is clear that this bi-partisan bill 
acknowledges the importance of enabling Hawaiian homeownership. I 
strongly support the passage of S. 65 and will continue to reach out to 
the Hawaiian delegation and other Members of Congress to see this bill 
advance.
                                 ______
                                 
       Prepared Statement of the Office of Hawaiian Affairs (OHA)
    Aloha Committee Members. The Office of Hawaiian Affairs (OHA) 
thanks you for taking the time to conduct a legislative field hearing 
on April 13, 2012 on S. 65, The Hawaiian Homeownership Act of 2011. OHA 
is a unique, quasi-independent state agency established by the Hawai'i 
State Constitution and state statutes to better the conditions of 
Native Hawaiians (Hawai'i's indigenous people). Guided by nine trustees 
elected by the voters of Hawai'i, OHA advances the interests of Native 
Hawaiians and serves as a fiduciary for Native Hawaiian public trust 
funds and other resources.
    One of the ten strategic results identified in OHA's strategic plan 
is to increase stability in housing for Native Hawaiians. Accordingly, 
OHA offers the following testimony in support of the Hawaiian 
Homeownership Act of 2011.
Native Hawaiians and Instability in Housing
    Limited resources required Native Hawaiians to develop careful land 
and resource management practices to support individuals and society, 
as well as to maximize available resources. Houses were developed with 
great consideration for their purpose to both the individual and the 
community. During the period of the Mahele in the 19th century, land 
use and resource management dramatically changed the economic, 
political, and social landscape of Hawai'i. In less than fifty years, 
development that was focused on economic profits from commercial 
agriculture operations diminished Native Hawaiian control of lands. 
Traditional Native Hawaiian building practices, land use, and ownership 
were virtually eliminated. These changes fostered the displacement of 
Native Hawaiians from ancestral lands and contributed to the breakdown 
of traditional kauhale or social housing communities.
    This legacy continues today. Over the past five years, Native 
Hawaiians have struggled with an unprecedented housing crisis. Growing 
numbers of homeless, limited affordable housing options, and difficult 
economic conditions are all contributing factors to housing 
instability.
    Census data alone does not reveal the entire story when it comes to 
housing instability and Native Hawaiians. Census tracts that cover 
homestead parcels show only the successful homeowners that have been 
able to qualify for and obtain leases. However, the remaining 
beneficiaries who are not able to qualify for leases, and Native 
Hawaiians who are not eligible for homesteads, have a need for housing 
as well.
    The definition of housing instability varies, but the term 
typically encompasses individuals who have difficulty paying rent, 
spend more than 50 percent of household income on housing, move 
frequently, live in overcrowded conditions, or ``double up'' with 
friends and relatives. Housing instability can be a risk factor for 
homelessness. (Cohen & Wardip, 2011.)
    Limited affordable housing stock and insufficient income are key 
underlying causes of housing instability for Native Hawaiians. Honolulu 
is considered the most expensive metro area in the nation for renters, 
and the median income for Native Hawaiians does not keep pace with the 
median Fair Market Rent for Hawai'i. (National Low Income Housing 
Coalition, 2010.) The lack of affordable housing options and rising 
housing costs may push Native Hawaiians into a state of housing 
instability.
    To support housing stability for Native Hawaiians, efforts must be 
made to raise Native Hawaiian income levels in order to enable Native 
Hawaiians to afford median home prices and rents. New affordable 
housing stock must also be created to meet the needs of the growing 
Native Hawaiian population. It is important to remember that stable, 
affordable housing has positive impacts on a myriad of quality of life 
indicators such as health, public safety, and family cohesion.
    Significantly, Native Hawaiians are overrepresented in both the 
unsheltered and sheltered homeless populations of the State of Hawai'i. 
Over 2,000 people, or 29 percent of shelter services recipients, were 
Native Hawaiian. Of those who utilize outreach services, including 
persons living unsheltered in cars, parks or other public places, 27 
percent identified themselves as Native Hawaiian or part Hawaiian. When 
heads of households were asked to identify the cause of their 
homelessness, more than half stated that they were unable to afford 
their rent. (University of Hawai'i Center on the Family, 2010.)
The Office of Hawaiian Affairs' Role
    To promote systemic change in housing, OHA's strategic plan 
identifies as a strategic result the increase in housing stability for 
Native Hawaiians. OHA is accomplishing this goal by providing resources 
to housing and shelter projects and services such as financial literacy 
and homeowner education.
    OHA has been a strong funding partner in a variety of areas that 
affect housing. Since 2004, OHA has provided over $8.5 million for 
housing and related services through its grants program, including:

  <bullet> $3 million annually for 30 years to the Department of 
        Hawaiian Home Lands as debt service for bond financing to help 
        20,950 Native Hawaiian applicants access affordable housing 
        throughout the state;

  <bullet> $1.5 million to establish a statewide revolving home loan 
        with Habitat for Humanity to serve Native Hawaiians eligible 
        for housing services;

  <bullet> $3 million for the Governor's Homeless Initiative, a shelter 
        on the leeward coast, and programs provided by partners 
        including Catholic Charities Hawai'i, Family Promise of 
        Hawai'i, and the United States Veterans Initiative; and

  <bullet> Funding for financial skill building and for renovations and 
        repairs with partners such as Hawaiian Community Assets, 
        Nanakuli Housing Corporation, and Hale Kipa.

The Hawaiian Homeownership Act of 2011
    The programs that will be extended by the passage of the Hawaiian 
Homeownership Act of 2011 play a crucial role in Hawai'i housing 
because they provide beneficiaries of the Department of Hawaiian Home 
Lands with access to mortgage products, housing development and related 
projects.
    Significantly, passage of the Act would also effect a beneficial 
expansion of the 184A loan guarantee program to include refinancing. 
Most homeowners with a mortgage take refinancing for granted. However, 
mortgages for homesteaders are largely limited to the 184A program, and 
as the economy has worsened, many homesteaders have found themselves in 
an unforeseen gap because they do not have the ability to refinance. 
Passage of the Act rectifies this needless disparity between 
homesteaders and other homeowners.
    Passage of the Act gives the Department of Hawaiian Home Lands 
access to the Title VI program, which allows the Department to leverage 
future block grant funds to finance affordable housing development. 
Affordable housing development in Hawai'i requires multiple financial 
partnerships to overcome the high cost of production. With limited 
access to state funding, the Title VI program gives Department of 
Hawaiian Home Lands an important tool to create stability in housing 
and be an attractive partner for the limited affordable housing 
development dollars in our state.
    Given the block grant program, Hawai'i's share of Hawaiian 
Homeownership Act funds has consistently been the minimum amount 
available, despite the high level of need and cost of housing in 
Hawai'i. As the national economy recovers, we look forward to continued 
stability and an increase in the availability of Hawaiian Homeownership 
Act funds to Native Hawaiians beyond those that qualify for Department 
of Hawaiian Homelands products.
    OHA supports S.65, The Hawaiian Homeownership Act of 2011, and its 
reaffirmation of the continuing trust relationship between the United 
States of America and Native Hawaiians. Thank you for the opportunity 
to comment.
                                 ______
                                 
  Prepared Statement of Paul P. Richards, President of the Waimanalo 
                   Hawaiian Homes Association (WHHA)
    Honorable Senators Daniel K. Akaka, Sr. and Committee Member Daniel 
K. Inouye and Members of the Senate Committee on Indian Affairs, Aloha 
kakou!
    Mahalo nui loa for the opportunity to submit written testimony 
regarding S.65 Hawaiian Homeownership Act of 2011 as a follow up to the 
previous legislative field hearing held here on O'ahu, Hawai`i.
    My name is Paul P. Richards, President of the Waimanalo Hawaiian 
Homes Association (WHHA) a Native Hawaiian Organization (NHO) and a 
federally recognized IRS 501c-3 non-profit entity representing 644 
homestead household lessees and 81 na kupuna residing at Kulana Kauhale 
Maluhia O Na Kupuna located in Waimanalo.
    The residents of the Waimanalo Hawaiian Homes Association (WHHA) 
sincerely appreciate your thoughtfulness and determination in amending 
the Native American Housing Assistance and Self-Determination Act 
(NAHASDA) as identified in S. 65 which authorizes the appropriations 
for housing assistance, loan guarantees for Native Hawaiian housing and 
eligibility of the Department of Hawaiian Home Lands (DHHL) for Title 
VI Loan Guarantees. These amendments will certainly open the 
opportunity for our Native Hawaiian population in preparing for 
homeownership and by taking advantage of programs offered through the 
Department of Housing and Urban Development (HUD).
    Our Association has taken positive steps towards financial literacy 
and ``practices'' within out homestead `ohana to ensure preparedness 
for homeownership begins within the ``four walls of their existing 
homes.'' Furthermore, ``education'' is the focal and primary pursuit we 
have instilled within our membership and residents ensuring the future 
successes are and have been measured by the increase and level of 
skills, techniques and critical thinking progression. For this reason, 
we have seen an increasing multitude of our recent generation prepared 
for homeownership through the Department of Hawaiian Home Lands and 
others through private venues.
    We strongly support S. 65, the intent and purposes proposed and 
hopefully the extension of these programs will continue beyond fiscal 
year 2015 or at minimum reauthorized for every five or ten fiscal 
years.
    We may not agree with some of the testimonies given during the 
field hearing and was confused with respect to those which did not or 
were not familiar with the intent of this U.S. Congressional 
legislation.
    However, we do believe there are independent, fully credentialed 
organizations and individuals besides those who were invited to testify 
that morning. Within our great state of Hawai`i, WHHA has continued to 
partnership and collaborate with these exceptional entities which have 
provided the highest quality of financial literacy, homeownership, 
individual and organization capacity building, debt and financial 
management services such organizations as HANO, HACBED, Office of 
Hawaiian Affairs (OHA)--Hiilei Aloha, NeighborWorks America and Hawaii 
Homeownership Center offering their programs and services, including 
independent contractors like Ms. Helen Wai, and Ms. Christine Vallez. 
We have included services provided by Alu Like, Inc. and Hawaii 
Technology Institute (HTI) whose community outreach and instructions 
helped to improve the level of employability of our homestead residents 
while increasing their potential towards homeownership.
    Please ensure within the legislation of S. 65 an inclusion and 
support for such organizations and businesses such as these are readily 
accessible and given equal opportunity to extend and continue its 
outreach in the Native Hawaiian communities. Their records within our 
community has blessed multitudes of young progressive and education 
Native Hawaiians the occasion to pre-qualify for homeownership loans 
and the elimination or control of debt accumulation.
    We ``strongly support'' S. 65 and extend our appreciation and 
``mahalo nui'' to our Senators Akaka and Inouye for the thoughtfulness, 
inclusion and forethought for our Native Hawaiian population.
    Our blessings and always best wishes for good fortune, health and 
prosperity be with you both along with your `ohana, and fellow Senators 
of the Senate Committee on Indian Affairs (SCIA), staff and supporters.
                                 ______
                                 
   Prepared Statement of Samson L. Brown, President, Aupuni O Hawai'i
    Aloha Mr. Chairman and members of the Committee. Thank you for the 
opportunity to offer testimony on the subject matter on S. 65 and/or 
its predecessor S. 710 for the betterment of the native Hawaiians. I am 
a indigenous man, National Hawaiian, and a native Hawaiian. I am please 
to share our understanding in this litigation and exploration in the 
role of Congress in resolving this subject matter for the native 
Hawaiians. We are Aupuni O Hawai'i, a native Hawaiian organization 
whose narrative is for the betterment of native Hawaiians as ascribed 
in Public no. 34--67th congress, 42 STAT 108, Hawaiian Home Commission 
Act 1920, a statue at large of the United States of America, hence the 
law of the land under Admiralty Jurisdiction (HHCA).
    The Homeownership Act of 2011 (S. 65) purports funding from the 
Native American Housing Assistance and Self-Determination Act (NAHASDA) 
under 25 U.S.C. 4191 et seq. to include the insertion of ``or 
Department'' after ``tribe'' for the taking of benefits from the tribes 
of Native Americans with the misclassification of a set mandate for the 
native Hawaiians Title 2, sec. 202 (7), HHCA to include in this bill. I 
am testifying before this committe on behalf of native Hawaiians whom 
receive unceasing marginalization for the basic fundamental subsistence 
by the State and U.S. Congressional Senators for the representation of 
the state of Hawai'i.
    My testimony today makes a number of points: (1) A classification 
of tribe for the native Hawaiians and with the intention of 
``department'' leaves one to believe that we are American Indians and 
we are a non-governmental institute with a compact trust (P.L. 86-3, 
Hawaii state admission act, sec. 4) that is operating in disarray. (2) 
The inability to constitute finances by this measure is inaccurate and 
incongruous in the marginalization of said compact. (3) The define 
classification of native Hawaiians and Native Hawaiians is an ongoing 
distinction for the state of Hawaii to articulate its purpose in the 
state of Hawaii and I will discuss these points in more detail.
1. A Classification of Tribe for the Native Hawaiians
    The treaty of the Hawaiian Kingdom and the United States is still 
in existence in the HHCA for this committee to ignore is to be 
blatantly arrogate and capricious in its ongoing managerial duty, 
furthermore to be noted as a tribe is to change an established distinct 
cultural recognized by an international compact for the conditions of 
our indigenous culture, I object with the intent/insertion of ``or 
Department'' after ``tribe'' in this bill to change our compact (HHCA) 
in the marginalization of our benefits to coffers vs the native 
Hawaiians. Furthermore the deception of
2. The financial Marginalization of Our Compact
    HHCA, Title 2, sec. 204 and 207, in conjunction with section 4 of 
the admission act and article 12 of the Hawaii State Constitution, we 
the native Hawaiians continue to see the benefits disseminated by 
coffers like (CHNA) for the exclusion of receiving the full amount 
versus paltry amounts of funding. We conclude that sec. 4 of the 
admission act (P.L. 86-3) on proceeds received by this section should 
be given to the native Hawaiians funds under the Hawaiian Home 
Commission ACT as ascribed in sec. 4 of the admission act (P.L. 86-3)
3. To Define a Class
    HHCA, Title 2, sec. 201 (7) defines the term ``Native Hawaiian'' 
means any descendant of not less than one-half part of the blood of the 
races inhabiting the Hawaiian islands previous to 1778, whereas sec. 
206 restricts the ability of the state's governor to manage and/or 
operate authority in respect to Hawaiian home lands. We also assert 
that within HHCA that holds Title 3, the Nationals of the Kingdom of 
Hawai'i is placated without Title 2, sec. 201 (7) in HHCA, therefore we 
are not apples in a grove orchard of oranges for we are the soil, 
minerals, and the bloodline to life for this quasi-state (oranges).
Conclusion
    This measure will cause an increase in poverty for the 
dissemination of our race by means of filtered our sovereign rights and 
to input egregious mandates to circumvent the betterment of the 
condition of native Hawaiians on our land by an open door policy to all 
non-Native Hawaiians onto our federal compact with the continuation of 
filtering monies from NAHASDA to coffers of the state of Hawai'i to 
services away for the native Hawaiians. We can only conclude that a 
remedy of sort is by the court of your peers and on the reelection 
circuit should the true native voices is not heeded by this committee 
and congress. And like Wounded Knee, we will prevail by means of 
intersession with the organizations of communities (not S. 2212) and 
the U.S. Congress for the betterment of native Hawaiians. Thank you for 
the opportunity to submit this testimony on behalf of all native 
Hawaiians-at-large before this Committee.
                                 ______
                                 
    Prepared Statement of Scottina Malia Ruis, Resource Management 
             Specialist, Department of Hawaiian Home Lands
    Aloha mai kakou,
    My name is Scottina Malia Ruis. I've spent the last 15 years 
serving Native Hawaiians through two Native Hawaiian Trusts: the Queen 
Lili'uokalani Children's Center and the Department of Hawaiian Home 
Lands. My expertise and comments below come from this service to my 
people and my continued commitment to the betterment of Native 
Hawaiians' socio-economic status, educational attainment and other 
elements of well being, to include improved living conditions, which 
will ultimately strengthen the Native Hawaiian people as a whole.
    Prince Jonah Kuhio never intended to divide the Native Hawaiian 
people into the ``haves'' and ``have-nots'' when he initiated and 
ultimately got the Hawaiian Homes Commission Act (HHCA) passed through 
Congress in 1920. Yet, this critical piece of legislation does just 
that. In addition, the HHCA is the foundation upon which Native 
Hawaiians of a specified blood quantum, as defined by Congress and not 
by the Hawaiian people, are allotted/awarded homeownership 
opportunities through the Department of Hawaiian Home Lands (DHHL)--a 
State governed entity whose leadership changes far too frequently for 
any long term impacts to reach but a few Native Hawaiians. This further 
divides the ``haves'' from the ``have-nots'' with under 8,000 actual 
homes on Hawaiian Home Lands as of December 2010 and over 20,000 
eligible Native Hawaiians (as defined by the HHCA) on the DHHL wait 
list as of the same period. At this rate, in 100 years (by 2020) only a 
mere 30 percent or less of eligible Native Hawaiians will have been 
provided with said homeownership opportunities. Needless to say there 
are another 50,000 DHHL eligible Native Hawaiians that are NOT on the 
DHHL wait list and at least another 100,000 Native Hawaiians who are 
not ``Hawaiian enough'' to be served by DHHL and who some purport to be 
served by the Office Of Hawaiian Affairs--another State entity that has 
historically leaned toward advocacy vs. programs. Clearly, the need for 
adequate, affordable, homeownership opportunities for all Native 
Hawaiians is far from being met.
    With specific regard to NAHASDA, as authorized by Congress in 1996 
and amended in 2000 to include Native Hawaiians--all I can say is--
''Its about time''. However, the fact that NAHASDA Title VIII (with 
specific regard to Native Hawaiians) has yet to be reauthorized since 
the original is a poor reflection on the original intent of the 
legislation. All other thoughts aside, I strongly urge the Senate 
Committee on Indian Affairs to do what ever is necessary to reauthorize 
Title VIII of NAHASDA and ensure a federal funding commitment to those 
eligible Native Hawaiians as defined by NAHASDA.
    With specific regard to the reauthorization of 184A--the most 
critical elements that need to be considered are as follows:

  <bullet> The use of the 184A for Refinancing of existing eligible 
        homes, and
  <bullet> The use of the 184A for Construction financing with NO 
        interest due and NO payment required until the home is 
        completed--realistically, it is impossible for a LOW-INCOME 
        family to pay for rent AND mortgage simultaneously.

    While there are elements of NAHASDA, HCCA, and services provided by 
DHHL and/or OHA that could be improved to better reach more Native 
Hawaiians and afford more Native Hawaiians the opportunity of 
homeownership, the most important thing at this juncture is the 
reauthorization of funding for NAHASDA Title VIII and the 
aforementioned inclusions to the language of 184A.
    Thank you for the opportunity to submit this testimony. I am 
available for further discussion should the need arise.
    O wau me ka ha'aha'a,
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
                             Rodger J. Boyd


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
